<html>
<title> - MEMORIAL ADDRESSES AND OTHER TRIBUTES HON. DONALD M. PAYNE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                            Donald M. Payne

                       LATE A REPRESENTATIVE FROM

                               NEW JERSEY



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
                           MEMORIAL ADDRESSES
                           AND OTHER TRIBUTES






           HON. DONALD M. PAYNE


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               1934-2012


             <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
             

                            Donald M. Payne










                               Memorial Addresses and

                                   Other Tributes

                        HELD IN THE HOUSE OF REPRESENTATIVES

                                     AND SENATE

                                OF THE UNITED STATES

                           TOGETHER WITH MEMORIAL SERVICES

                                     IN HONOR OF

                                   DONALD M. PAYNE

                 Late a Representative from New Jersey

                      One Hundred Twelfth Congress

                             Second Session



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

                          WASHINGTON : 2012



















                            Compiled under the direction

                                       of the

                             Joint Committee on Printing



























                                      CONTENTS
             Biography.............................................
                                                                      v
             Legislative Accomplishments and Activities............
                                                                    vii
             Proceedings in the House of Representatives:
                Tributes by Representatives:
                    Andrews, Robert E., of New Jersey..............
                                                                     26
                    Berman, Howard L., of California...............
                                                                     71
                    Bishop, Sanford D., Jr., of Georgia............
                                                                 58, 62
                    Blumenauer, Earl, of Oregon....................
                                                                     55
                    Brown, Corrine, of Florida.....................
                                                                     51
                    Burton, Dan, of Indiana........................
                                                                     25
                    Capps, Lois, of California.....................
                                                                     70
                    Carson, Andre, of Indiana......................
                                                                     54
                    Christensen, Donna M., of Virgin Islands 
                     ............................
                                                              8, 52, 71
                    Clarke, Hansen, of Michigan....................
                                                                     20
                    Clarke, Yvette D., of New York.................
                                                                     48
                    Clay, Wm. Lacy, of Missouri....................
                                                                     44
                    Cleaver, Emanuel, of Missouri..................
                                                                     28
                    Clyburn, James E., of South Carolina...........
                                                                     47
                    Cohen, Steve, of Tennessee.....................
                                                                  3, 46
                    Conyers, John, Jr., of Michigan................
                                                                     34
                    Costello, Jerry F., of Illinois................
                                                                     64
                    Davis, Danny K., of Illinois...................
                                                                     48
                    Dreier, David, of California...................
                                                                     59
                    Ellison, Keith, of Minnesota...................
                                                                      9
                    Faleomavaega, Eni F.H., of American Samoa......
                                                                     22
                    Frelinghuysen, Rodney P., of New Jersey........
                                                                     13
                    Fudge, Marcia L., of Ohio......................
                                                                     60
                    Green Al, of Texas.............................
                                                                     18
                    Hinojosa, Ruben, of Texas......................
                                                                     60
                    Hirono, Mazie K., of Hawaii....................
                                                                     67
                    Holt, Rush D., of New Jersey...................
                                                                     12
                    Hoyer, Steny H., of Maryland...................
                                                                     32
                    Jackson Lee, Sheila, of Texas..................
                                                                  6, 35
                    Johnson, Eddie Bernice, of Texas...............
                                                                     10
                    Jones, Walter B., of North Carolina............
                                                                     68
                    Kucinich, Dennis J., of Ohio...................
                                                                     73
                    Lance, Leonard, of New Jersey..................
                                                                     15
                    Larson, John B., of Connecticut................
                                                                     66
                    Lee, Barbara, of California....................
                                                                  4, 43
                    Lewis, John, of Georgia........................
                                                                     27
                    LoBiondo, Frank A., of New Jersey..............
                                                                     60
                    Matsui, Doris O., of California................
                                                                     63
                    McCollum, Betty, of Minnesota..................
                                                                     58
                    McGovern, James P., of Massachusetts...........
                                                                     68
                    Meeks, Gregory W., of New York.................
                                                                     57
                    Norton, Eleanor Holmes, of District of Columbia
                                                                     11
                    Pallone, Frank, Jr., of New Jersey 
                     ..........................................
                                                               5, 7, 39
                    Pascrell, Bill, Jr., of New Jersey.............
                                                                     24
                    Pelosi, Nancy, of California...................
                                                                     30
                    Pitts, Joseph R., of Pennsylvania..............
                                                                      4
                    Price, David E., of North Carolina.............
                                                                     49
                    Rangel, Charles B., of New York................
                                                                     61
                    Richardson, Laura, of California...............
                                                                     65
                    Richmond, Cedric L., of Louisiana..............
                                                                     45
                    Ros-Lehtinen, Ileana, of Florida...............
                                                                     21
                    Rothman, Steven R., of New Jersey..............
                                                                     41
                    Runyan, Jon, of New Jersey.....................
                                                                     66
                    Rush, Bobby L., of Illinois....................
                                                                     42
                    Schakowsky, Janice D., of Illinois.............
                                                                     23
                    Scott, David, of Georgia.......................
                                                                     56
                    Sessions, Pete, of Texas.......................
                                                                     39
                    Smith, Christopher H., of New Jersey 
                     ....................................
                                                               6, 7, 19
                    Waters, Maxine, of California..................
                                                                     16
                    Wolf, Frank R., of Virginia....................
                                                                      9
                    Woolsey, Lynn C., of California 
                     ..............................................
                                                              3, 14, 69
             Proceedings in the Senate:
                Tributes by Senators:
                    Lautenberg, Frank R., of New Jersey............
                                                                     75
                    Menendez, Robert, of New Jersey................
                                                                     76
                    Reid, Harry, of Nevada.........................
                                                                     79
             Memorial Services:
                    Metropolitan Baptist Church....................
                                                                     83
                    Statuary Hall..................................
                                                                    117
             Letter from Ambassador of Ireland.....................
                                                                    133
                 

                                      BIOGRAPHY

               Donald M. Payne, a native of Newark, NJ, became New 
             Jersey's first African American to be elected to the U.S. 
             Congress in 1988. In 2010, he was elected to serve his 
             12th term to represent the 10th District in the 112th 
             Congress.
               Representative Payne served as chairman of the 
             Congressional Black Caucus Foundation, whose mission is to 
             advance the global Black community by developing leaders 
             through internship and fellowship programs, informing 
             policy, and educating the public. He also served as a past 
             chairman of the Congressional Black Caucus. He was a 
             member of the Democratic Whip Organization and served as a 
             member of the House Democratic Leadership Advisory Group.
               Representative Payne was a senior member of the House 
             Committee on Education and the Workforce, where he served 
             on two subcommittees--the Subcommittee on Early Childhood, 
             Elementary and Secondary Education and the Subcommittee on 
             Workforce Protections. Throughout his tenure in Congress, 
             he was a leading advocate of education and was 
             instrumental in making K-12 public schools more successful 
             and college more affordable. He was a key player in the 
             passage of the College Cost Reduction and Access Act, 
             which cuts interest rates on Stafford loans in half, 
             increases Pell grants, and provides loan forgiveness to 
             public service employees with student loan debt. He also 
             introduced legislation designed to close the achievement 
             gap, including the Expanded Learning Time Act, the 
             Prescribe a Book Act, and the Youth Financial Education 
             Act.
               A true champion of workforce protections for America's 
             working families, Representative Payne was vocal in the 
             passage of minimum wage increase legislation, the Lilly 
             Ledbetter Fair Pay Act, worker health and safety 
             legislation, and the historic America's Affordable Health 
             Choices Act of 2009. Through his public policy efforts, 
             billions of dollars for economic development and other key 
             programs have been allocated to Essex, Hudson, and Union 
             Counties in his district.
               Representative Payne was a senior member of the House 
             Committee on Foreign Affairs, where he served as ranking 
             member of the Subcommittee on Africa, Global Health, and 
             Human Rights and as a member of the Subcommittee on the 
             Western Hemisphere.
               Representative Payne was at the forefront of efforts to 
             restore democracy and human rights in nations throughout 
             the globe. He joined with his colleagues to introduce a 
             measure which was subsequently approved by Congress to 
             strengthen the Microenterprise Act, providing small 
             business loans to people in developing nations. 
             Representative Payne was recognized as having the most 
             supportive record in Congress on issues involving the 
             Northern Ireland peace process. He was successful in 
             passing a resolution condemning genocide in Darfur, Sudan. 
             He authored the Sudan Peace Act to facilitate famine 
             relief efforts and a comprehensive solution to the war in 
             Sudan, which was approved by Congress.
               On the global health front, he cofounded the Malaria 
             Caucus, which was launched at an event with former First 
             Lady Laura Bush. He successfully secured $50 million for 
             prevention, control, and treatment of drug-resistant 
             tuberculosis. Representative Payne also helped secure 
             passage of a bill authorizing $50 billion for HIV/AIDS, 
             tuberculosis, and malaria under the historic PEPFAR 
             Program, which assists individuals primarily in Sub-
             Saharan Africa.
               Before being elected to serve as New Jersey's first 
             African American Congressman, Representative Payne's 
             career included service on the Newark Municipal Council; 
             Essex County Board of Chosen Freeholders; Essex County 
             Democratic chairman; executive of the Prudential Insurance 
             Company; Vice President of Urban Data Systems, Inc., and 
             an educator in the Newark and Passaic Public School 
             Districts. A former national president of the YMCA, he 
             also served as chairman of the World Refugee and 
             Rehabilitation Committee. Representative Payne has served 
             on the board of directors of the National Endowment for 
             Democracy, TransAfrica, Discovery Channel Global Education 
             Fund, Congressional Award Foundation, Boys and Girls Clubs 
             of Newark, Newark Day Center, and the Newark YMCA. He 
             received numerous awards and honors from national, 
             international, and community-based organizations.
               A graduate of Seton Hall University, Mr. Payne pursued 
             graduate studies at Springfield College in Massachusetts. 
             He held honorary doctorates from Drew University, Essex 
             County College, William Paterson University, Chicago State 
             University, Bloomfield College, and Berkeley College.
               Congressman Payne was a widower, the father of three, 
             grandfather of four, and great-grandfather of one.
                 

                     LEGISLATIVE ACCOMPLISHMENTS AND ACTIVITIES


                Legislation, Resolutions, and Amendments Signed into 
                                     Public Law

                             110th Congress (2007-2008)

Commission on the Abolition of the Transatlantic Slave Trade Act (H.R. 
3432; Public Law 110-183)

                              103d Congress (1993-1994)

Amendment adds increased access to physical education and health education 
as an additional objective for the GOALS 2000 (H. Amdt. 355 to H.R. 1804; 
Public Law 103-227)

Designating July 2, 1993 and July 2, 1994 as ``National Literacy Day'' 
(H.J. Res. 213; Public Law 103-52)

                              102d Congress (1991-1992)

Designating July 2, 1991 as ``National Literacy Day'' (H.J. Res. 259; 
Public Law 102-66)

Designating July 2, 1992 as ``National Literacy Day'' (H.J. Res. 499; 
Public Law 102-315)

             Concurrent Resolutions Passed in Both Chambers of Congress

                             110th Congress (2007-2008)

Supporting the goals and ideals of the International Year of Sanitation (H. 
Con. Res. 318)

Honoring and recognizing the dedication and achievements of Thurgood 
Marshall on the 100th anniversary of his birth (H. Con. Res. 381)

              Legislation, Resolutions, and Amendments Approved in the 
                                        House

                             112th Congress (2011-2012)

To designate the facility of the U.S. Postal Service located at 369 Martin 
Luther King Jr. Drive in Jersey City, NJ, as the ``Judge Shirley A. 
Tolentino Post Office Building'' (H.R. 2896)

                             111th Congress (2009-2010)

Supporting the goals and ideals of Malaria Awareness Day (H. Con. Res. 103)

Recognizing the ``Day of the African Child'' on June 16, 2009, devoted to 
the theme of child survival and to emphasize the importance of reducing 
maternal, newborn, and child deaths in Africa (H. Res. 550)

                             110th Congress (2007-2008)

Ethiopia Democracy and Accountability Act of 2007 (H.R. 2003)

Act commemorating the LITE, or Lifetime Innovations of Thomas Edison (H.R. 
2627)

Supporting the goals and ideals of World Diabetes Day (H. Con. Res. 211)

Calling for a peaceful resolution to the current electoral crisis in Kenya 
(H. Con. Res. 283)

Honoring the life and achievements of the late Dr. John Garang de Mabior 
and reaffirming the continued commitment of the House of Representatives to 
a just and lasting peace in the Republic of the Sudan (H. Res. 98)

Supporting the goals and ideals of Malaria Awareness Day (H. Res. 389)

Condemning postelection violence in Zimbabwe and calling for a peaceful 
resolution to the current political crisis (H. Res. 1230)

                             109th Congress (2005-2006)

Supporting the goals and ideals of a National Weekend of Prayer and 
Reflection for Darfur, Sudan (H. Res. 333)

                             108th Congress (2003-2004)

Celebrating 10 years of majority rule in the Republic of South Africa and 
recognizing the momentous social and economic achievements of South Africa 
since the institution of democracy in that country (H. Con. Res. 436)

Declaring genocide in Darfur, Sudan (H. Con. Res. 467)

                             106th Congress (1999-2000)

Condemning the National Islamic Front (NIF) government for its genocidal 
war in southern Sudan, support for terrorism, and continued human rights 
violations, and for other purposes (H. Con. Res. 75)

Expressing concern over the escalating violence, the gross violations of 
human rights, and the ongoing attempts to overthrow a democratically 
elected government in Sierra Leone (H. Res. 62)

Congratulating the people of Senegal on the success of the multiparty 
electoral process (H. Res. 449)

                             105th Congress (1997-1998)

Congratulating the people of the Co-operative Republic of Guyana for 
holding multiparty elections (H. Con. Res. 215)

Condemning the forced abduction of Ugandan children and their use as 
soldiers (H. Con. Res. 309)

Amendment allows foreign assistance to be made to the Democratic Republic 
of Congo as a part of the Foreign Affairs Reform and Restructuring Act of 
1998 (H. Amdt. 166 to H.R. 1757; approved by both Chambers but vetoed by 
President)

                              103d Congress (1993-1994)

Concerning the movement toward democracy in the Federal Republic of Nigeria 
(H. Con. Res. 151)

Concerning U.S. support for the new South Africa (H. Res. 560)

                              102d Congress (1991-1992)

Abandoned Infants Assistance Act Amendments of 1991 (H.R. 2722)

Concerning democratic changes and violations of human rights in Zaire (H. 
Con. Res. 238)

               Legislation, Resolutions, and Amendments Authored and 
                                     Introduced

                             112th Congress (2011-2012)

Prescribe a Book Act (H.R. 820)

                 Previous introductions: 111th Congress, H.R. 1526; 
                   110th Congress, H.R. 4449

Lead Act (H.R. 1524)

                 Previous introduction: 111th Congress, H.R. 5495

Time for Innovation Matters in Education Act of 2011 (H.R. 1636)

                 Previous introductions: 111th Congress, H.R. 3130; 
                   110th Congress, H.R. 3642

Promise Neighborhoods Act of 2011 (H.R. 2098)

To authorize National Mall Liberty Fund D.C. to establish a memorial on 
Federal land in the District of Columbia to honor free persons and slaves 
who fought for independence, liberty, and justice for all during the 
American Revolution (H.R. 2181)

                 Previous introductions: 111th Congress, H.R. 4036; 
                   110th Congress, H.R. 1693

Keeping PACE Act (H.R. 2691)

                 Previous introduction: 111th Congress, H.R. 3343

African Higher Education Advancement and Development Act (H.R. 2792)

                 Previous introduction: 111th Congress, H.R. 4392

To amend Title II of the Elementary and Secondary Education Act of 1965 to 
help close the gaps in principal preparation and provide new principals 
with the support and tools they need to meet the complex challenges of 
school leadership (H.R. 4113)

Althea Gibson Excellence Act (H.R. 4130)

International Food Assistance Improvement Act of 2012 (H.R. 4141)

Supporting the goals and ideals of World Malaria Day, and reaffirming U.S. 
leadership and support for efforts to combat malaria as a critical 
component of the President's Global Health Initiative (H. Con. Res. 49)

Expressing the sense of the Congress that the Parthenon Marbles should be 
returned to Greece (H. Con. Res. 54)

                 Previous introductions: 111th Congress, H. Con. Res. 
                   122; 108th Congress, H. Con. Res. 165; 107th 
                   Congress, H. Con. Res. 436; 106th Congress, H. Con. 
                   Res. 294

Welcoming the independence of the Republic of South Sudan, congratulating 
the people of South Sudan for freely and peacefully expressing their will 
through an internationally accepted referendum, and calling on the 
Governments and people of Sudan and South Sudan to peacefully resolve 
outstanding issues including the final status of Abyei (H. Con. Res. 65)

Supporting the democratic aspirations of the Ivoirian people and calling on 
the United States to apply intense diplomatic pressure and provide 
humanitarian support in response to the political crisis in Cote d'Ivoire 
(H. Res. 85)

Concerning efforts to provide humanitarian relief to mitigate the effects 
of drought and avert famine in the Horn of Africa, particularly Somalia, 
Ethiopia, Djibouti, and Kenya (H. Res. 361)

Recognizing the importance labor unions play in ensuring a strong middle 
class by advocating for more equitable wages, humane work conditions, 
improved benefits, and increased civic engagement by everyday workers (H. 
Res. 452)

To commemorate the life and accomplishments of Whitney Elizabeth Houston 
over the past 48 years; and expressing the condolences of the House of 
Representatives to her family upon her death (H. Res. 555)

                             111th Congress (2009-2010)

Act commemorating the LITE (H.R. 165)

Substitute Teaching Improvement Act (H.R. 2011)

                 Previous introduction: 110th Congress, H.R. 3345

To promote youth financial education (H.R. 2012)

                 Previous introduction: 110th Congress, H.R. 4335

To award posthumously a Congressional Gold Medal to Thurgood Marshall (H.R. 
2013)

                 Previous introductions: 109th Congress, H.R. 657; 
                   108th Congress, H.R. 4178

Restitution for the Exonerated Act of 2009 (H.R. 2095)

                 Previous introduction: 110th Congress, H.R. 4063

To amend the Internal Revenue Code of 1986 to provide a credit against tax 
for expenses paid or incurred in nonclinical research for neglected 
diseases (H.R. 3156)

Equity in Excellence Act of 2010 (H.R. 5586)

Zimbabwe Renewal Act of 2010 (H.R. 5971)

To amend the Higher Education Act of 1965 to provide for the refinancing of 
certain private education loans for physicians practicing primary care 
medicine (H.R. 6374)

Expressing congratulations and support for the appointment of former 
President William J. Clinton as United Nations Special Envoy for Haiti, and 
for other purposes (H. Res. 801)

Expressing strong support for lasting peace, democracy, and economic 
recovery in Somalia (H. Res. 859)

                             110th Congress (2007-2008)

To award a Congressional Gold Medal to Jerry Lewis in recognition of his 
outstanding service to the Nation (H.R. 3035)

Global HIV/AIDS Food Security and Nutrition Support Act of 2007 (H.R. 4914)

Just and Lasting Peace in Sudan Act of 2008 (H.R. 6416)

South African Enterprise Development Fund Act of 2008 (H.R. 7164)

Millennium Challenge Compact Improvement Act (MICA) (H.R. 7165)

Expressing support for advancing vital U.S. interests through increased 
engagement in health programs that alleviate disease and poverty, and 
reduce premature death in developing nations, especially through programs 
that combat high levels of infectious disease, improve children's and 
women's health, decrease malnutrition, reduce unintended pregnancies, fight 
the spread of HIV/AIDS, encourage healthy behaviors, and strengthen health 
care capacity (H. Con. Res. 247)

Recognizing the importance of addressing the plight of Afro-Colombians (H. 
Res. 618)

Honoring the dedication and hard work of Professor Eric Reeves on behalf of 
the people of Sudan (H. Res. 792)

Calling for the full implementation of the Sudan Comprehensive Peace 
Agreement (H. Res. 910)

Amendment increases funding to fight the global spread of tuberculosis by 
$50 million (H. Amdt. 359 to H.R. 2764)

                             109th Congress (2005-2006)

Darfur Genocide Accountability Act of 2005 (H.R. 1424)

Remembering the victims of the genocide that occurred in 1994 in Rwanda and 
pledging to work to ensure that such an atrocity does not take place again 
(H. Con. Res. 88)

                 Previous introduction: 108th Congress, H. Con. Res. 
                   406

Paying tribute to the Africa-America Institute (AAI) for its more than 50 
years of dedicated service toward nurturing and unleashing the productive 
capacities of knowledgeable, capable, and effective African leaders through 
education (H. Con. Res. 261)

Commending the people of the Republic of Liberia for holding peaceful 
national elections in 2005 and congratulating President Ellen Johnson-
Sirleaf on her victory and becoming the first female president of any 
African country (H. Con. Res. 313)

Honoring the life and achievements of the late Dr. John Garang de Mabior 
and reaffirming the continued commitment of the House of Representatives to 
a just and lasting peace in the Republic of the Sudan (H. Res. 496)

Expressing condolences to the people and Government of Nigeria for the loss 
of life suffered in the crash of a Nigerian passenger jet on October 22, 
2005 and the tragic death of Stella Obasanjo, wife of Nigerian President 
Olusegun Obasanjo, at a hospital in Spain on October 23, 2005 (H. Res. 536)

Urging the Government of the Gabonese Republic to hold orderly, peaceful, 
and free and fair Presidential elections in November 2005 (H. Res. 554)

                             108th Congress (2003-2004)

Ending Polio in Our Time Act (H.R. 1892)

To designate the air traffic control tower at Newark International Airport 
in Newark, NJ, as the ``William J. `Whitey' Conrad Air Traffic Control 
Tower'' (H.R. 1987)

                 Previous introduction: 107th Congress, H.R. 2803

Ralph J. Bunche Scholarship Act (H.R. 3152)

Hour of Pay for an Hour of Work Act (H.R. 3174)

                 Previous introduction: 107th Congress, H.R. 4762

Concerning the transition to democracy in the Republic of Burundi (H. Con. 
Res. 154)

Acknowledging the strong relationship between the United States and the 
Republic of Mali and recognizing Mali's role in building a participative 
democracy, providing leadership through conflict resolution and 
peacekeeping activities, and supporting the fight against terrorism (H. 
Con. Res. 229)

Expressing the sense of Congress with respect to the urgency of providing 
support for the ``Agreement on Ceasefire and Cessation of Hostilities 
Between the Government of the Republic of Liberia and Liberians United for 
Reconciliation and Democracy and the Movement for Democracy of Liberia,'' 
and for other purposes (H. Con. Res. 240)

Urging a full and impartial inquiry into the murder of attorney Pat 
Finucane in 1989 in Northern Ireland (H. Con. Res. 267)

Expressing the sense of the House of Representatives with respect to polio 
(H. Res. 20)

Expressing support for the Head Start Program, which has had a positive 
impact on the lives of low-income children and families since its inception 
and endorsing its administrative structure and program content (H. Res. 
238)

Recognizing and honoring the 50th anniversary of the United States Supreme 
Court decision in Brown v. Board of Education (H. Res. 508)

Honoring and recognizing the achievements of Thurgood Marshall and 
encouraging Congress to award him the Congressional Gold Medal (H. Res. 
509)

                             107th Congress (2001-2002)

Stop Gun Trafficking Act of 2001 (H.R. 998)

To restrict U.S. assistance of any kind to Turkey until Turkey uses its 
influence with the Turkish Cypriot leadership to achieve a settlement on 
Cyprus based on United Nations Security Council resolutions (H.R. 2707)

Regarding the human rights situation in the Republic of the Sudan, 
including the practice of chattel slavery and all other forms of booty and 
related practices (H. Con. Res. 82)

Regarding the human rights situation in Sudan, including the practice of 
chattel slavery (H. Con. Res. 112)

Regarding human rights violations and oil development in Sudan (H. Con. 
Res. 113)

Condemning the National Islamic Front (NIF) Government of Sudan for its 
genocidal war against the people of southern Sudan and expressing support 
for the Vigil for Sudan being held at Galvez Park in Washington, DC (H. 
Con. Res. 478)

                             106th Congress (1999-2000)

Northern Ireland Peace Act (H.R. 2109)

                 Previous introduction: 105th Congress, H.R. 1075

Northern Ireland Peace and Reconciliation Act (H.R. 2110)

                 Previous introduction: 105th Congress, H.R. 4494

Teacher Loan Forgiveness Act of 2000 (H.R. 4956)

Condemning the brutal killing of Rosemary Nelson (H. Con. Res. 59)

Expressing the sense of Congress with regard to cultural education and 
awareness of the history of slavery in America (H. Con. Res. 103)

Concerning efforts to avert drought and famine in Africa, particularly 
Ethiopia (H. Con. Res. 316)

Amendment sought to strike title VIII of the bill that permits schoolwide 
program funding for schools that serve at least 40 percent of children from 
low-income families (H. Amdt. 537 to H.R. 2)

An amendment to provide that not less than $720 million shall be made 
available for the Development Fund for Africa (H. Amdt. 989 to H.R. 4811)

An amendment to provide that $500,000 shall be made available for a grant 
to the Office of the Facilitator of the National Dialogue for the peace 
process in the Democratic Republic of the Congo (H. Amdt. 990 to H.R. 4811)

An amendment to prohibit assistance to any country that is not in 
compliance with U.N. sanctions against Angola (H. Amdt. 994 to H.R. 4811)

Amendment no. 56 printed in the Congressional Record to restrict assistance 
to governments destabilizing Angola (H. Amdt. 996 to H.R. 4811)

Amendment no. 57 printed in the Congressional Record to provide $15 million 
in assistance for the National Democratic Alliance of Sudan (H. Amdt. 1002 
to H.R. 4811)

                             105th Congress (1997-1998)

To amend the Internal Revenue Code of 1986 to permanently extend the 
exclusion for employer-provided educational assistance programs, to restore 
such exclusion for graduate level courses, and to allow a deduction for 
interest on education loans (H.R. 1632)

Nigeria Democracy Act (H.R. 1786)

                 Previous introduction: 104th Congress, H.R. 2697

Expanding International Education for All Act (H.R. 3311)

To amend the Communications Act of 1934 to require providers of wireless 
services to render bills that itemize the calls made by the subscriber 
(H.R. 4493)

To amend the Omnibus Parks and Public Lands Management Act of 1996 to 
extend the legislative authority for the Black Patriots Foundation to 
establish a commemorative work (H.R. 4573)

Expressing the sense of the Congress with respect to the discrimination by 
the German Government against members of minority religious groups, 
particularly the continued and increasing discrimination by the German 
Government against performers, entertainers, and other artists from the 
United States associated with Scientology (H. Con. Res. 22)

Congratulating the people of the Republic of Liberia for holding multiparty 
elections (H. Con. Res. 135)

Regarding the human rights situation in Sudan and Mauritania, including the 
practice of chattel slavery and all other forms of booty (H. Con. Res. 234)

Amendment allows foreign assistance to be made to the Democratic Republic 
of Congo (H. Amdt. 166 to H.R. 1757)

                             104th Congress (1995-1996)

Abandoned and Medically Fragile Infants Assistance Act of 1995 (H.R. 1263)

Agriculture Modernization Act of 1995 (H.R. 1354)

Congressional Award Act Amendments of 1995 (H.R. 2396)

To prohibit economic assistance, military assistance, or arms transfers to 
the Government of Sudan until appropriate action is taken to eliminate 
chattel slavery in Sudan, and for other purposes (H.R. 3766)

Liberian Peace and Democracy Act (H.R. 4001)

Concerning the movement toward democracy in the Federal Republic of Nigeria 
(H. Con. Res. 40)

Expressing the sense of the Congress that any legislation passed by the 
Congress relating to assistance for school lunch and breakfast programs 
should include a requirement to provide free lunches and breakfasts to 
economically disadvantaged students (H. Con. Res. 49)

Expressing the sense of the House of Representatives with respect to the 
promotion of democracy and civil society in Zaire (H. Res. 399)

Expressing the sense of the House of Representatives that criminals from 
the genocide in Rwanda should be brought to justice by the International 
Criminal Tribunal for Rwanda (H. Res. 491)

Expressing the sense of the House of Representatives that criminals from 
the genocide in Rwanda should be brought to justice by the International 
Criminal Tribunal for Rwanda (H. Res. 494)

Amendment in the nature of a substitute sought to achieve a balanced budget 
by fiscal year 2002 through spending cuts of $518 billion along with $583 
billion in net revenues, spending less on defense and keeping Medicare and 
Medicaid funding at levels that the Congressional Budget Office estimates 
is necessary to continue current services, and placing priorities on 
programs such as education and job training, and increasing taxes on 
multinational corporations, slowing down depreciation writeoffs for 
business equipment and taxing capital gains income at the same rate as 
ordinary income (H. Amdt. 397 to H. Con. Res. 67)

Amendment sought to provide that nothing in the bill shall be construed as 
prohibiting the investment by an employee benefit plan in infrastructure 
improvements (H. Amdt. 772 to H.R. 1594)

Amendment in the nature of a substitute sought to provide for a balanced 
budget by FY 2002 by reducing spending by $333.1 billion and increasing 
revenue by $486.6 billion. It would have provided for decreased funding for 
defense over 6 years; maintained Medicare and Medicaid expenditures at 
levels that CBO estimates is required to maintain current services; 
increased funding for education, job training, and social services; and 
provided for revenue increases by revising tax provisions relating to 
capital gains, and multinational and foreign controlled corporations (H. 
Amdt. 1061 to H. Con. Res. 178)

An amendment to appropriate $704,000,000 for the Development Fund for 
Africa (H. Amdt. 1115 to H.R. 3540)

                              103d Congress (1993-1994)

Homestead Rebate Exemption Act of 1993 (H.R. 735)

To exclude shipboard supervisory personnel from selection as employer 
representatives, and for other purposes (H.R. 859)

To reduce until January 1, 1995, the duty on succinic anhydride (H.R. 1117)

                 Previous introduction: 102d Congress, H.R. 4945

Urban Schools of America (USA) Act of 1993 (H.R. 1202)

Community Job Training and Investment Act of 1993 (H.R. 1467)

To amend the Internal Revenue Code of 1986 in order to provide an incentive 
for business to invest in pollution abatement property and related assets 
(H.R. 2456)

Elementary School Counseling Demonstration Act (H.R. 2571)

Youth Development Block Grant Act of 1993 (H.R. 4086)

1995 Black Revolutionary War Patriots Commemorative Coin Act (H.R. 5192)

Concerning democracy for Zaire (H. Res. 128)

                              102d Congress (1991-1992)

College Opportunity Act of 1991 (H.R. 3364)

Concerning democratic changes and violations of human rights in Zaire (H.R. 
3406)

Expressing the sense of the House of Representatives that the results of 
the 1990 census should be statistically adjusted to include individuals who 
were overlooked in the census (H. Res. 214)

                             101st Congress (1989-1990)

Community Education Empowerment Center Act of 1989 (H.R. 3465)

Designating July 2, 1989, as ``National Literacy Day'' (H.J. Res. 277)

Designating July 2, 1990, as ``National Literacy Day'' (H.J. Res. 530)

                         Additional Legislative Achievements

                             112th Congress (2011-2012)

In honor of his longtime commitment to international development and 
diversity, on March 2, 2012, USAID announced the Donald M. Payne 
Development Fellowship Program, designed to attract outstanding young 
members of minority groups who have historically been underrepresented in 
international development careers.

                             110th Congress (2007-2008)

In 2008, Congressman Payne was successful in his advocacy of H.R. 5501 that 
allocated $50 billion to help combat the HIV/AIDS, malaria, and 
tuberculosis that burden the world under the historic PEPFAR Program.

                             109th Congress (2005-2006)

In 2006, Congressman Payne served as the ranking member of the House 
International Relations Subcommittee on Africa, Global Human Rights, and 
International Operations when the Subcommittee marked up the Darfur Peace 
and Accountability Act of 2006, which was signed into law.

                             108th Congress (2003-2004)

Congressman Payne helped introduce a measure, subsequently approved, to 
strengthen the Microenterprise Act, providing small business loans to 
people in developing nations.

                             106th Congress (1999-2000)

In 2000, Congressman Payne helped spearhead the passage of critical 
economic legislation, the African Growth Opportunity Act (AGOA), which 
promotes African economic development and trade with the United States. In 
2009, he helped launch the African Partnership for Economic Growth Caucus.
?

                 

                                           

                                 MEMORIAL ADDRESSES

                                         AND

                                   OTHER TRIBUTES

                                         FOR

                                   DONALD M. PAYNE
                 

                     Proceedings in the House of Representatives
                                                 Tuesday, March 6, 2012
               Mr. COHEN. Madam Speaker, I came here to speak about a 
             topic which I will address shortly, but I could not take 
             the moment to reflect on the passing of a great man who 
             served in this Chamber since 1989, Representative Donald 
             Payne of New Jersey, who passed away this morning. 
             Representative Payne sat in this section. He was a quiet, 
             righteous, courageous man with whom I had the good fortune 
             to travel with at the request of and sponsorship of CARE 
             and the Gates Foundation to Rwanda and to the Congo last 
             August.
               He cared about children greatly. He cared about 
             education. He cared about people, and was very upset some 
             years back when Don Imus, the radio shock jock, said some 
             wrongful things about the Rutgers women's basketball team 
             that cost Mr. Imus his position. . . .

               Ms. WOOLSEY. . . . My 7-year-old grandson, Jake Eddie, 
             is joining me in Washington this week, and I believe it is 
             our responsibility to make a promise to him and to his 
             classmates and his peers. Our legacy to them must be a 
             world free of nuclear weapons. Our legacy to them must be 
             a peaceful future. And one step in the right direction, in 
             the memory of Donald Payne, is to bring our troops home 
             from Afghanistan.

                                        PRAYER
               The Chaplain, the Reverend Patrick J. Conroy, offered 
             the following prayer:
               Loving God, we give You thanks for giving us another 
             day.
               Today is a significant day for Americans in this 
             election year. We ask Your blessing upon the American 
             people, especially those who choose to participate this 
             day in primary elections. Give them good judgment and a 
             sincere desire for the welfare of this great Nation as 
             they cast their ballots.
               Bless, as well, the Members of this People's House. May 
             they be filled with Your spirit this day and exercise 
             their responsibilities with wisdom, understanding, and 
             goodwill. May all they do be for Your greater honor and 
             glory.
               In the past few days, O Lord, many have been assailed by 
             terrifying and destructive weather. Send Your healing balm 
             upon those who have been afflicted and bless with rapid 
             success the efforts of those emergency responders who are 
             working tirelessly to rebuild shattered lives and 
             communities.
               And finally, with sorrow, we acknowledge the passing of 
             Donald Payne of the 10th District of New Jersey. We thank 
             You for his years of service in this assembly and ask You 
             to bless his family and loved ones. Eternal rest grant 
             unto him, O Lord, and let perpetual light shine upon him. 
             May his soul and the souls of all the departed, through 
             the mercy of God, rest in peace.
               Amen.

               Ms. LEE of California. Madam Speaker, last night we lost 
             a world leader, a father, a grandfather, a brother, an 
             uncle, a great leader who consistently brought light to 
             human suffering taking place around the world and what we 
             here in Washington, DC, can do for it.
               It is with a heavy heart that I rise today in memory and 
             in honor of Congressman Don Payne, a brilliant leader, 
             former chair of the Africa Subcommittee on Foreign 
             Affairs, and to do what I'm sure he would be doing if he 
             were with us today, speak out against the massacres taking 
             place in Sudan.
               These killings are taking place in the Sudanese state of 
             South Kordofan, outside the view of this Congress, and 
             most Americans are unaware of this humanitarian 
             catastrophe unfolding in the same region where we saw 
             bloodshed in Darfur for many years.
               Madam Speaker, on this day of mourning for 
             Representative Payne, I know he would want us to recommit 
             ourselves to act to prevent further bloodshed and 
             suffering in Sudan.
               My thoughts and my prayers are with Congressman Payne's 
             family, his friends, and his constituents. May his legacy 
             live forever. I will deeply miss his wise counsel and his 
             friendship.

               Mr. PITTS. Madam Speaker, today the House of 
             Representatives lost a distinguished Member who served 
             with honor for more than two decades. I had the pleasure 
             of working with Donald Payne many times over the years. He 
             had an incredible heart for Africa and suffering people in 
             every corner of the continent.
               From Morocco to South Africa, he was a tireless advocate 
             for freedom and self-determination. We worked together 
             speaking on behalf of the Sahrawi people in Western 
             Sahara. Representative Payne watched Western Sahara 
             closely, working toward a peaceful resolution that would 
             allow for a free referendum that could establish self-
             government.
               We also worked together in 2007 to recognize the 200th 
             anniversary of the abolition of the British slave trade 
             and to honor the legacy of William Wilberforce.
               In one amazing episode, he risked his life seeking peace 
             in Sudan and nearly had his plane shot down in 2009.
               Donald Payne never missed an opportunity to advocate on 
             behalf of the oppressed, and his work has had a lasting 
             impact on the human rights of people around the world. I'm 
             proud to have fought the good fight alongside of him.
               He will be missed.

               Mr. PALLONE. Madam Speaker, I would like to speak about 
             my dear friend and colleague, Donald Payne, who passed 
             away this morning. I saw him on Saturday for the last 
             time, and I can't think of anybody who in this House has 
             been closer to me and someone who made it so much better 
             for us to be in Congress, not only for all of us as 
             colleagues but also for the rest of the world.
               Donald always made me smile. Donald was a very serious 
             person who cared so much about his constituents in Newark 
             and the rest of the towns that he represented in New 
             Jersey and really reached out to the rest of the world. He 
             was always looking out for the concerns of the poor and 
             the disadvantaged and the people in need, whether it was 
             their health care or whether they had adequate food or 
             housing.
               But I think more than anything else, I remember his 
             smile. He would always be happy. He would always have a 
             joke to tell; and, frankly, in dealing with all the 
             serious issues that he dealt with and he cared so much 
             about, both here at home, as well as overseas, it was 
             always nice to have someone that you could call a friend, 
             that you could confide in, that you could talk to about 
             your own problems as well, but always with that smile, 
             always with that joke, always with the ability to say, 
             Frank, you know, let's not take ourselves too seriously, 
             even though we have a lot of serious work to do.
               I will sorely miss him. I don't think there will be 
             anybody who can replace him, and I just want to reach out 
             to his family and his friends back at home today and 
             express my sympathy to all of them for such a wonderful 
             person that you were able to share some time with here.

               Ms. JACKSON LEE of Texas. Would the gentleman yield for 
             just a moment?

               Mr. PALLONE. I yield to the gentlewoman.

               Ms. JACKSON LEE of Texas. Just one simple statement. I 
             couldn't leave the floor.
               Just to express our love and affection for Don Payne and 
             just to say that he saved lives because he intruded in 
             places like Africa and Sudan, and many other places. He 
             saved lives because of his compassion for people, his 
             fight for human rights, and his fight for peace.

               Mr. PALLONE. Thank you.

               Mr. SMITH of New Jersey. Mr. Speaker, it is with deep 
             sorrow that I inform the House that our dear friend and 
             colleague, Don Payne, has passed. He had colon cancer.
               In a few moments a privileged resolution will be offered 
             on the floor that recognizes and honors this extraordinary 
             man who dedicated his entire life to public service, a man 
             who made a significant difference in the lives of many in 
             his district, in our State, in the Nation, and in the 
             world.
               Elected in 1988, after first serving as a Newark city 
             councilman and Essex County freeholder, this high school 
             teacher and coach-turned-politician went on to be the 
             first African American ever to serve in Congress from the 
             State of New Jersey.
               Don fought tenaciously to combat the HIV/AIDS pandemic 
             and mitigate the loss of life and morbidity from 
             tuberculosis and malaria on the subcontinent of Africa. He 
             coauthored the Sudan Peace Act and worked tirelessly to 
             end the genocide in both South Sudan and Darfur. As a 
             matter of fact, he even risked his life in Somalia--was 
             shot at--in the pursuit of peace.
               I know first hand, Mr. Speaker, how much he truly cared 
             and how hard he worked for peace and reconciliation in 
             war-ravaged nations. I served as the ranking member of the 
             Africa Subcommittee when he chaired it, and he served as 
             the ranking member when I chaired it.
               Finally, let me just say that Don Payne also served as 
             chairman of the Congressional Black Caucus, and until his 
             untimely death today, chairman of the Congressional Black 
             Caucus Foundation. He was predeceased by his wife, Hazel. 
             Don is also the proud father of three, grandfather of 
             four, and great-grandfather of one.
               Donald Payne, Mr. Speaker, will be missed.
               I yield to my good friend and colleague, Mr. Pallone.

               Mr. PALLONE. I thank my friend.
               Mr. Speaker, I can't believe that Don Payne is not with 
             us today. I'm looking over there where he would often sit, 
             and I would come down on the floor and ask him to do a One 
             Minute or a Special Order.
               He was very proud of his African American roots, and it 
             was one of the reasons that he would often go to Africa 
             and champion so many causes for those there.
               Don cared so deeply about his hometown of Newark and the 
             other towns that he represented. He was always looking out 
             for those in need--the disadvantaged and the poor. Those 
             were the people that he cared about, and he spent so much 
             time trying to deal with their problems and making their 
             lives better.
               I think more than anything else I remember Don's smile. 
             Don always felt that things could get better and that we 
             could work together. I think a lot of people don't know 
             that his district was very diverse. There were many 
             African Americans, but there were also many people of 
             other nationalities. We would often talk about the Italian 
             Americans that he had lived with, grew up with, and worked 
             with in his district.
               Don always felt that we could have a better world, that 
             Democrats and Republicans could work together and that 
             people could work across ethnic and racial barriers. He 
             always made me feel, no matter how down I was on a 
             particular day, that this place was important and that we 
             can make a difference in people's lives. So I will sorely 
             miss him.
               I would ask that this afternoon, at the end of the day, 
             at approximately 4 o'clock, we have unlimited One Minutes, 
             and we're going to have a bipartisan hour Special Order 
             where Members can come down and pay tribute.
                                  Moment of Silence
               Mr. SMITH of New Jersey. Mr. Speaker, I do ask for a 
             moment of silence to remember our dearly departed friend, 
             Don Payne.

               The SPEAKER. Members and guests will rise and observe a 
             moment of silence.

               Mr. SMITH of New Jersey. Mr. Speaker, I offer a 
             privileged resolution and ask for its immediate 
             consideration.
               The Clerk read the resolution, as follows:
                                     H. Res. 571
               Resolved, That the House has heard with profound sorrow 
             of the death of the Honorable Donald M. Payne, a 
             Representative from the State of New Jersey.
               Resolved, That a committee of such Members of the House 
             as the Speaker may designate, together with such Members 
             of the Senate as may be joined, be appointed to attend the 
             funeral.
               Resolved, That the Sergeant-at-Arms of the House be 
             authorized and directed to take such steps as may be 
             necessary for carrying out the provisions of these 
             resolutions and that the necessary expenses in connection 
             therewith be paid out of applicable accounts of the House.
               Resolved, That the Clerk communicate these resolutions 
             to the Senate and transmit a copy thereof to the family of 
             the deceased.
               Resolved, That when the House adjourns today, it adjourn 
             as a further mark of respect to the memory of the 
             deceased.

               The resolution was agreed to.
               A motion to reconsider was laid on the table.

               The SPEAKER pro tempore (Mr. Fincher). Under the 
             Speaker's announced policy of January 5, 2011, the 
             gentlewoman from the Virgin Islands (Mrs. Christensen) is 
             recognized for 60 minutes as the designee of the minority 
             leader.

               Mrs. CHRISTENSEN. Mr. Speaker, today, as you heard, the 
             House, the Congress as a whole, the 10th District of New 
             Jersey, our Nation, the countries of Africa and the 
             Caribbean, of Ireland, where he was an honorary citizen 
             and, indeed, the world, has suffered a great loss. Donald 
             Payne was a friend and advocate for the world and all of 
             its peoples, but particularly for the sons of Africa here 
             and worldwide.
               Tonight I am honored to chair this Special Order in his 
             honor, and to recognize my colleagues from both sides of 
             the aisle who will be coming to pay tribute to Donald 
             Payne.
               I'd like to begin by asking unanimous consent that all 
             Members might have 5 legislative days in which to revise 
             and extend their remarks and include extraneous material 
             on the topic of the Special Order.

               The SPEAKER pro tempore. Is there objection to the 
             request of the gentlewoman from the Virgin Islands?
               There was no objection.

               Mrs. CHRISTENSEN. I'd like to begin by yielding 2 
             minutes to the gentleman from Minnesota (Mr. Ellison).

               Mr. ELLISON. Mr. Speaker, Donald Payne played a very 
             special role in my service as a Member of Congress. I 
             didn't know him nearly as long as many other Members, and 
             I guess I probably didn't know him as well; but there is 
             no doubt that as a Member coming into Congress trying to 
             figure out how to be the best Member I could be, Donald 
             Payne was one of the people who I admired and looked to, 
             and no more so than when he was fighting for the human 
             rights of all people.
               Donald Payne gave me a new and unique perspective on 
             suffering in Darfur, explaining the complexities as it 
             related to making sure that Darfurians not only got 
             relief, but also eventually one day would get justice.
               But he didn't stop there. I have a large percentage of 
             my constituents who hail from Somalia, and Donald Payne 
             gave me historic perspective on Somalia on a regular 
             basis, which I didn't have, and also, again, helped me 
             understand how difficult it was and how important it also 
             was that we stand for stability for the people of Somalia. 
             In fact, his level of commitment to the people of Somalia 
             was so great, he got into an airplane and flew there and, 
             on his way out, was actually shot at when al-Shabab tried 
             to take his life for showing concern for the people.
               Yet he traveled many places and really went all around 
             the world; but he also went into my district, as he went 
             to many districts, and I'll never forget the day when we 
             organized a community forum on East Africa. We had Somalis 
             in the room, people from the Ogaden region of Ethiopia, 
             people from Eritrea, all over, immigrants who made America 
             their home either by choice or because they were refugees. 
             For 3 straight hours, Donald Payne answered their 
             questions, gave them comfort and assurance and 
             information.
               He is a towering figure in my world, and I don't think 
             we'll ever forget Donald Payne. I just say, may he rest in 
             peace, and God bless him and his family.

               Mrs. CHRISTENSEN. I'd like to yield 2 minutes to Mr. 
             Wolf of Virginia.

               Mr. WOLF. Mr. Speaker, I rise today to pay tribute to 
             the life and legacy of Congressman Donald Payne.
               As a public servant, Congressman Payne has consistently 
             stood with the forgotten people and causes. He has 
             championed their plight and advocated on their behalf, 
             perhaps none more so than the long-suffering people of the 
             Southern Sudan.
               For years, Congressman Payne advocated for self-
             determination for the people of South Sudan, who had 
             endured great hardship at the hands of the government in 
             Khartoum. He was also the leading voice in urging States 
             in the United States to divest from companies doing 
             business in Sudan in light of the government's horrific 
             human rights abuses.
               Congressman Payne was the sponsor of the congressional 
             resolution calling attention to the horrors unfolding in 
             Darfur, a resolution which was rightly labeled as 
             ``tragedy,'' ``genocide.'' The list goes on and on.
               I had the honor of being with Congressman Payne in 
             Nairobi, Kenya, in 2005 for the historic signing of the 
             Comprehensive Peace Agreement which marked the end of a 
             brutal civil war between the north and the south which 
             spanned 21 years and claimed the lives of more than 2 
             million people. Congressman Payne labored for years to see 
             that day arrive. No one did more than Don Payne to bring 
             about the new country, which is now the country of 
             Southern Sudan.
               He, fittingly, returned to South Sudan in July 2011 to 
             join the people of that land in celebrating their long-
             awaited independence, a fulfillment of the promise. Upon 
             being chosen to be part of the official U.S. delegation, 
             Congressman Payne issued the following statement. He said:

               As a ranking member on the House Foreign Affairs 
             Subcommittee on Africa, Global Health, and Human Rights, I 
             have been committed to helping Sudan achieve peace and 
             justice.

               Indeed, he was committed. Congressman Payne worked hard. 
             He traveled to the region countless times. He experienced 
             the people suffering, and then he acted. Congressman Payne 
             heard the people suffering and never chose to look the 
             other way.
               My thoughts and prayers are with Congressman Payne's 
             family as they grieve, and Congress will profoundly miss 
             his voice, as will thousands of others around the world.

               Mrs. CHRISTENSEN. I would next like to yield 2 minutes 
             to the Congresswoman from Texas, Congresswoman Eddie 
             Bernice Johnson.

               Ms. EDDIE BERNICE JOHNSON of Texas. Thank you to my 
             colleague from the Virgin Islands.
               I rise to speak today about the loss of Congressman 
             Donald Payne. Congressman Payne lost his battle with 
             cancer early this morning, and we in Congress lost an 
             esteemed colleague.
               My relationship and acquaintance with Congressman Payne 
             began before I came to Congress when I met him while he 
             served on the national YMCA board and became the chair of 
             the national YMCA board; and I know him as a devoted 
             public servant who used his position in Congress to 
             advocate for those less fortunate, first, as a teacher, 
             and later, serving on the House Committee on Education and 
             the Workforce. He was an advocate for children and worked 
             to make college more affordable.
               As the highest ranking Democrat on the Foreign Affairs 
             Subcommittee on Africa, Global Health, and Human Rights, 
             he worked to promote human rights around the world and 
             helped secure billions of dollars in foreign aid for 
             treating HIV/AIDS, tuberculosis, and malaria.
               It is difficult to lose a member of the Congressional 
             Black Caucus family. We're small but very connected. 
             Congressman Payne served the 10th District of New Jersey 
             with dedication and served as the chair of the 
             Congressional Black Caucus as well.
               My thoughts and prayers are with his family today in 
             this difficult time.

               Mrs. CHRISTENSEN. I would like to yield 2 minutes to the 
             Congresswoman from the District of Columbia, Congresswoman 
             Eleanor Holmes Norton.

               Ms. NORTON. I thank the gentlelady for yielding and for 
             leading this Special Order for our good friend and 
             colleague, Donald Payne, whose passing leaves me shocked 
             and deeply saddened after his 12 terms of outstanding 
             service in the House of Representatives.
               Don was a friend. He was more than a colleague. He was 
             the kind of friend you could always strike up a 
             conversation with about technical matters or just matters 
             at hand because Don was easy of manner but strong of 
             conviction.
               Don was a real pathbreaker and history maker. He came to 
             Congress as the first African American to serve in 
             Congress from the State of New Jersey. He followed the 
             great Peter Rodino, who had served Newark for decades. 
             Newark had become a majority African American city, but 
             Don grew up in a neighborhood that was as Italian as it 
             was Black and felt comfortable with people of all ethnic 
             groups.
               When Congressman Rodino, who was then chair of the House 
             Judiciary Committee, retired--this was, of course, before 
             I came to Congress, but it was much commented upon--Don, 
             who had run against him several times and was the logical 
             person to win that seat, plunged into his work for a city 
             that needed a man of his depth of understanding and 
             conviction of their problems, their education, their 
             health care, their housing needs.
               Newark, when the Congressman came here 12 terms ago, 
             personified, symbolized the great urban communities of our 
             country and the upheavals that they were undergoing. He 
             plunged into that work, and yet he was able, at the same 
             time, to become perhaps the House's most expert Member on 
             Africa and the Caribbean.
               Don was a leader on Africa, who did not work from the 
             newspapers or the journals, but traveled the continent and 
             came back with firsthand information. For the 
             Congressional Black Caucus, Don was the go-to man. Nobody 
             from the caucus moved on a matter affecting Africa without 
             going to Don first. Go to the expert first, find out if 
             you're on the right foot, and then perhaps move forward.
               Don was rigorous in his evaluation of the leadership of 
             the various countries of Africa. He never withheld when an 
             African leader needed the strong criticism of the United 
             States and his own strong criticism. Thus, his leadership 
             was trusted all across the Congress when he stepped 
             forward with his views. He worked with every President 
             because Republican and Democratic Presidents alike have 
             been involved in the issues affecting Africa; and they, 
             like us, turned to Don on those issues.
               Where will we find such a Member today? Is there such a 
             Member who has devoted so much of his life not only to 
             urban America, but especially to Africa, who knew 
             everything, knew everyone, and knew anything we needed to 
             know?
               Don will be greatly missed by this Chamber. He will 
             always be remembered. I know I speak for us all when I say 
             that his family has our deepest sympathy and our 
             everlasting love.

               Mrs. CHRISTENSEN. Thank you, Congresswoman.
               I would like to now yield 2 minutes to one of Donald's 
             colleagues from New Jersey, Congressman Holt.

               Mr. HOLT. I thank the gentlelady.
               Mr. Speaker, all of us are saddened by the country's 
             loss of Don Payne, and it is going to be hard to get used 
             to the absence of Don.
               Don has been a good friend to me, someone I've looked up 
             to here in Congress.
               No one in Congress has been a stronger advocate for 
             equality of opportunity in education. No one in Congress 
             has been a greater advocate for children's services and 
             youth development. No one has been more knowledgeable 
             about Africa. No one has voted more consistently for 
             peaceful and nonmilitary resolutions to problems. No one 
             has been more consistent in the fight to respect workers' 
             safety and workers' conditions.
               Throughout all of this, Don Payne was very attentive to 
             the interests of the entire State of New Jersey and 
             especially to the interests of his constituents.
               He was instrumental in bringing international attention 
             and condemnation to the genocide in Darfur, as we've heard 
             already.
               As a former educator, he brought an invaluable 
             perspective to our work together on the Education 
             Committee. He was responsible for getting many millions of 
             dollars to the PEPFAR Program for dealing with HIV, 
             resistant tuberculosis, malaria around the world, and 
             especially in Africa. I might add he did that with 
             President Bush.
               He was a strong advocate for an adequate minimum wage. 
             He was a key player in writing the College Cost Reduction 
             and Access Act to cut interest rates for college loans, to 
             increase Pell grants, and to provide loan forgiveness to 
             public service employees with student debt. It was a great 
             pleasure and really a marvel to watch him on the Education 
             and the Workforce Committee.
               Don was, I think you would say, an unabashed liberal, 
             recognizing that there are some things that we can do 
             better together than separately. He was not a you're-on-
             your-own kind of guy. That was true in person too. He was 
             very inclusive. He had good humor and dignity in 
             everything he did. Don Payne was a good friend, a good 
             Member of this House, and a great public servant.
               My thoughts and prayers are with his family and his many 
             friends, and I know his constituents will be hard pressed 
             to find somebody to represent them as well as Don Payne.

               Mrs. CHRISTENSEN. Thank you, Congressman Holt.
               Now, I would like to yield 2 minutes to another 
             colleague from New Jersey, Congressman Frelinghuysen.

               Mr. FRELINGHUYSEN. I thank the gentlewoman for yielding.
               Don Payne and I have been friends for over 35 years. We 
             served together in county government as freeholders in New 
             Jersey from our respective counties, Morris and Essex 
             Counties, before he preceded me to Congress.
               During his service in this House, he worked long and 
             hard on issues that literally cried out for attention.
               At home we all admired his steadfast commitment to 
             ensuring that our Nation's children had the best quality 
             education possible.
               Abroad he focused on global public health issues like 
             childhood survival and human rights on the continent of 
             Africa and elsewhere. Don Payne took up the cause for 
             suffering people around the world and gave voice to their 
             plight even at great personal risk.
               Mr. Speaker, Don Payne loved Congress, he loved public 
             service, he loved New Jersey, and he loved his hometown of 
             Newark.
               I was proud to work with him to revitalize the Passaic 
             River in Newark, that waterfront that for many years had 
             remained inaccessible to the public.
               Don will be sorely missed, especially for his dedicated 
             service to his constituents over many decades. I'll never 
             forget his valuable service and his enduring friendship. 
             We've lost a great principled man who lived a life from 
             which we could all learn something.
               May the tributes and prayers of so many of his 
             colleagues here this afternoon today be a source of 
             strength to his family.
               Thank you.

               Mrs. CHRISTENSEN. Thank you for joining us and for 
             offering those words on behalf of Congressman Payne.
               I would now like to yield 2 minutes to the Congresswoman 
             from California, another dear friend of Congressman Payne, 
             Lynn Woolsey.

               Ms. WOOLSEY. Mr. Speaker, I rise to pay tribute to a man 
             I loved, a man I respected, a friend for life, and a 
             mentor.
               When I came to Congress, I couldn't have picked a better 
             mentor: a public school teacher from New Jersey, someone 
             kind and smart, dedicated, actually burning in his belly 
             about issues of value and conscience.
               I served on Congressman Payne's Africa Subcommittee. He 
             served on my Workforce Protections Subcommittee. On both 
             panels, I benefited from his wisdom, advice, and 
             expertise. On the Africa Subcommittee, I was always amazed 
             at how much and who he knew.
               This is a man who knew what public service was all 
             about. He was, as he described himself, a mild-mannered 
             man; but he was also tenacious, dedicated, and stubborn.
               No one has worked harder to bring peace, democracy, and 
             human rights to Africa. He almost gave his life for the 
             cause a few years ago when his plane was shot by rebels as 
             he prepared to come home after a Somalia mission that 
             actually the State Department had warned him against.
               As change continues to come--particularly to Africa in 
             the coming years--we'll all remember the role that Donald 
             Payne played in laying the groundwork in helping make that 
             change happen.
               A true statesman and humanitarian, Donald's death this 
             morning already leaves an indescribable void. Donald Payne 
             had a huge heart and a keen mind. And believe me, I will 
             miss them both.

               Mrs. CHRISTENSEN. Thank you, Congresswoman Woolsey.
               I would now like to yield 2 minutes to another colleague 
             from New Jersey, Congressman Lance.

               Mr. LANCE. Thank you very much, and thank you for 
             yielding.
               The Payne family occupies a fabled position in the 
             history of Newark, New Jersey's largest and greatest city. 
             The whole family has been involved in public service; and, 
             of course, Congressman Payne's public service here is of 
             almost a quarter-century duration.
               Congressman Payne succeeded Congressman Rodino, the 
             distinguished chairman of the House Judiciary Committee at 
             the time of Watergate, well known in American history. 
             Congressman Rodino succeeded Congressman Hartley, who was 
             the Congressman from that part of New Jersey for a 
             generation, he, the author, with Senator Taft, of the 
             Taft-Hartley Act.
               Over the course of the 20th century, in the district 
             that has been represented by Congressman Payne for a 
             quarter century, the provenance of that district is Fred 
             Hartley, a Republican, of the Taft-Hartley Act; Peter 
             Rodino, the distinguished chairman of the Judiciary 
             Committee during Watergate; and now for 24 years, Donald 
             Payne. The character of that district is the character of 
             this Nation and certainly the character of the great city 
             of Newark over the course of the 20th and into the 21st 
             century.
               The Payne family not only includes the distinguished 
             Congressman, but his brother, Bill Payne, with whom I had 
             the honor of serving in the New Jersey Legislature. His 
             brother, Bill, and I worked together in the creation of 
             the Amistad Commission in New Jersey. Of course, that 
             commission dealing with the work of the great Amistad 
             trial based upon the mutiny in 1839 of a slave ship, so 
             brilliantly defended by John Quincy Adams, whose portrait 
             hangs 10 feet from the entrance of the House of 
             Representatives. In working with Congressman Payne's 
             brother, Bill Payne, in the New Jersey Legislature, I got 
             to know the Payne family and certainly, through his 
             brother, Bill, I got to know the Congressman, and what a 
             great honor for me to have served here in Congress with 
             Don Payne.
               Mr. Speaker, finally, several days before Martin Luther 
             King was assassinated in Memphis, he was in Newark, and he 
             was in Newark at the request of leaders there, including 
             Donald Payne and William Payne. Among the most prized 
             possessions of the Payne family are photographs of Martin 
             Luther King taken days before his assassination as the 
             Paynes were attempting to bring about justice in the city 
             of Newark. Certainly no Member of the House of 
             Representatives was more committed to justice, not only 
             here in this country, and within this country, in the city 
             of Newark and the State of New Jersey, but justice across 
             the world, so that children in poverty could have a decent 
             quality of health care and, as has been cited, the 
             Congressman almost lost his life in that regard.
               The country is poorer for the loss of Donald Payne, but 
             this country is greater for his public service on the 
             governing body of the city of Newark, his public service 
             as a county commissioner--we use the term freeholder in 
             Essex County, NJ--his public service to the entire State, 
             and I respectfully suggest, to the United States of 
             America. We mourn his loss, but we celebrate his life.

               Mrs. CHRISTENSEN. Thank you, Congressman Lance.
               I yield to the gentlewoman from California, 
             Congresswoman Maxine Waters, who I believe succeeded 
             Donald Payne as the chairperson of the Congressional Black 
             Caucus.

               Ms. WATERS. I appreciate your organizing the time for us 
             to come to the floor and speak about our friend, Donald 
             Payne. We are all so sad, and we are going to miss him, 
             but we also know that the service that he gave to this 
             country, even long before he came to the Congress of the 
             United States, and the service that he has given to this 
             country since being a Member of Congress, is unmatched by 
             any Member of Congress.
               Donald Payne was a true servant who not only served his 
             State of New Jersey, but Donald Payne was someone who took 
             care of his district. When I take a look at all of the 
             capacities that he served in the State of New Jersey, I am 
             just in awe, counting Democratic chairman, executive of 
             the Prudential Insurance Company, vice president of Urban 
             Data Systems, educator for the Newark and Passaic Public 
             School Districts, former national president of the YMCA, 
             chairman of the World Refugee and Rehabilitation 
             Committee--it goes on and on. He brought with him to 
             Congress the same attitude, the same commitment to 
             service.
               Since his service in Congress, of course, he left us as 
             chair of the Congressional Black Caucus Foundation. He 
             served as the chair of the Congressional Black Caucus 
             immediately prior to my being elected to that post, and I 
             learned a lot from his service about how to chair the 
             Congressional Black Caucus.
               Don Payne was known for several things but certainly 
             known and respected for his commitment to education, 
             closing the achievement gap, making sure that we expand 
             opportunities for the least of these with Pell grants, 
             making sure that he reduced the interest rates on some of 
             the loans, the Stafford loans, for example. He was known 
             because he understood that as a public policy maker he 
             could influence education in this country, and he 
             certainly did that.
               I also would like to point to his record of achievement 
             serving as the chair of the Africa Subcommittee of the 
             Foreign Affairs Committee, where he was the expert, 
             unmatched. As a matter of fact, Donald Payne traveled to 
             Africa, East Africa, West Africa, throughout his career, 
             and he knew all of these countries on the continent, and 
             he knew the leaders, past and present.
               As a matter of fact, Don didn't wait for a codel of a 
             lot of people to be organized to go to a troubled spot. 
             Don would get on the airplane by himself, a one-person 
             codel, and travel, set up his own meetings with the 
             leaders of those countries, talk with them about what was 
             taking place in those countries and get an understanding 
             of what needed to be done. He coupled all of this with the 
             history of the countries of Africa.
               Don was an educator, he was a teacher, he was a 
             historian. So he knew a lot about the backgrounds of these 
             countries because he had studied that. When he coupled 
             that information with what was going on at the present 
             time that he was visiting and working on issues in those 
             countries, he made it all come together, and he helped us 
             all to understand. He was our go-to person on Africa for 
             sure.
               When we wanted to know what was going on--and some 
             people who were not that involved in foreign affairs and 
             in Africa, they just followed his vote. When they looked 
             upon that panel, they looked at how Don Payne was voting, 
             and then they followed his leadership.
               We are going to miss that leadership. We are going to 
             miss this dedication. We are going to miss this mild-
             mannered man who loved his job, who loved his district. 
             I'm always going to remember that he invited me to his 
             district on several occasions. I went up with Don, I 
             campaigned with him. I went about the community. He 
             introduced me to the ministers, and he was well respected 
             and loved in his district.
               Of course, we all know why, because he was dedicated to 
             the district, and he did so much for the district. The 
             district is going to miss Don Payne. It will be hard to 
             match the work that he did and his success and his 
             achievements. We're going to remember each time we're 
             involved in some of the same issues that Don was involved 
             in. We're going to ask ourselves, what would Don have 
             done, and we're going to follow the thinking of Don Payne 
             on those issues.

               Mrs. CHRISTENSEN. Thank you, Congresswoman Waters.
               I yield 2 minutes to the Congressman from Texas (Mr. Al 
             Green).

               Mr. AL GREEN of Texas. I thank the gentlelady.
               Mr. Speaker, it is said that a politician will always 
             rise to the occasion, and the Honorable Don Payne did rise 
             to the occasion many times.
               It is also said that a statesman makes the occasion. Don 
             Payne was more than a politician, he was a statesman. He 
             made the occasion in Darfur, where he went to make sure 
             those who were suffering would have an opportunity to have 
             a better quality of life, and he was to this day still 
             working to help the people of Darfur. When it came to 
             AIDS, he helped raise $50 million to help those who are 
             beset with this disease.
               He worked with his colleagues, pulled us together, 
             helped us unite to do things collectively that we could 
             never do apart. He developed a symbiotic relationship 
             among his many relationships. When I think of Donald 
             Payne, I will always remember that he was a person of 
             honor. He honored his word. To his friends his word meant 
             something, but more important, he honored his word to 
             foes, people who disagreed with him. Once they had his 
             word, they had a word they could count on.
               I will remember that he was a person who respected this 
             institution. This institution meant something to the 
             Honorable Don Payne.
               What this institution stood for and how we could utilize 
             this institution to make a difference in the lives of 
             others was important to him. He was a person of valor. He 
             would stand with you. He was determined. He was a fighter. 
             He came under fire, I'm told, in Africa as he was trying 
             to help others.
               And finally, I will say this: I truly do believe that 
             God is good all the time. Even under circumstances such as 
             these, I believe God is good because we didn't have to 
             have him for 77 years. We didn't have to have him in this 
             House for 12 terms. I didn't have to have him as a friend 
             for 8 years. I believe that God is good all the time, and 
             I am so proud that God allowed him to come this way and I 
             had the benefit of calling him my friend.
               Don, we love you, and I know that wherever you are, 
             there is a statesman there who is making the occasion.

               Mrs. CHRISTENSEN. I thank Congressman Green, and now I 
             would like to yield to another colleague from New Jersey 
             and friend of Donald Payne, Congressman Chris Smith.

               Mr. SMITH of New Jersey. I thank you very much and 
             appreciate the gentlelady for yielding. Let me join my 
             distinguished colleagues in expressing our deepest 
             condolences to Don Payne's family. He was truly a 
             remarkable man. I had the privilege of sitting next to him 
             for about 15 years as I was the chairman or he was the 
             chairman of the Human Rights Committee, the Africa 
             Committee as well. I was his ranking, he was my chairman, 
             and we always worked in a very cooperative way. We always 
             had mutual respect, and he had such a deep compassion for 
             the people who have suffered so much on the subcontinent 
             of Africa.
               Don Payne was quiet, but always determined. Extremely 
             thoughtful, a humanitarian in the extreme, and he fought 
             for so many important issues. You know, it was not a slam 
             dunk or in any way a given that PEPFAR, the President's 
             Emergency Plan for AIDS Relief, would become law. Don was 
             there working in a bipartisan way to ensure that 
             sufficient funding, sufficient authorities were given to 
             the U.S. Agency for International Development to mount a 
             massive effort to combat the pandemic of HIV/AIDS. He did 
             the same thing with malaria and the Malaria Caucus, and he 
             did the same thing with tuberculosis, which sadly is an 
             opportunistic disease that afflicts so many people who 
             have HIV/AIDS.
               On the Sudan Peace Act, again when we were looking and 
             working so hard to try to stop the slaughter in South 
             Sudan, there was Don Payne working every day of the week 
             to ensure that somehow peace would break out and the 
             genocide would end there, as well as in Darfur.
               Again, I know that he cared deeply because I was there 
             having those conversations with him day in and day out. 
             Very often in my Subcommittee on Human Rights when I 
             chaired that and he was the ranking member, we would go on 
             receiving testimony, debating for hours. There would be 
             two Members left standing in the room, Don Payne and me, 
             because he cared so deeply about human rights globally, as 
             well as in Africa. He will be deeply missed. Again, a 
             great man, a great friend, and his passing is mourned by 
             everyone in this Chamber and everybody in the State of New 
             Jersey.
               God bless him, God bless his family, and thank you, Don 
             Payne, for the great work you did in the U.S. House of 
             Representatives.

               Mrs. CHRISTENSEN. I thank Congressman Smith, and now I'd 
             like to yield to the gentleman from Michigan (Mr. Clarke).

               Mr. CLARKE of Michigan. Mr. Speaker, I want to thank the 
             gentlewoman from the Virgin Islands for yielding to me.
               I am one of the newest members of the Congressional 
             Black Caucus. Being a freshman here in this body, you 
             become immediately aware of the traditions of the House. 
             For example, male Members of the House are referred to as 
             the gentleman from the State that they represent. Donald 
             Payne was a gentleman not because he was elected to 
             Congress but because he was a good, decent human being. He 
             welcomed me with open arms as a new guy from Detroit that 
             very few in the House even knew about.
               Less than 2 weeks ago, Donald Payne returned a call that 
             I had placed to him. We had a short, but gracious, 
             conversation. I knew after I hung up the phone that I 
             would see him soon right here in the Halls of Congress, 
             but that never came to pass. The lesson is clear to all of 
             us: our time, our life here on Earth is very fleeting. 
             Let's do everything we can to cherish each moment, not 
             necessarily to pursue a wild ambition or do a lot of 
             things, but just to be like Donald Payne, respecting 
             others, caring for others. That's what he stood for.

               Mrs. CHRISTENSEN. I now would like to yield to the 
             gentlewoman from Florida (Ms. Ros-Lehtinen).

               Ms. ROS-LEHTINEN. I thank the gentlelady for yielding me 
             this time. Just a few hours ago, we lost a dear friend, an 
             esteemed and honored and respected colleague, Congressman 
             Don Payne of New Jersey.
               Don was a proud member of the New Jersey delegation. He 
             was a faithful servant to his constituents. For more than 
             two decades, he served them in this body. He was also a 
             committed member of our Foreign Affairs Committee. He was 
             chairman and the ranking Democrat on the Subcommittee on 
             Africa, Global Health, and Human Rights; and in that 
             capacity he showed us his unwavering commitment to 
             fighting diseases worldwide, but especially in Africa. He 
             shone the light on human rights abuses throughout the 
             world. Don's tireless efforts provided a voice for the 
             afflicted and for the oppressed.
               We are saddened as an institution, as a body, and as 
             friends by the loss of such a courageous and loyal and 
             conscientious public servant. Don will be greatly missed 
             by our Foreign Affairs Committee because he was such a 
             tireless advocate for the causes for which he felt such 
             passion.
               He will be missed here on the House floor because he was 
             ever present whenever there was an important issue to be 
             debated. He will be missed in his home State of New Jersey 
             where he was so revered and respected by his constituents 
             whom he so faithfully served. He will be missed especially 
             by the thousands and, indeed, countless people whom he 
             inspired and affected throughout his tenure and long 
             career in public service.
               Without a doubt, Congressman Don Payne's contributions 
             will be remembered for many years to come, and our 
             thoughts and prayers are with all of the members of the 
             Payne family and all of the people who he touched in a 
             very special way.
               I thank the gentlelady for the time; and in our Foreign 
             Affairs Committee tomorrow, we will hold a special 
             remembrance for Congressman Don Payne.

               Mrs. CHRISTENSEN. Thank you, Congresswoman Ros-Lehtinen. 
             And now I would like to yield to the gentleman from 
             American Samoa, Congressman Faleomavaega.

               Mr. FALEOMAVAEGA. I do want to thank the gentlelady from 
             the Virgin Islands for managing the time for our 
             colleagues in this Special Order that has been taken to 
             honor our good friend who has just passed away, 
             Congressman Don Payne.
               Congressman Don Payne was my classmate. We sat next to 
             each other for the past 23 years as members of the House 
             Foreign Affairs Committee. We were talking about the 
             situation in which we were proud Americans, and yet we 
             knew something was missing here in terms of the activities 
             of how our foreign policies have come about, in doing 
             things about our relationship with other countries, so Don 
             Payne was committed to looking after the needs of what are 
             our foreign policies toward Africa. My commitment was to 
             find out what are our foreign policies toward the Asia and 
             Pacific region.
               I want to share this little interesting thought with my 
             colleagues. When Don Payne and I first became members of 
             the House Foreign Affairs Committee, hardly any of the 
             members wanted to be on the Asia and the Pacific or Africa 
             Subcommittees. The mentality here in Washington was 
             entirely toward Europe and the Middle East. Being members 
             of these two subcommittees was almost like the pits. They 
             were not even on the radar screen, weren't even given any 
             real sense of priority or interest.
               I want to say to my colleagues that it has been truly an 
             honor to be sitting next to my brother, Don Payne, and to 
             commit to the idea that as a champion and advocate for the 
             needs of the poor, the great champion of human rights 
             throughout the world, not just toward Africa, but all 
             other regions of the world, Don Payne and I worked on the 
             plight, the needs of the people of West Papua, New Guinea.
               I always have remembered Don Payne's admonition to me 
             every time we discussed issues about fairness and 
             equality. He said:

               Eni, let me just remind you of what Martin Luther King, 
             Jr., once said: ``In the end, we will not remember the 
             words of our enemies, but the silence of our friends.''

               I think it's so true in terms of what he instituted in 
             my own heart and mind: you can't just sit back and let 
             things go by. We've got to be out there being proactive 
             and expressing ideas that will solve the many issues and 
             problems that we are faced with, not only in our own 
             country, but throughout the world.
               I want to express my deepest sympathies and condolences 
             to the family of my brother, Congressman Don Payne. I'm 
             reminded of the saying, ``blessed are the peacemakers, for 
             they shall be called the children of God.'' This truly was 
             a peacemaker, whom I've had the honor and privilege of 
             witnessing his life as an example not only to our 
             colleagues, but certainly to the American people. Both in 
             deed and by his conduct, Don Payne was truly a statesman, 
             and his voice will be surely missed in the years to come.
               Mr. Speaker, I am so happy to see that so many of our 
             colleagues are here to pay special tribute to this great 
             man, a gentle man, and yet by such great tremendous 
             example showing us what we should be doing: going about 
             helping other people. I want to wish him well. We have a 
             saying in my culture, Ia manuia lau faiga malaga--``May 
             you have a good voyage.''

               Mrs. CHRISTENSEN. I thank the gentleman from American 
             Samoa.
               I would now like to yield 2 minutes to the gentlelady 
             from Illinois, Congresswoman Jan Schakowsky.

               Ms. SCHAKOWSKY. Thank you for this opportunity to speak 
             about a really good friend of mine, Don Payne. When I 
             heard that his situation was grave, I gave a call to his 
             brother, Bill, whom I had gotten to know on trips that he 
             and Don took, and had the privilege then of speaking with 
             Don. He was in hospice. This was just a couple of days 
             ago. I was able to tell him how much I loved him and able 
             to tell him that I hoped that he found peace and comfort 
             in the knowledge that he helped so many people in this 
             world.
                Don Payne was a real citizen of the world, a quiet and 
             dignified gentleman, but he had a fierce commitment to 
             justice and human rights everywhere. He was really the de 
             facto ambassador to Africa. No one in this Congress knew 
             or cared more for the people of Africa. He also personally 
             knew the leaders, and they knew and respected him. His 
             knowledge and his relationships will leave a big hole 
             here. He was the go-to person. If you wanted to know 
             anything about what was going on, the political situation, 
             or who was who on the continent, Don Payne was the one to 
             go to.
               As I said, I was able to travel with Don and Bill to 
             many places around the world and always listened 
             carefully, as everyone did, when Don spoke with the kind 
             of knowledge that he had about all things dealing with 
             foreign relations, about all things dealing with human 
             rights. So my heart goes out to my good friend, Bill 
             Payne, to the children and grandchildren and one great-
             grandchild of Donald Payne, my beloved friend, whom I'll 
             miss so much.

               Mrs. CHRISTENSEN. Thank you, Congresswoman Schakowsky.
               I would now like to yield 2 minutes to another colleague 
             of Don Payne from New Jersey, Congressman Bill Pascrell.

               Mr. PASCRELL. Ladies and gentlemen, the House has lost a 
             real advocate, a person who respected this institution and 
             who understood what it was.
               So I know I speak for all of us when I say our 
             condolences to the family and our condolences to his 
             constituents. He served most distinctly.
               Rather than tell you some things I was going to prepare 
             myself about my relationship with Donald, I got a letter 
             this afternoon, and I think it's appropriate if I read 
             this letter on the floor of the House because it tells us 
             that Donald Payne was not just interested in Africa. His 
             interests as a humanitarian went beyond that.
               Sinn Fein President Gerry Adams has spoken of the deep 
             sadness at the death of U.S. Congressman Donald Payne. On 
             behalf of Sinn Fein, and all of those in Ireland who met 
             Congressman Payne on his many visits there, the Sinn Fein 
             leader extended his deepest sympathy to Congressman 
             Payne's children and his family circle and many friends. 
             This is what Gerry's own words are:

                Donald Payne was a champion for the disadvantaged and 
             the downtrodden in the United States and around the world. 
             He devoted his life to promoting civil rights, equality, 
             and democracy.

               My friends, just think who is saying this. A man of 
             valor, a very courageous person, Gerry Adams. This is how 
             close we are in the tribe of humanity and how many times 
             we fail to recognize it.

               I met Donald many times both in Washington and in 
             Ireland. He was always very interested in Ireland and had 
             visited the north before the cessations in the mid-1990s. 
             Donald was very supportive of the Irish peace process from 
             the beginning and was a regular participant in briefings 
             which I and other Sinn Fein visitors gave to political 
             leaders on Capitol Hill.

               Many of us were there, many of us in this room.

               He was also a frequent member of congressional 
             delegations that visited Ireland. Donald will also be 
             fondly remembered by citizens on Garvaghy Road, in North 
             Belfast, and the Short Strand, which he visited at a time 
             when efforts were being made to force controversial Orange 
             marches through those districts.
               His experience as a civil rights campaigner resonated 
             with his audience in West Belfast when he spoke there 
             during the West Belfast Feile on the issue of equality and 
             anti-discrimination legislation.
               During a debate in Washington on the McBride principles 
             he remarked that: ``I and other members of the 
             Congressional Black Caucus can easily identify with the 
             Catholic minorities. I recognize many similarities in how 
             they are treated with how people here were treated.''
                Donald was a thoughtful, generous and well-informed 
             politician who was personally dedicated to improving 
             conditions for others and who worked diligently on behalf 
             of his constituents and of his party.
               He will be remembered with gratitude and real affection 
             for his support at difficult and dangerous times in 
             Ireland--in difficult and dangerous times all over the 
             world. He will be sadly missed by his constituents, by 
             people the world over. I want to extend regrets and 
             deepest sympathy to his family and his friends.
               Go ndeanfaidh dia trocaire ar a n'anam dilis--may he 
             rest in peace, and may all of his friends gather in this 
             institution that he loved so well.

               Mrs. CHRISTENSEN. Thank you, Congressman Pascrell. And 
             thank you for bringing the sympathies of Sinn Fein to the 
             floor.
               I would now like to yield 2 minutes to a person who 
             served with Don for quite awhile on the Foreign Affairs 
             Committee, Chairman Dan Burton of Indiana.

               Mr. BURTON of Indiana. I thank the gentlelady for 
             yielding.
               We judge, as Congressmen, our colleagues based upon 
             their ability and how hard they work. But the thing I 
             liked about Don Payne, as a colleague with whom I worked 
             for 24 years on the Foreign Affairs Committee, was he was 
             a nice guy. He was really a nice guy. Even when we had our 
             differences--and there were many when we served on the 
             Africa Subcommittee together--we would debate, and then we 
             would walk together down the hall and talk as friends and 
             still discuss our differences, but we did it in such a 
             friendly way, and I really liked the guy.
               One of the things I think is so important is we really 
             don't get to know each other too much in this place. We 
             have 435 of us. People come who are wealthy and some who 
             are very poor, some who came from bad beginnings and tough 
             beginnings and some come from the top; and we don't get to 
             know each other very well. But I knew Don Payne because he 
             worked so hard for the people he represented in Newark, 
             and he really fought for them.
               He wanted a garage in Newark because of the business 
             downtown. I remember I fought him on that garage and we 
             were able to stop it. I think one of the things I'll 
             regret the day I leave this place is that I stopped that 
             garage because I think Don Payne, as the kind of guy he 
             was, really felt like it was needed for Newark. Don, if 
             you're listening, if I had a chance, I'd vote differently 
             on that thing.
               But anyhow, he was a nice guy. He was a credit to the 
             Congress of the United States and to everybody who knew 
             him. I'd like to say to his family that I extend my 
             deepest sympathies, as the other speakers have said, but 
             I'd also like to say that to his staff. I know his staff 
             is going through a difficult time right now as well as his 
             family, so I want to extend my deepest sympathy to them as 
             well.

               Mrs. CHRISTENSEN. Thank you, Chairman Burton.
               At this time, I would like to yield 2 minutes to another 
             colleague from New Jersey, Congressman Rob Andrews.

               Mr. ANDREWS. I thank my friend for yielding.
               Sometimes the quietest voices are the ones that have the 
             greatest impact. Donald Payne always spoke quietly, 
             humbly; but as we reflect on his life, the impact is 
             monumental.
               Tonight, there are villages in Africa where people have 
             self-determination, human dignity, education, and health 
             care because of the impact of his voice and his life. 
             There are people working in the city of Newark, the 
             counties of Essex and Union and Hudson because of 
             businesses he helped to bring and schools he helped to 
             build and progress he helped to make.
               As we heard my friend Bill Pascrell talk about, there 
             are people in Ireland from very different heritages and 
             backgrounds that Donald brought here who are celebrating 
             his life because of the reach of his voice and of his 
             life.
               I think, most important, the impact of his voice is the 
             hollowness and sorrow that we all feel here in this 
             institution because the quietness of his voice brought us 
             together at times of discord and stress. Donald believed 
             passionately in his progressive ideology, but he believed 
             with equal passion in tolerance for those who disputed it. 
             Donald fought fiercely for the causes in which he and I 
             believed and he and others believed, but he never fought 
             the rights of others to express differing views. He cared 
             very personally about his causes, but he never took 
             personally those who disagreed with him. This is a lesson 
             that we should learn and abide by in this institution in 
             years to come because it makes us better people and it 
             makes our institution stronger.
               Later this week, it is a remarkable thing that this 
             humble young man, a schoolteacher, a leader in the YMCA 
             who at the beginning of his career lost many more 
             elections than he won--lost two elections for the county 
             executive position, lost multiple attempts to become 
             elected to this House of Representatives, and then 
             triumphed--someone from those humble beginnings that world 
             leaders will come to a place of worship in the city of 
             Newark to commemorate his life.
               I think what's more indicative of Donald's contribution 
             is that as those world leaders come through Newark Airport 
             into the city that Donald loved, there will be janitors 
             and schoolteachers and truckdrivers and day care providers 
             and laborers and electricians and Americans of all walks 
             of life, who will know and acknowledge the great impact of 
             this quiet voice.
               His voice has sadly been stilled; but let us celebrate 
             the fact that his impact will live in our world, in our 
             country, in our institution, and in our hearts forever. 
             May God bless his family and comfort them at this time of 
             affliction.

               Mrs. CHRISTENSEN. Thank you, Congressman Andrews.
               At this time, I would like to yield 2 minutes to the 
             gentleman from Troy, the gentleman from Georgia, 
             Congressman John Lewis.

               Mr. LEWIS of Georgia. I want to thank the gentlelady for 
             yielding.
               I rise today to honor the memory of our beloved 
             colleague, the distinguished gentleman from the State of 
             New Jersey, Donald Payne.
               Today we have lost a wonderful and good friend, and the 
             people of the 10th District of New Jersey have lost a 
             fearless leader and advocate.
               Any American can be elected to public office, but not 
             everyone can serve with dignity and great respect. Donald 
             Payne, my friend, my brother, enjoyed the admiration of 
             his colleagues because he led by example, and through 
             quiet, determined diplomacy he accomplished a great deal.
               A deep sensitivity to the human condition was at the 
             center of all he did. His work was an extension of the 
             belief that each of us has a responsibility to serve one 
             another, and that we must use the power and resources of a 
             great Nation to relieve the burdens of the poor, the 
             oppressed, the hungry, and the sick. That is why this 
             former public school teacher wanted to unlock the power of 
             education to free those who are struggling in the urban 
             centers in America. And that is why he was a tireless 
             advocate for the people of Africa because a heartfelt 
             compassion guided all that he did.
               In a time when the needs of the poor are hardly spoken, 
             when the cries of the locked out and left behind are 
             rarely heard, the Chamber will deeply miss a gentle 
             statesman with a heart that was big enough to serve all 
             humankind.
               The thoughts and prayers of the people of the Fifth 
             District of Georgia and many Members of this Congress are 
             with his family, staff, and friends now as they move 
             through a difficult time. Just know that Donald Payne was 
             loved, and he will be deeply missed, not only by the 
             people of the 10th District of New Jersey, but by people 
             around this Nation and all around the world.

               Mrs. CHRISTENSEN. We are coming close to the end of our 
             hour. I think our colleague will probably yield us some 
             time, but I would like to close out this particular hour, 
             and I ask unanimous consent to extend the hour to allow 
             the Members who are on the floor to speak.

               The SPEAKER pro tempore. The Chair cannot entertain a 
             request to extend a Special Order speech.
               Under the Speaker's announced policy of January 5, 2011, 
             the gentleman from Tennessee (Mr. Roe) is recognized for 
             60 minutes as the designee of the majority leader.

               Mr. ROE of Tennessee. I yield to your next speaker.

               Mrs. CHRISTENSEN. The next speaker would be Congressman 
             Emanuel Cleaver, the chair of the Congressional Black 
             Caucus.

               Mr. CLEAVER. Mr. Speaker, this is not one of the 
             highlights of stepping into the well of the House. This is 
             a moment that does not yield great joy, at least not for 
             what just happened in terms of the death of my friend and 
             my colleague, Donald Payne. There is, however, some joy, 
             and the joy is related to the fact that I had the 
             opportunity to know Donald Payne, and I believe that my 
             life was enriched because of it.
               During his final days here in Washington, I had a number 
             of conversations with him at Georgetown Hospital where I 
             tried, and was successful at least on a couple of 
             occasions, to get him to laugh, even as he experienced 
             excruciating pain in his hospital bed.
               Donald Payne can be observed by all Members of the 
             House, and from that observation, we can extract something 
             that can make this place better. Donald Payne was about as 
             good and decent a human being as has ever walked the Halls 
             of this stately House.
               At a time when many elected officials believe that 
             acidic language, acrimony, and red meat discussions are 
             the order of the day, Donald Payne was firm, soft spoken, 
             and respectful. No matter what happened, you could count 
             on Donald Payne being calm through it, except on one 
             occasion, which I will not talk about on the floor. We'll 
             talk about it later, but not here.
               Donald Payne was a man who was as peaceful in private as 
             he was in committee or even on the floor. He had a passion 
             for the diaspora. I joked with him that everywhere I've 
             ever gone in the diaspora, people asked about him.
               Just 1 week before he died, 1 week, I met with a 
             representative from Brazil who was inviting members of the 
             Congressional Black Caucus to come to Brazil to meet with 
             their caucus and they would send members here. Before the 
             meeting ended, as I knew would happen, he asked about 
             Donald Payne. I don't believe there is an elected official 
             or king or prince or potentate in the diaspora who does 
             not know the name of Donald Payne.
               What I hope will happen is one of the Members will pick 
             up the mantle and delve into the issues and matters of 
             foreign relations as has Donald Payne. Somebody needs to 
             step up to the plate and do that.
               My final comment is this: I hate cancer. I can't think 
             of a human being that I hate, but I hate cancer. And in my 
             hatred of cancer, I have come to the realization that all 
             of us are temporary, that we are not permanent creatures. 
             No matter how strong and healthy we feel we are, we are 
             all temporary. If we understand our temporariness, it 
             might inspire us to be just a little better, a little 
             kinder, a little nicer, a little more receptive to others, 
             because we are temporary, at least in this place.
               Now, I conclude by saying that life must end, but death 
             is not a cul-de-sac. It leads somewhere. If Donald Payne 
             is not there, that door must be locked and the rest of us 
             can give up. He was about as good and decent and loving a 
             human being who's walked these Halls, and I'm glad that 
             God gave me the chance to know him.

               Mr. ROE of Tennessee. I now would like to yield time to 
             the minority leader from California (Ms. Pelosi).

               Ms. PELOSI. Thank you, Mr. Roe, for yielding. I thank 
             you and I thank our colleague, Congresswoman Christensen, 
             for taking this Special Order today so that we can sing 
             the praises of a great man, our colleague, dear friend, 
             precious person, Donald Payne.
               I waited. I said I wanted to go after Mr. Cleaver 
             because I didn't know how I was going to even have the 
             strength to come to the floor because this is a personal 
             as well as official loss to many of us here. He is always 
             a source of strength to us, putting in perspective the 
             fragility of life and the value that we must place on the 
             contribution of all of our colleagues, especially when we 
             are blessed with the life, service, and leadership of 
             someone like Donald Payne. There are very few people that 
             you can say ``someone like Donald Payne,'' because he was 
             exceptional and unique.
               When the distinguished Mr. Cleaver and Reverend Cleaver 
             says that we have to fill in and take his mantle, that 
             would be almost impossible to do because, over a lifetime, 
             in public service, and a long time in the Congress of the 
             United States, Donald Payne gained standing on issues that 
             takes years to do. But he did teach us along the way. He 
             gave us guidance on what paths to follow, what clues to 
             recognize, and doing the right thing, whether it was in 
             the continent of Asia, Africa, or Latin America, wherever 
             it was, and in our own country.
               I had the privilege of traveling with Donald Payne when 
             we were going to Darfur. He didn't want to go to Sudan. 
             He'd been there many times, Darfur, but he was at that 
             moment boycotting the regime in Khartoum because of how 
             they treated their people there. While we were in Khartoum 
             and in Darfur, he was in Ethiopia and Somalia and the 
             rest, always working to have policy advice to all of us 
             and caring about what the impact of that policy was on 
             people.
               What was interesting to us, though, it was that on that 
             same trip to Africa, which many of the members of the 
             Congressional Black Caucus were on, including our 
             distinguished assistant leader, Mr. Clyburn, when we went 
             to Liberia it was a boiling hot day. We all went to the 
             AME college there, the AME university, and they were 
             honoring Donald Payne for what he knew about Africa, for 
             his values and how he was concerned about, again, policy 
             as it related to people, the encyclopedic knowledge that 
             he had, the great wisdom that sprang from that knowledge, 
             the plans that he always had to make things better, and 
             the way people just flocked to him because they would 
             learn, they would be inspired, and they would love Donald 
             Payne.
               It was boiling hot. And we decided that we're all going 
             to dress alike that day, so it even got hotter as we 
             donned our robes. And here we were, seeing--not only 
             telling them the esteem with which he was held in 
             Congress, that was the least of it, because what we were 
             hearing was the people from around Africa held him in 
             esteem, and they named a library for him at that 
             university in Liberia.
               He was a schoolteacher, and he never forgot how 
             important it was for us to put our students first. He 
             called them the bright lights of our Nation's future, for 
             investing in their potential, for inspiring them to 
             succeed, igniting the sparks that they had within them to 
             do their very best.
               He was very proud of Newark and serving there. I 
             remember when he first came here, his work on behalf of 
             his constituents, his neighbors, the middle class, working 
             people, people who were striving to reach up into the 
             middle class. He was always working for them.
               He was New Jersey's, as has been mentioned, first 
             African American Member of Congress. He remained a 
             committed champion of equality and opportunity for all. 
             His accomplishments, both on his committee, where he 
             served with Congressman George Miller, who holds him in 
             the highest esteem, and now the Foreign Affairs Committee, 
             where he served with Congressman Howard Berman. Well, we 
             hear the two of them talk today as if they have lost a 
             brother, and we all have.
               We all have an appreciation of his hard work ethic. The 
             knowledge that he brought to his subject, the concern he 
             had for the American people, and the love he had for our 
             country.
               Just think, last week we had a visit from Bill Gates 
             coming to our office to talk about the issue of global 
             health, and he asked if Donald Payne could be in the 
             meeting. We had hoped that would be possible but then had 
             to say that he was not feeling well that day. That was a 
             week ago.
               Up until the end, he was in demand, recognized for his, 
             again, standing on issues that related to the alleviation 
             of poverty, the eradication of disease, again, alleviation 
             of hunger throughout the world. What more could be about 
             the Gospel of Matthew than ministering to the needs of 
             God's creation, which the Bible tells us is an act of 
             worship. To ignore those needs is to dishonor the God who 
             made us. Donald Payne was all about worshiping God by 
             ministering to the needs.
               He was an expert on economic, political, and security 
             situations throughout Africa, and I had the honor of 
             nominating him, recognizing his extraordinary work around 
             the world. I was proud to recommend that President George 
             W. Bush name Congressman Payne our representative of the 
             House Democrats at the United Nations. Usually it was just 
             for one term. In the case of Donald Payne, we went well 
             beyond that in recognition of the extraordinary 
             contribution that he made.
               So again, whether it was in his own district, whether it 
             was Newark, NJ, or across the world, he was a powerful and 
             passionate voice. I hope it's a comfort to his children--
             to Donald, Jr., to Wanda, and Nicole--and all who loved 
             Donald Payne, his dear brother, Bill, who traveled with 
             him frequently and loved him so much, I hope it's a 
             comfort to them that so many people who knew him well, 
             loved him so much, mourn their loss and are praying for 
             them at this sad time.
               With that, Mr. Speaker, I again thank Mr. Roe and 
             Congresswoman Christensen for the opportunity to say just 
             a few things about our dear friend who will be sadly 
             missed and long remembered. His legacy lives on in the 
             Congress of the United States.

               Mr. ROE of Tennessee. I would now like to yield time to 
             the distinguished gentleman from Maryland, Mr. Steny 
             Hoyer.

               Mr. HOYER. I thank the gentleman for yielding.
               This is a sad day for America. It's a sad day for the 
             Congress. It's a sad day for our African American brothers 
             and sisters who have lost a real leader and an 
             extraordinary friend.
               I first met Donald Payne when I was in my mid-twenties. 
             He was active in the Young Democrats in New Jersey, and I 
             was active in the Young Democrats in Maryland, and that's 
             how we first met. Don was about 6 years older than I am. 
             When you're in your middle twenties, somebody in their 
             thirties is really old. But we all saw him as a very 
             serious individual, serious about his activities, serious 
             about his objectives, serious about the people.
               He had an extraordinarily productive career. As the 
             leader has mentioned and as I know other speakers before 
             me have mentioned, he was a teacher. He was a teacher in 
             the tradition of Frederick Douglass. Frederick Douglass, a 
             fellow Marylander, said that it is easier to build strong 
             children than it is to repair broken men. Donald Payne was 
             focused on that concept as a teacher.
               Then throughout his life, he was focused on making sure 
             that America kept the faith with people around the world; 
             that its values, that its hopes, its visions for ourselves 
             were also our hopes and visions for others.
               Donald Payne, before he came to the Congress, I think 
             had traveled to more countries than perhaps any other 
             Member of Congress. He cared about people, and 
             particularly people who lived in Africa. I think there was 
             no Member who knew Africa better than Donald Payne, no 
             Member who risked more for the welfare of those who lived 
             on that continent.
               My first trip as majority leader was to Sudan and to 
             Darfur. I made that my first trip because, at that point 
             in time, it was one of the most troubled--and still 
             remains--lands in our globe. Donald Payne, unfortunately, 
             could not go on that trip. He had another thing to do.
               But we had a briefing before we went, and Donald Payne 
             was there. It was clear from those who briefed us that 
             Donald Payne was obviously the person they looked to for 
             knowledge and insight into how we could get from where we 
             were then to the plebiscite, to what is now the 
             independent South Sudan, and hopefully it will remain so, 
             notwithstanding the violence of Sudan itself.
               Donald Payne was an extraordinarily conscientious Member 
             of this body, but more than that, he was a man who cared 
             about his fellow man and fellow woman. Donald Payne was a 
             serious Member of this body.
               That does not mean he was always serious. He had a sense 
             of humor. He was a wonderful, engaging person, but he was 
             serious about what he did, and it reflected how deeply he 
             cared about those whom he served and about his country.
               We could all speak for Special Order after Special Order 
             after Special Order and still not reach the magnitude of 
             praise and thanks that he deserves. Suffice it to say that 
             this body was a better place for his service. As Reverend 
             Cleaver so eloquently intoned, we were better people for 
             having been his friend and his colleague and his coworker.
               I am pleased to join all of you who, like me, knew 
             Donald Payne as a Member of Congress, yes, but as a human 
             being, as an individual, as someone who cared about us, 
             and we cared about him.
               I join Leader Pelosi and all of you and our friends on 
             the other side of the aisle, because Don worked across the 
             aisle. Don was not an observer of partisan differences, 
             although he understood they existed. His objective was to 
             work with all for the betterment of all.
               So, I'm pleased to have this opportunity to join all of 
             you in thanking God that He gave us Don Payne, that He 
             gave him sufficient years to make an extraordinary mark 
             here in this country and around the world.

               Mr. ROE of Tennessee. Mr. Speaker, I would now like to 
             yield time to the dean of the Michigan delegation, Mr. 
             Conyers.

               Mr. CONYERS. I thank the gentleman for yielding to me. I 
             also thank Donna Christensen for her leadership in 
             bringing us all together this evening.
               This is a wonderful way, when this Record is read of 
             this Special Order for Donald Payne, for everyone to know 
             the depth of the love and respect that we all had for this 
             great and gentle human being.
               He was a committed public servant and a true champion 
             for social and economic justice at home and around the 
             world. He had a global perspective that helped teach us 
             that all of the 6.4 billion people on Earth are connected 
             and related. So when I was asked to campaign for his first 
             run for Congress that I knew about, which was in 1988, I 
             was pleased to do so. I traveled to Newark and joined with 
             him in that victory. I remember being struck by his deep 
             desire to help people, and I had no idea that he would 
             grow and develop into this leader whom we mourn and praise 
             here today.
               Through his work as a member of the House Education and 
             the Workforce Committee and of the Foreign Affairs 
             Committee, he led the fight to address inequities in every 
             realm of existence. He was a great proponent for peace. I 
             must say that I am convinced that he had the spirit and 
             the philosophy of Dr. Martin Luther King, Jr., that he 
             lived and demonstrated every single day of his life. He is 
             the one Member of whom I can say I never saw angry, I 
             never saw upset. When I was able to take him away from his 
             African commitments, I took him to Haiti, where he 
             immediately understood the depth of the suffering and the 
             tragedy that required us to go back again and again.
               So, Donald Payne, what has been said of you today is 
             only a small token of the contributions that you have made 
             during your life. You will be missed by your colleagues. 
             You will be mourned by your family. You will be treasured 
             by many people in many places on this globe.

               Mr. ROE of Tennessee. I will now take the opportunity to 
             yield 2 minutes to the gentlelady from Texas (Ms. Jackson 
             Lee).

               Ms. JACKSON LEE of Texas. I want to thank my 
             distinguished friend for your kindness and generosity in 
             yielding the time and to the Speaker. I want to thank Dr. 
             Christensen for starting us on this journey, and I want to 
             thank the Speaker for being educated by these powerful 
             words of my colleagues.
               I do want to say that, if you had to give a tribute 
             biblically to Donald Payne, you would certainly quote from 
             Timothy in saying, ``I fought the good fight.'' I am 
             grateful to also say that Donald Payne had a lot of fun in 
             life. Some of us can trace our friendship to years past, 
             to decades past; but I know that, as the world loves 
             Donald Payne, he loved Newark and New Jersey.
               I had the good pleasure of joining him and his friends 
             during the last Congressional Black Caucus. We had a 
             variety of receptions to meet our constituents, and there 
             was nothing but love in that room. I had, I would call it, 
             the humble privilege to visit him at Georgetown Hospital, 
             where his brother and sister were in the room as well as 
             his chief of staff LaVerne Alexander, and to have him 
             smile as some of our colleagues have said. In the course 
             of being in the room, I heard that the former President of 
             South Africa, President Mbeki, was trying to reach him.
               There would be a long list of Presidents and former 
             Presidents and others of great renown trying to reach him; 
             but you cannot in any way doubt the fact that in his 
             acceptance and acknowledgment by all of those iconic 
             figures, President Mandela as well, that he as a 
             progressive stood along with the family members he loved, 
             whether it was his son, who was a council member, and his 
             other children, or Bill Payne, and epitomized the 
             struggles of a generation of African Americans in Newark 
             and New Jersey in the 1950s and 1960s, and he was on the 
             front lines of fighting for equal rights out of the North 
             Ward.
               Oh, leave it only to Donald Payne to talk about New 
             Jersey politics, and he loved it. He had an iconic 
             presence, but he also had a leadership, boss-man 
             presence--and I say that lovingly--because if you needed 
             something in that area, as my good friends, Brothers 
             Pallone and Pascrell out of that area, knew, no matter who 
             you were in his district who needed something, you could 
             get a hold of Don Payne. He loved the richness of his 
             district and its diversity, but you can be sure that he 
             was fighting for the poor and dispossessed.
               Maybe that's what brought him to his affinity and 
             kinship for Africa. One of my predecessors, Mickey Leland, 
             whom Don Payne knew, we always said died on the side of an 
             Ethiopian mountain while trying to feed those who could 
             not feed themselves.
               Don Payne was everywhere, from Ethiopia, to Sudan, to 
             South Africa, to Angola, to the Congo, to Ghana, to 
             Liberia. He was in all of those, if you will, conflicts 
             where he wanted to bring about peace. He counseled 
             Presidents--Republicans and Democrats. I remember Bill 
             Clinton's historic trip, and you can be assured that 
             Donald Payne was at the nexus of drawing him to making 
             that historic trip. I believe, in 1998, he counseled 
             George Bush and others, and he counseled President Obama.
               I don't know if many of you know that Donald Payne was a 
             longshoreman who worked in many different places; but when 
             reminded of his work as a longshoreman, he said that he 
             loved the port. I heard a Member talk about that, I 
             believe, but he loved the working person.
               Let me just conclude, as I salute him for being the 
             progressive who did not forget the poor as well as being 
             one who could speak eloquently with the leaders of 
             international positions around the world, albeit that he 
             was teacher and coach and Newark Municipal Council member 
             and Board of Chosen freeholder, that I remember traveling 
             to Africa on several occasions. In this instance, what I 
             would say, beyond having known that in Somalia he was 
             almost, in essence, taken down, is that many of you will 
             remember the first Kabila, the father of the present 
             President of the Congo, and you will know that that area 
             has always been in conflict and that Donald Payne never 
             shunned going into conflict.
               One place we went was Angola, when it was still in 
             conflict. Donald Payne said, ``Well, I know we can meet 
             the President in his castle and office and the place where 
             he is, but I'm going up in the bush, and if you all are 
             with me, we're getting on this little one-propeller 
             plane.'' Not two propellers--it only had one. Congressman 
             Payne continued, ``and we're going to go up there and meet 
             with the opponent of the President.''
               We sat with Donald Payne, encouraging this opponent to 
             put down his guns and come and meet with this President, 
             who through Donald Payne had promised peace. I know that 
             man wished that he had answered the call that Donald Payne 
             made. He never left the bush, and he died in that place. I 
             got to see him up close and personal, where no risk of 
             life was too much for him to bring about peace.
               As I conclude, let me simply say to the peacemaker, to 
             the intended noble peacemaker, to the man who didn't shun 
             or didn't shy away from a conflict that might have taken 
             his life, to the lover of Newark, to the lover of his 
             family and his children, to the lover of his staff, to the 
             lover of this institution: Don, may you rest in peace. 
             Warrior, leader, hero, God knows that you never stopped 
             working, and you deserve that angel's place in Heaven.
               [Ms. Jackson Lee's prepared statement follows.]
               Mr. Speaker, I rise today in tribute of the life and 
             service of my dear friend and colleague, Congressman 
             Payne. Noted for his quiet gravitas, progressive issues 
             advocacy, and pioneering life story, Congressman Payne 
             along with his older brother Bill Payne defined the 
             struggles of a generation of Newark Blacks who in the 
             1950s and 1960s fought for equal rights out of the North 
             Ward.
               By the dawn of the 1970s, the Paynes relocated to the 
             south of Newark, where they built a political base on 
             Bergen Street that served as the launch pad for Mr. 
             Payne's historic campaigns for Congress in the 1980s.
               Donald Payne was a champion of the poor and dispossessed 
             not only in Newark but in Africa, notably the Sudan, where 
             he took one of this country's most forceful stands against 
             the genocide he witnessed there. Congressman Payne was 
             once arrested in Washington, DC, for protesting against 
             the Sudanese Government.
               As the chairman of the Subcommittee on Africa of the 
             House Foreign Affairs Committee, Congressman Payne became 
             a leading advocate for international human rights. ``I 
             would be remiss if I did not thank those who are 
             personally responsible for making sure that I know about 
             Africa,'' said then-President Bill Clinton.
               After a 2009 trip to Africa, the Congressman prepared to 
             depart from Mogadishu when his plane sustained small arms 
             gunfire from the ground, according to CNN. The Congressman 
             had earlier that same day discussed the crisis of piracy 
             off the failed state's coast.
               Donald Payne grew up in a section of the North Ward 
             known as Doodletown and worked on the docks in his young 
             manhood. ``I love this place,'' he told longshoremen at a 
             2008 campaign stop at Port Newark. ``I worked down here 
             from 1952 to 1956, on Doremus Avenue, where they used to 
             have about one ship a week, believe me. But we're so glad 
             to see this port come to where it is today.''
               At the beginning of their careers, he and his older 
             brother worked in tandem as they sought greater African 
             American representation within the Newark Democratic 
             Party, with Bill Payne very early gaining a reputation as 
             the aggressive activist and Donald Payne showing skills as 
             a diplomat. Never an obvious self-promoter, Donald Payne 
             as a public person embodied old school qualities of 
             humility and toughness. He seldom sought out a microphone 
             but commanded attention naturally by being a presence in 
             the room.
               In the aftermath of the Newark riots, the Payne brothers 
             became the strongest South Ward political brand in the 
             city, using the Bergen Street business district as their 
             most visible base of operations. The Congressman scorned 
             conventional polling, preferring instead to gauge his own 
             popularity by the number of beeps on the horn he heard as 
             he walked along his beloved Bergen Street.
               He was a former leader of the Congressional Black 
             Caucus. Donald Payne served as a Newark city councilman 
             and as an Essex freeholder. Congressman Payne was someone 
             who knew Presidents and Kings but was more comfortable 
             with the man in the street, that's just who he was.
               America has lost a noble statesman, New Jersey has lost 
             a brilliant and caring Representative and I have lost a 
             remarkable friend and distinguished colleague. A skilled 
             and compassionate politician, Donald Payne represented his 
             constituents well. An ardent supporter of educational 
             opportunity, he worked to ensure college was within reach 
             for everyone.
               Donald worked tirelessly for small business and had a 
             focused passion for Africa. Because of his knowledge and 
             dedication to the issues of human rights and peace--he 
             saved lives all over Africa. He enjoyed the respect of his 
             colleagues; his calm demeanor will be missed. Donald 
             dedicated his life to helping the less fortunate and 
             expanding and protecting human rights everywhere in a 
             strong and determined way. He will be sorely missed by all 
             who knew him. My thoughts and prayers go out to family, 
             friends, and constituents at this sorrowful time. The 
             world has suffered a great loss.

               Mr. ROE of Tennessee. Mr. Speaker, I now yield to the 
             gentleman from Texas.

               Mr. SESSIONS. Mr. Speaker, first let me say that I join 
             my colleagues in recognizing not only the life and work of 
             Don Payne, but I also wanted to add my words of support 
             for what Don meant to me personally as a cochairman of the 
             Caribbean Caucus a number of years ago.
               Speaker Hastert asked both Don and me to become engaged 
             in issues that would be considered in our hemisphere as a 
             result of the war on terror. The Speaker recognized that 
             the Caribbean was a gateway not only for terrorism, but 
             also a number of other issues. Don and I accepted that 
             role, had a number of trips down to the Caribbean, and 
             also met with Caribbean leaders here in Washington, DC.
               Don was always upbeat, Don was always looking for 
             answers and responses to the needs of our friends in the 
             Caribbean, and really found a way to cut some good 
             friendships with people to where they became better 
             friends of the U.S. Congress and the United States because 
             of his personal involvement in issues and matters.
               I enjoyed working with Don. He accepted not only his 
             role and mine, us working together--I as a younger Member, 
             he as a senior Member. He welcomed my ideas and thoughts.
               It was difficult for me also as I was walking into the 
             Capitol a few minutes ago to see the beautiful flag that 
             flies outside the U.S. Capitol at half-staff in honor of 
             our colleague Don Payne.
               So I do want to thank this body for allowing me a chance 
             to express not only my thoughts about Don, but also to 
             recognize him as an outstanding Member of this body.

               Mr. ROE of Tennessee. May I inquire, Mr. Speaker, how 
             much time we have remaining?

               The SPEAKER pro tempore. The gentleman has 26 minutes 
             remaining.

               Mr. ROE of Tennessee. We have 11 speakers, so I would 
             ask if you would limit your remarks. I want to have an 
             opportunity for everyone who wants to speak to speak.
               Now I would yield time to my colleague and one of Don's 
             very dear colleagues from New Jersey (Mr. Pallone).

               Mr. PALLONE. I thank the gentleman for yielding.
               I have a lot of Don Payne stories. I wanted to tell one 
             that I think says a lot about the man.
               I listened to what Sheila Jackson Lee said before about 
             how he was always humorous and telling jokes, but also 
             about New Jersey politics and how he was so well respected 
             and had the ability to basically tell other Members or 
             indicate to other Members what they should do.
               I also listened to Hansen Clarke when he mentioned Don 
             being a gentleman. Don was a gentleman, and people 
             respected him as such in the city of Newark and throughout 
             his district.
               There was an occasion after the redistricting when I 
             gained an area--I won't mention the name necessarily--in 
             my new district that was mostly African American, and Don 
             Payne was very well known there, and I wasn't known at 
             all.
               I actually lived at the Jersey shore. Some of you may 
             know that the people that are down at the Jersey shore, 
             the people from North Jersey and Newark often refer to us 
             with names like ``clam digger'' and other things to 
             indicate that we're not as sophisticated as the people 
             from Essex County.
               I was at a meeting with African American ministers in 
             this new area of my district. And of course the purpose of 
             Don being there was to tell them it was okay; in other 
             words, it was okay that this guy from the shore, the clam 
             digger, so to speak, was now going to represent you 
             because he was okay.
               As you know, Don couldn't take an occasion like that 
             without making it into a joke and still getting the point 
             across, but in a very humorous way. So he said to the 
             African American ministers as we assembled:

               Well, you know, this guy Frank Pallone is now coming up 
             here and he is going to represent you. But he is down at 
             the shore, and most of the time he spends his time talking 
             about crabs and fish and the things at the shore. You 
             know, I don't know if he can relate to this urban area now 
             that he is going to represent where you all know me, but 
             I'm going to tell you a story. You'll often see 
             Congressman Pallone in pictures at the shore picking up 
             the crabs, and he picks up the crabs and he talks about 
             how the crab had been injured, and it was important to 
             help the crab, and the crab needed some help and needed to 
             be fixed, needed some health care so it can become a whole 
             crab again and lead a good life.

               Of course everybody was laughing at this point, figuring 
             out what this is all about. It was his way of getting 
             across in a humorous way that it was okay to have Frank 
             Pallone represent you, that he was going to relate to you. 
             He could relate to a crab, so he could obviously relate to 
             you.
               I don't know if I'm saying this properly, but this is 
             how Don was. He was just able to use humor to get a point 
             across, a very serious point in a very effective way.
               I will miss him so much because he made me laugh so many 
             times when situations were serious, and there didn't seem 
             to be much humor, but he always did it in a way that made 
             me understand how important it was to be here as a Member 
             of Congress. He really understood how important our jobs 
             were and how they could make a difference in people's 
             lives.
               Thank you.

               Mr. ROE of Tennessee. Now I would like to yield to a 
             gentleman also from New Jersey, one of Mr. Payne's very 
             close colleagues, Mr. Rothman.

               Mr. ROTHMAN of New Jersey. I thank the gentleman for the 
             time.
               Madam Speaker, today Newark, the State of New Jersey, 
             and the United States of America lost a hero, and the 
             world lost, especially those that needed help, those who 
             were being persecuted, they lost a champion.
               Don Payne's family, they've lost their patriarch, the 
             strong, gentle, warm, beautiful, handsome hero who held 
             them together all these many years.
               Like so many others, but in a very special way, I lost, 
             we lost a dear friend. I loved Donald Payne. I know he 
             loved me. We spent many times together as dear friends, 
             buddies, laughing and joking, but also many great times 
             speaking about the very serious issues confronting our 
             State, his district, my district, the country, and the 
             world.
               Donald Payne led an extraordinary life. A young, African 
             American man from very humble beginnings did not have it 
             easy growing up in America and didn't have it easy 
             acquiring political power that enabled him to help 
             everyone, whether it was in Newark or Essex County or New 
             Jersey, the United States, or in the world.
               History will record that this young man from Newark, 
             Donald Payne, literally saved tens of thousands of lives--
             he did--all over the world--in America, in Africa, and in 
             Northern Ireland. He was known throughout the world as a 
             champion of the downtrodden, those in need, and a champion 
             of human rights.
               He was a longshoreman; he was a teacher; he was a 
             waiter. He was an elected official from New Jersey who 
             made us all so proud, but he was a citizen of the world. 
             He was a leader in this world.
               He leaves behind a legacy, not only as a beloved 
             husband, father, grandfather, great-grandfather, brother, 
             family man, but also as a dear, loving friend. Beneath 
             that strong, serious statesman's demeanor was a warm, 
             charming, funny, irreverent, smart, and great friend. I 
             will miss him very much.
               God bless you, Don Payne, my friend. God bless you, 
             Congressman Donald Payne, you iconic figure for America 
             and the world. We will miss you dearly, but we will never 
             forget you.

               Mr. ROE of Tennessee. Madam Speaker, I now yield to the 
             distinguished gentleman from Illinois (Mr. Rush).

               Mr. RUSH. I want to thank the gentleman for yielding.
               Madam Speaker, in the Book of Ecclesiastes 3:1-2, these 
             words are recorded:

               To everything there is a season, and a time to every 
             purpose, and to everything under the sun, a time to be 
             mourned and a time to die, a time to plant and a time to 
             pluck up that which is planted.

               Madam Speaker, today a giant oak tree has fallen. 
             There's a gaping hole in the forest. Don Payne has moved 
             from an earthly life into an eternal heavenly life. A 
             time, a purpose, a season.
               Don Payne did not take his time, his season, nor his 
             purpose for granted. Every moment, every season, the 
             purpose for which he was created meant something to him 
             and he gave his life. He spent his life working on his 
             time, his season, and his purpose.
               Last Thursday, Don, through his chief of staff, asked me 
             to come to the hospital; and we talked for awhile and he 
             whispered some words to me, some directions for me, some 
             orders from his hospital bed. But what stands out to me on 
             that occasion last Thursday was his last words spoken to 
             me. We were in the middle of votes, and he said: ``Make 
             those votes. Don't miss those votes.''
               Here, a man who knew he was spending his last hours on 
             this Earth, he knew that his life was coming to an end. He 
             had told me some weeks before that he had colon cancer and 
             he didn't know what was going to happen, but his last 
             words to me were not ``Woe is me,'' but he was thinking 
             about public service. He was thinking about this House. He 
             was thinking about me and the vote that I was to cast. He 
             was thinking about a time and a purpose and a season.
               In the Book of Micah, life really becomes quite simple. 
             God asked the Prophet Micah: ``What do I require of thee, 
             O man, but to love mercy and do justice and walk humbly 
             before your God.''
               Madam Speaker, I know that Don passed God's requirement. 
             He lived his life with purpose. He was a son of Africa, 
             but he was also a servant of Africa and a servant of the 
             world.
               We're all going to miss Don. We all looked to Don being 
             a beacon in terms of public service. I will miss him, and 
             my condolences go out to his entire family and his entire 
             staff.
               I might add that just this morning my staff and I went 
             to his office, as others have. We sang a song together, 
             ``Jesus, Keep Me Near the Cross.''
               Don not only had the cross in mind, but now he sits in 
             his heavenly home in a better place.
               God bless you, Don. God bless you.

               Mr. ROE of Tennessee. I now would like to yield to the 
             distinguished gentlelady from California (Ms. Lee).

               Ms. LEE of California. I thank the gentleman for 
             yielding.
               Madam Speaker, it is with a very heavy heart that I rise 
             tonight to honor and commemorate the life of a world 
             leader, but more important, a grandfather, a great-
             grandfather, a father, a brother, an uncle, a boss, a 
             dedicated family member to so many. I offer my condolences 
             and prayers to Don's family, to his staff. They need our 
             comfort during these very difficult days.
               Don was more than a colleague to many of us, myself 
             included. He was a very good friend. We lived near each 
             other in Washington, DC, here, and I had the privilege to 
             drive him home quite often. These were special moments for 
             me which I will always cherish; for it was during these 
             rides that he counseled me. He cracked so many jokes to 
             cheer me up because he always knew what we were going 
             through, and we talked about family, friends, and what was 
             really real in our lives.
               Don loved children, and he relished his membership on 
             the Committee on Education and the Workforce. Of course, 
             before coming to Congress, he was the national president 
             of the YMCA and an elementary school teacher. But, yes, 
             Don was also a global leader. I have traveled abroad with 
             Don, and he was greeted as a head of state and a comrade. 
             Don didn't especially like traveling with large 
             congressional delegations. He liked going by himself and 
             with his brother to the middle of conflicts, sometimes in 
             the bush and in the jungles, to meet with guerrilla 
             leaders and freedom fighters. He helped negotiate truces; 
             and all sides, everywhere in the world, loved and 
             respected him.
               Now, for many years, Don was the lone voice in the 
             wilderness calling for a declaration of genocide in 
             Darfur, Sudan. Finally, we all got it. As a result of 
             Don's persistence working with both sides of the aisle to 
             address the atrocities of genocide, his bill passed, this 
             declaration of condemnation of genocide, with bipartisan 
             support.
               I was honored to serve on Congressman Payne's 
             subcommittee for many years, the Subcommittee on Africa. 
             He was a brilliant and fair chairman, and he helped me 
             shepherd and negotiate many bills and many of my 
             legislative efforts.
               Yes, I was blessed to have visited Don on Thursday 
             afternoon. He smiled, we talked, he whispered a few words, 
             and he gave me a thumbs up.
               I met Don Payne through the mail in 1998 when my 
             predecessor, who I know sends his condolences today, 
             Congressman Ron Dellums, told him I was running for 
             Congress. He sent me a wonderful note then--I didn't even 
             know him--and a contribution. And when I was elected, he 
             came up to me; he hugged me and he became my mentor on so 
             many issues.
               In closing, let me just say that I know--and we talked a 
             lot about this, and I've been to church with him--that Don 
             Payne was a humble man of tremendous faith. In thinking of 
             Don this evening, I'm reminded of a Scripture taken from 2 
             Timothy 4:6-8. It says:

               As for me, the hour has come for me to be sacrificed; 
             the time is here for me to leave this life. I have done my 
             best in the race, I have run the full distance, and I have 
             kept the faith. And now there is waiting for me the 
             victory prize of being put right with God, which the Lord, 
             the righteous Judge, will give me on that Day--and not 
             only to me, but to all those who wait with love for Him to 
             appear.

               May Don's soul rest in peace.

               Mr. ROE of Tennessee. I would now like to yield to the 
             distinguished gentleman from Missouri (Mr. Clay).

               Mr. CLAY. I thank the gentleman for yielding.
               Madam Speaker, the untimely passing of my good friend 
             and colleague, Congressman Donald Payne, early this 
             morning is a terrible loss for Donald's family and 
             friends, the House of Representatives, the people of the 
             10th Congressional District of New Jersey, and our Nation.
               Donald Payne was a tireless advocate for his 
             constituents at the local and municipal level before 
             winning election to the House more than two decades ago. 
             As New Jersey's first and--until his death--only African 
             American Member of Congress, he was the voice of working 
             families from all backgrounds who called the 10th District 
             their home.
               I am privileged to have known and worked with Donald 
             Payne. I will always be grateful to him for the warm way 
             he welcomed me into this House and into the Congressional 
             Black Caucus. I know that my father, who worked with 
             Donald for more than 10 years, joins me in extending our 
             family's sympathies to Donald's family, friends, 
             colleagues, and constituents. As the people of Newark and 
             across the State of New Jersey mourn the loss of their 
             friend, Donald Payne, the people of St. Louis, all of 
             Missouri, and all across our country mourn with them.
               His leadership, friendship, and passion for his work 
             will be missed.

               Mr. ROE of Tennessee. I now would like to yield to the 
             distinguished gentleman from New Orleans, LA (Mr. 
             Richmond).

               Mr. RICHMOND. Thank you for yielding, and thank you, 
             Madam Speaker, for the time.
               It was once said that a politician worries about the 
             next election, but a statesman worries about the next 
             generation. Don Payne was a statesman.
               To the Payne family, I offer my sincere condolences and 
             prayers. Thank you for sharing your brother and your 
             father with us. While I do not have as many personal 
             memories as my colleagues of serving with Congressman 
             Payne, I stand here as a beneficiary of his work over his 
             77 years. I can honestly say but not for Donald Payne, I 
             probably wouldn't be here.
               I, along with others of my generation and the 
             generations after me, not only in America but all across 
             the world, stand on the shoulders of Congressman Payne. So 
             I have the honor and the pleasure of serving with him, but 
             I also have the obligation on behalf of those generations 
             to say thank you to Congressman Payne for making this 
             world a better place for us.
               If we can remember anything with his passing, we can 
             rest assured that Donald Payne did what he was purposed to 
             accomplish in his lifetime. So I can say right now without 
             a doubt that Donald Payne earned the right to say exactly 
             what Paul said to Timothy, and that is, ``I have fought 
             the good fight, I have finished the race, and I have kept 
             the faith.''
               So, Madam Speaker, this body, this country, and the 
             entire world lost a true gentleman in Donald Payne, and we 
             lost a quintessential statesman.

               Mr. ROE of Tennessee. Madam Speaker, I would yield now 
             to my colleague and friend from Memphis, a fellow 
             Tennessean, Mr. Cohen.

               Mr. COHEN. Thank you, Mr. Roe. I appreciate the time.
               Everything has been said justly about Congressman Payne, 
             and by such wonderful gentlemen and gentleladies who pay 
             tribute to the man. I had the opportunity to meet him 
             early in my entry into the Congress, and he made me feel 
             at home from day one. He was, indeed, a gentleman, quiet 
             but with a marvelous record for peace and for justice for 
             the downtrodden people who needed a helping hand.
               I had the opportunity through the auspices of CARE and 
             the Gates Foundation to travel with Congressman Payne, his 
             brother, and others to Rwanda, to Goma, and to Congo this 
             past August; and I saw how he was beloved among people in 
             Africa where he had traveled on many occasions before. We 
             shared the experience of going to the memorial to the 
             victims of the genocide there, and Congressman Payne told 
             me some stories about when he'd been there with President 
             Clinton, and President Clinton had gone back and expressed 
             his regrets of not having done more earlier to prevent the 
             genocide, but was strong in supporting the Nation of 
             Rwanda and the people getting their country back together.
               Donald Payne had a progressive record. He was respected 
             and loved by all. I was fortunate that my life intersected 
             with his for he made me feel at home. As so many other 
             members of the Congressional Black Caucus have done, he 
             made it known that it wasn't necessary to be a member of 
             the Congressional Black Caucus to be with the 
             Congressional Black Caucus. I value my time with him.

               Mr. ROE of Tennessee. Madam Speaker, I yield back the 
             balance of my time.

               The SPEAKER pro tempore (Ms. Buerkle). Under the 
             Speaker's announced policy of January 5, 2011, the Chair 
             now recognizes the gentlewoman from California (Ms. Lee) 
             for 30 minutes.

               Ms. LEE of California. Madam Speaker, I'd like to yield 
             now to the gentleman from South Carolina, our assistant 
             leader, Congressman Jim Clyburn.

               Mr. CLYBURN. I thank the gentlelady for yielding me the 
             time.
               Madam Speaker, I often quote the poet Robert Frost, who 
             once admonished us that two roads diverged in the wood, 
             and I picked the one less traveled by, and that has made 
             all the difference. I would not quarrel with Mr. Frost, 
             but I would believe that it's the people that you meet as 
             you travel the roads of life that really make the 
             difference with all of us.
               Several years before I came to this body I met Donald 
             Payne. I was a bit in awe of him because he struck out to 
             attain a seat here, and in that race, right after I met 
             him, things did not go as he had hoped--as many of us had 
             hoped. But Don did not lose faith. He gathered himself, 
             and he tried again. And of course, upon his success, all 
             of us know what a successful Congressman he made.
               I traveled with Don often. We went to Africa together. 
             Traveling with him on the continent of Africa, going in 
             and out of country after country, sitting with him as he 
             called heads of state by their names, and seeing the 
             respect that all of them had for him was just a joy to 
             behold.
               I learned a lot from Donald Payne. I always, whenever I 
             could, wanted to be around him. Just this past December, 
             in my congressional district, Donald came to Charleston to 
             help me participate in a congressional panel, talking 
             about sustaining good, healthy communities. Don, that 
             particular day, was sort of the star, as he usually was. I 
             had no idea at that time that we would be in this place 
             today.
               I think I can say without any threat of contradiction 
             that if anybody has left his or her mark of service in 
             this body, it was Donald Payne. His record will never, in 
             my estimation, be equaled. To know two continents as well 
             as he did is something few people in this body will ever 
             get to attain.
               I want to join with my colleagues in wishing his 
             family--his brother, Bill, who I got to know so well; his 
             son, Donald, Jr.; and other family members--as much 
             sympathy as I can muster. I hope that they will achieve 
             real solace in the fact that their brother, their dad, 
             their uncle gave so much and demanded so little in return.

               Ms. LEE of California. I would now like to yield to the 
             gentleman from Illinois, Representative Danny Davis.

               Mr. DAVIS of Illinois. I thank the lady for yielding.
               We've heard a great deal about Representative Payne this 
             evening. Some of the fondest memories that I have of 
             Donald was talking. He was a philosopher and a poet. All 
             of the things that people have said that he did, he has 
             done. The last conversation we had was sort of a 
             philosophical conversation. I believe that Tennyson framed 
             Donald Payne long before he was born, and he wrote this 
             poem that said:

             Sunset and evening star
             And one clear call for me!
             And may there be no moaning of the bar,
             When I put out to sea,
             But such a tide as moving seems asleep,
             Too full for sound and foam,
             When that which drew from out the boundless deep
             Turns again home.
             Twilight and evening bell,
             And after that the dark!
             And may there be no sadness of farewell,
             When I embark;
             For though from out our bourne of Time and Place
             The flood may bear me far,
             I hope to see my Pilot face to face
             When I have crossed the bar.

               Donald crossed, but he left a great deal behind.

               Ms. LEE of California. I would now like to yield to the 
             gentlewoman from New York, Congresswoman Yvette Clarke.

               Ms. CLARKE of New York. I thank my colleague, Barbara 
             Lee.
               Madam Speaker, today I am here to pay tribute to a 
             quintessential public servant, a person who tirelessly 
             fought on behalf of his constituents of the 10th 
             Congressional District of New Jersey, and for all 
             Americans of all backgrounds across this Nation. Today I 
             pay tribute and celebrate the life of our beloved 
             colleague, Congressman Donald Payne.
               Donald made history as the first African American in New 
             Jersey to be elected to Congress. He served as the former 
             chairman of the Congressional Black Caucus and was recent 
             chairman of the Congressional Black Caucus Foundation, 
             where I really saw him go to work on behalf of the people 
             across this Nation.
               Along with many others, I consider Representative Payne 
             not just an accomplished colleague, but a role model and a 
             dear friend. He was a relentless and iconic advocate for 
             the continent of Africa, the African diaspora, as well as 
             the Caribbean region. He spoke out boldly against genocide 
             in Darfur and Rwanda, and fought alongside the 
             Congressional Black Caucus to help Haiti recover from the 
             devastating earthquake that struck the nation in 2010.
               Congressman Payne was a representative of Newark, but 
             his leadership was global. We are grateful for his world 
             view. We will never forget his passion, zeal, and 
             commitment to improve U.S. diplomatic relations around the 
             world.
               I count myself fortunate to have established a real bond 
             with Congressman Payne. He shared with me his quick wit, 
             and we shared a lot of laughs together. We often joked 
             about who was tougher, Newark or Brooklyn. He was also 
             very skilled on the dance floor. I had an opportunity to 
             travel with Mr. Payne.
               I extend my condolences to his son, Councilman Donald 
             Payne, Jr.; to his very devoted brother; his daughters 
             Nicole and Wanda; his grandchildren; great-grandchild; his 
             close friends; his devoted staff; and the people of the 
             10th Congressional District of New Jersey.
               Know that he has left us a great legacy, building 
             blocks, if you will, for future generations of leaders. We 
             will continue to celebrate the contributions of this great 
             statesman. The stars in the heavens will twinkle just a 
             bit brighter as Congressman Donald Payne makes his 
             transition to be with our Creator in heaven.
               Thank you, Congressman, for all your commitment and 
             sacrifice for the betterment of our global community.

               Ms. LEE of California. I would now like to yield to the 
             gentleman from North Carolina, Congressman Price.

               Mr. PRICE of North Carolina. Madam Speaker, it was with 
             great sadness that I learned of the passing of my good 
             friend and colleague, Donald Payne. Few Members who've 
             served in this institution have left a greater impression 
             on their constituents, their colleagues, and their 
             country's domestic and foreign policy than Don Payne.
               From the moment Don set foot in Congress, he was a 
             powerful advocate for the needs and interests of his 
             central New Jersey community and of working Americans 
             across our country. Bringing to bear his impressive and 
             diverse record as a public school teacher, president of 
             the National Council of YMCAs, and an elected official in 
             Newark, Don quickly became one of the most forceful and 
             effective advocates for public education in the Congress, 
             playing a key role as a member of the Education and Labor 
             Committee on virtually every major educational reform 
             enacted over the last two decades. As the first African 
             American elected to Congress from New Jersey, Don was an 
             equally forceful advocate for the continued struggle for 
             civil rights, eventually becoming chair of the 
             Congressional Black Caucus.
               Now, these accomplishments in education and civil rights 
             would qualify as a successful career for any Member, but 
             Don didn't stop there. Driven by his early fascination 
             with Africa and his adventuresome travels there, Don 
             recognized that the struggle for civil rights and human 
             dignity knew no borders, rising to become one of the most 
             effective chairmen of the Foreign Affairs Africa and 
             Global Health Subcommittee that we have ever had in this 
             institution.
               Our Nation's expanded focus on AIDS, malaria, and other 
             pandemic diseases over the past decade would simply not 
             have occurred without Don's visionary leadership and moral 
             courage. It was fitting that USAID announced the launch of 
             a Donald Payne Fellowship Program last week, designed to 
             help young people enter careers in international service.
               I was fortunate to benefit from Don's knowledge and 
             advocacy personally as he became a founding member of the 
             bipartisan House Democracy Partnership, which I cochair 
             with my California colleague, Representative David Dreier.
               Don's counsel and guidance and encouragement were 
             invaluable as the House Democracy Partnership initiated 
             partnerships with legislatures in Africa and conducted 
             outreach in countries affected by the Arab Spring. Our 
             frequent travels together in the region forged a deep and 
             lasting friendship. He probably knew more about the ins 
             and outs of African politics than all the other Members of 
             this institution combined. He had strong and well-informed 
             views about what our country's policies should be, and he 
             was ready to articulate those views persuasively, no 
             matter who the President was or which party was in charge.
               He also insisted on investigating situations on the 
             ground for himself, which led to quite a few one-man 
             codels and some anxious moments for those who wanted to 
             prepackage congressional visits or maintain airtight 
             security. It was fascinating to talk to him about his 
             diplomatic forays, which offered a combination of high 
             adventure and a remarkable, inspiring dedication to the 
             freedom and dignity of the people of Africa.
               Congress has lost a true statesman, a dedicated 
             humanitarian, and a loyal public servant. We mourn his 
             passing, and we will miss Don Payne's counsel and 
             friendship.

               Ms. LEE of California. Madam Speaker, I would like to 
             yield now to the gentlelady from Florida, Congresswoman 
             Brown.

               Ms. BROWN of Florida. Often I say, ``God is good,'' and 
             the audience says, ``All the time.'' But God has been good 
             for giving us the life of Donald Payne.
               You know, when you're born, you get a birth certificate, 
             and when you die, you get a death certificate, and that 
             dash in between is what you have done to make this world a 
             better place, and Don Payne has done his work.
               When I think of what Paul said, ``You have fought a good 
             fight,'' and he has. And you've finished the course, but 
             there is still work for us to do.
               We talk about Donald Payne, and all of his work in 
             Africa, and I don't know anyone that knew the continent or 
             the people more than Donald Payne.
               I want to mention that my first trip as a Member of 
             Congress was with Congressman Payne, and we went to 
             Ireland and we went to other countries. He was an 
             international leader.
               I want to thank his family and the constituents that 
             sent him here. You know that you sent someone here that 
             loved. He loved the Lord, but more than that, he was what 
             we want our public servants to be: someone that actually 
             believes in serving the public.
               So Donald's work speaks for itself, and we are so 
             grateful that we've had the opportunity to serve with him.
               [Ms. Brown's prepared statement follows.]
               My thoughts and prayers go out to his family and staff. 
             And in fact, I participate in a weekly prayer call, and I 
             have asked all of the parishioners and participants to 
             pray for him and his family, and all of the constituents 
             who cared about him in the State of New Jersey.
               Beyond a doubt, our Nation will mourn the loss of such a 
             dedicated Member of Congress, who lived his life as a true 
             symbol of an ideal public servant.
               I feel privileged to have been able to work with 
             Congressman Payne on a number of issues throughout the 
             years. For me personally, within the Congressional Black 
             Caucus, and for the Congress, he was a leader on all 
             issues relating to the continent of Africa. He knew all of 
             the leaders, and knew extraordinarily well the various 
             countries' histories and domestic politics, and worked 
             tirelessly throughout his tenure to resolve numerous deep-
             seated conflicts on the continent, while leading many 
             congressional delegations to war-torn areas. Indeed, 
             Congressman Payne always spoke out on behalf of people who 
             struggled in many of the most difficult nations around the 
             world: from Rwanda to Sudan and Haiti, to the peace 
             process in Northern Ireland.
               Congressman Payne will be deeply missed here in 
             Washington. I will always remember his soft-spoken manner, 
             will power, drive, intelligence, and energy. As the first 
             African American to serve in the House of Representatives 
             from the State of New Jersey, I am certain that he will 
             serve as an inspiration for others to follow in his 
             footsteps.

               Ms. LEE of California. I would now like to yield to the 
             gentlelady from the Virgin Islands, Congresswoman Donna 
             Christensen.

               Mrs. CHRISTENSEN. Thank you, Congresswoman Lee. And 
             thank you, everyone who's come out to pay tribute to 
             Donald Payne this evening; and thank you, Father Conroy, 
             for being here with us.
               I recently had the opportunity to introduce Donald at an 
             annual gala of the Mountainside Marketing Group, where he 
             was being honored with the 2011 Congressional Minority 
             Business Award, and it was really an honor to do that.
               I talked then about his commitment to Africa and how I 
             always told Donald I would never travel with him. You see, 
             he was as comfortable, as you've heard, meeting rebels in 
             the jungle as he was meeting Presidents and chiefs. State 
             Department warnings meant nothing to him. You heard about 
             his plane being shot at in Mogadishu, and he also did some 
             jail time here at home for protests on behalf of the 
             justice here and abroad.
               Because of the high respect in which he was held by 
             everyone on all sides, he was able to bring peace to 
             warring factions, to broker truces, and to ease the 
             pathway to democracy for many. His legacy as a peacemaker 
             was not limited to Africa. He's considered an honorary son 
             of Ireland for his contributions there.
               I talked that evening about his commitment to children. 
             As a teacher, he used his senior position on Education and 
             Labor to ensure that educational opportunities are 
             available for all children, but especially poor and 
             minority children. He worked hard to close the achievement 
             gap, and was also a key player in legislation to reduce 
             interest rates on college loans and to increase Pell 
             grants.
               I was able to tell those gathered how working families 
             had no stronger supporter of labor and worker protections 
             than Donald Payne.
               Last year the Health Braintrust and all of our partners 
             honored Donald with the Congressional Leadership Award.
               I had the honor also of traveling to Newark every other 
             year to the Donald Payne health summits and health fairs. 
             He was just as determined that the people in his district 
             have access to quality health care as he was committed to 
             their education and economic opportunity. It was always an 
             event that was looked forward to and attended by thousands 
             who were then connected to the health care system, some 
             for the very first time.
               But his commitment to health extended beyond his 
             district to our entire country, to Africa and the 
             Caribbean. He made sure that global health was added to 
             the responsibility of the Subcommittee on Africa, which he 
             chaired.
               He led the effort to increase PEPFAR funding more than 
             threefold. When President Bush signaled his willingness to 
             go from $15 billion to $30 billion over 5 years, Donald 
             took that as an opening to push for even more and, with 
             Barbara Lee and others, parlayed that to $48 billion. He 
             also led in ensuring that, for the first time, all the 
             countries in the Caribbean would be included.
               So it's no surprise that condolences are pouring in from 
             all over the world, and I want to submit one from Dr. 
             Claire Nelson on behalf of the Institute of Caribbean 
             Studies.
               There were only a few of us that knew that Donald was 
             diagnosed with cancer and was undergoing treatment. He was 
             truly amazing. I thought he was even more feisty after his 
             diagnosis than before. He would add his humorous 
             commentary even more often at our meetings. He teased many 
             of us mercilessly.
               He led the Congressional Black Caucus Foundation with 
             boundless energy which, of course, all of us on the board 
             and the staff had to try to keep up with.
               His most recent boat ride, of which he takes pictures 
             with everyone who comes, was lots of fun as always; and he 
             thoroughly enjoyed every minute of it, as all of us did.
               His work in this body, of course, never faltered, and I 
             think he would have been a more formidable adversary or 
             advocate, as the case might have been.
               But above all, Donald was a dear friend.
               In the end, he succumbed to the cancer, but up until the 
             very last, he lived his life to the fullest. The people of 
             the U.S. Virgin Islands, and he visited us several times, 
             my family and staff join me in extending our heartfelt 
             sympathy to his family: his children Donald, Jr., Wanda, 
             and Nicole; his four grandchildren and his great-
             grandchild; his brother Bill, and sister Kathryn; LaVerne 
             Alexander, and all of his staff, past and present, here 
             and in the district; and the people of the 10th District 
             of New Jersey.
               Donald was not only a respected member of the 
             Congressional Black Caucus, which he chaired. He was loved 
             by all of us. We will miss him terribly, but we will 
             remember him with such great affection and consider 
             ourselves blessed to have known him, to have served with 
             him, and to have him call us his friend.
               So long, Donald. Rest in peace. Until we meet again.

                                                       March 6, 2012
               Dear Friends:
               ``Every once in a while a GIANT walks the earth.''
               Over the past several years, I was privileged to have 
             worked with Congressman Payne who was tireless in his 
             support for the Caribbean, as well as Africa. I remember 
             well the first time I moderated a task force at the CBC 
             Annual Legislative Caucus, that he was cochair of. He was 
             so gracious, with my anxiety about following the 
             appropriate protocol. As chair of the Bipartisan Caribbean 
             Caucus, he led the way for us to have our voice heard and 
             helped us to understand how we as Caribbean Americans may 
             better impact the Congress he loved and served so well.
               On behalf of the Caribbean American community, ICS will 
             offer condolences to his family and friends as the 
             arrangements become known to us, by way of our advisors 
             who were his personal friends.
               In the meantime, I offer my prayers of thanksgiving for 
             his life and legacy and my prayers of comfort to those he 
             loved best. May he rest in peace.
                                             Dr. Claire Nelson,
                    President of the Institute of Caribbean Studies.

               Ms. LEE of California. I would like to yield now to the 
             gentleman from Indiana, Congressman Andre Carson.

               Mr. CARSON of Indiana. Madam Speaker, from my first days 
             in Congress, I always considered Donald Payne to be a 
             mentor and a friend. He took me and others under his wing 
             and showed us what it truly means to be a Member of 
             Congress, not just a politician. He showed me, like he 
             showed so many of us in this Chamber, how much more we 
             accomplish through humility and cooperation than through 
             bravado and partisanship.
               He was brilliant, and he put thought into every word he 
             said; and because of that, Madam Speaker, his words 
             carried weight on both sides of the aisle and in both 
             Chambers.
               Most recently, I was privileged to serve under his 
             leadership on the board of the Congressional Black Caucus, 
             and I was able to see up close how he brought together the 
             diverse personalities and opinions of the caucus in order 
             to achieve a greater purpose.
               Congressman Payne made our caucus strong and united; and 
             while we attempt to fill the gap he leaves behind, I know 
             we will never have another leader like Donald Payne.
               Madam Speaker, learning to serve in the House is truly 
             an honor, but it also comes with many challenges. As a 
             young Member, I am continuing to grow and find my place 
             among my distinguished colleagues; but I feel just a 
             little more confident because I had a role model in Donald 
             Payne.
               As long as I am given the privilege to serve in this 
             great House, I look forward to carrying that legacy, the 
             one that he started--to fight for the underprivileged, to 
             bring attention to the critical issues that don't make the 
             front page, Madam Speaker.
               I want to extend my deepest sympathies to his family and 
             staff, and they know like I do how great a Member and how 
             great a man he was.
               I'm reminded of a passage of a conversation that Jesus 
             had with his disciples in the Book of Matthew, and they 
             were dealing with this notion of leadership; and Jesus 
             said very succinctly and very clearly and very wisely, and 
             prophetically to them: ``He who wishes to be chief among 
             you shall first be your servant.''
               Let us remember and honor Donald Payne, a true public 
             servant.

               Ms. LEE of California. I would like to yield to the 
             gentleman from Oregon, Congressman Blumenauer.

               Mr. BLUMENAUER. Today we mourn the loss of a colleague 
             and friend. Newark lost its champion. Africa lost its 
             informal ambassador, as Donald Payne exercised tremendous 
             leadership and influence as a senior member and chair of 
             the Subcommittee on Africa.
               With the passing of Donald Payne, I think it's important 
             to note one other loss, because for millions of people 
             around the world who never knew Don Payne, they lost a 
             hero. Don knew that almost 1 billion of the world's 
             poorest people lacked access to clean drinking water, that 
             almost 3 times that number lacked access to sanitation 
             resulting in the death every 15 seconds of a child 
             needlessly to waterborne disease.
               One of the great privileges of my career in the House 
             was working with Don Payne on the Paul Simon Water for the 
             Poor Act. Don Payne was a quiet Member of Congress, but he 
             knew what was important. He was clear in expressing those 
             needs, expressing what needed to be done; and his 
             leadership, his work behind the scenes, as well as on the 
             front lines, made it possible for the first time in our 
             history for the United States to have a cohesive policy 
             toward meeting the unmet needs of water and sanitation for 
             these poor people, to set a very clear objective that 
             within the next 4 years we would cut in half the number of 
             people who lack access to this fundamental.
               Because of the leadership of Congressman Donald Payne, 
             literally millions of lives have been touched, improved, 
             indeed, saved.
               We thank you, Congressman Payne, for your leadership and 
             influence that extended far beyond your district in New 
             Jersey, and we thank his family and constituents for 
             sharing him with us and sending him back repeatedly so 
             that he could do his important work.

               Ms. LEE of California. I would now like to yield to the 
             gentleman from Georgia, Congressman Scott.

               Mr. DAVID SCOTT of Georgia. Thank you very much, Ms. 
             Lee.
               This is indeed a very sad and, at the same time, a very 
             precious time because we're here to talk about a life.
               A life is so precious. Donald Payne was indeed a very 
             special human being. I served with Donald Payne on the 
             Foreign Affairs Committee; and through his work on the 
             Foreign Affairs Committee, I got to know him.
               Let me just say to the people of New Jersey, to his 
             family, you've lost a friend, you've lost a husband, a 
             father, a public servant for the Newark area of New 
             Jersey.
               I want you to know that Donald Payne's life and his 
             legacy go far beyond there.
               There was a friend of mine who said, ``I don't want to 
             hang around the shores with the little boats. I want to go 
             way out where the big ships go.'' Donald Payne went way 
             out where the big ships go. Nowhere was his impact more 
             meaningful than in the continent of Africa. It was Africa 
             that just pulled his heart, pulled his whole being. Donald 
             Payne became the champion and the foremost advocate for 
             the people of Africa in the Congress of the United States.
               What courage.
               I remember the time I was over in Africa going to the 
             Congo, going to the real heart of the matter, going into 
             Kenya, and going into Somalia and into Yemen. There was 
             Donald Payne with the courage at a very difficult time, at 
             a challenging time when al-Shabab was in control of the 
             situation in Somalia. You hear on the news that there is a 
             Congressman who's in harm's way trying to get on an 
             airplane to get out of Somalia at a very hot moment. He 
             was there in the toughest, meanest, most difficult part of 
             Africa bringing some reason.
               So all over this world, we can all say that we thank God 
             for sending Donald Payne our way.

               Ms. LEE of California. Madam Speaker, how much time do I 
             have remaining?

               The SPEAKER pro tempore. The time of the gentlewoman has 
             expired.

               Ms. LEE of California. Madam Speaker, may we request an 
             additional 10 minutes?

               The SPEAKER pro tempore. The Chair cannot entertain that 
             request.

               Mr. MEEKS. Madam Speaker, I am here this evening to 
             thank God for the life of Donald Payne--to thank God for a 
             man who was focused, for a man who was a trailblazer, for 
             a man who when he came to Congress knew what he wanted to 
             do. People sometimes do not know what their purposes are 
             in life. Sometimes folks get here, and they wander all of 
             their lives to find that purpose. Donald Payne knew what 
             his purpose was. He fought and was determined to get to 
             this House of Representatives so that he could make a 
             difference in so many lives.
               Once he came here, he never changed his focus, and he 
             never changed his purpose. He knew that he wanted to deal 
             on the international scale. He knew he wanted to take care 
             of the people of Newark, and he knew he was focused on 
             education. So when he had the opportunity to go on the 
             powerful Appropriations Committee, he was so focused on 
             what his mission was that he said ``no'' to Appropriations 
             and stayed on Foreign Affairs and stayed on Education 
             because that is what he wanted to do.
               He paved the way for someone like me so that, when I 
             came to Congress, I looked to him. It wasn't popular to be 
             on Foreign Affairs when Donald came. Donald did what he 
             knew his purpose was.
               So I want to just say, thank you, Donald Payne. Thank 
             you for your work and for your mission and for paving the 
             way for someone like me so that I now don't have to have a 
             machete to cut away the grass. You've done it for us.
               Thank you, staff. Thank you, family.
               Thank You, God, for sending us Donald Payne. I can see 
             You now just saying to him, ``Well done. Job well done, my 
             good and faithful son.''

               Ms. McCOLLUM. Someone was saying today that you remember 
             your first and your last time.
               The first time I met Donald Payne was in my first term 
             on the Education and the Workforce Committee. We were 
             talking about the inequities in college funding for 
             minorities, and they were talking about the Hispanic 
             higher education institutions and about Historical Black 
             Colleges.
               I spoke up, and I said, ``What about the tribal 
             colleges?''
               Mr. Payne said, ``We will never forget the tribal 
             colleges again when we list off all of our colleges that 
             serve our minority youth.''
               And he never did, so I thank him for that.
               The last time--and it's fitting that Congresswoman 
             Woolsey is on the floor with me--was at the State of the 
             Union Address. Usually, Donald sat on this side. Lynn and 
             I had the privilege of keeping him warm that night. So, 
             with that, here are my remarks.
               Today, the U.S. House of Representatives and the 
             American people lost a statesman and a dedicated leader 
             committed to human rights, quality education and social 
             justice at home and around the world. It was my honor to 
             serve with Donald Payne on the Africa Subcommittee, as 
             well as on the Education and the Workforce Committee. I 
             will always remember Donald as a friend and as a 
             gentleman, a kind soul who spoke with authority and who 
             legislated on behalf of those who were often too 
             voiceless.
               My deepest condolences to Donald's family, to his staff, 
             to his New Jersey constituents, and to people all over the 
             world.

               Mr. BISHOP of Georgia. Madam Speaker, all the world is a 
             stage, and all the men and women merely players. Each has 
             his entrance and his exit. One man in this time may play 
             many parts. So it is with Donald Payne.
               He was a son, a brother, a husband, a father, a 
             grandfather, a great-grandfather, a teacher, a coach, a 
             mentor, a leader. He led the CBC. He led the Congressional 
             Black Caucus Foundation, and he was a friend. He was an 
             extraordinary legislator. He represented the people of 
             Newark, NJ, very well.
               One thing that I learned about Donald from personal 
             conversations was that he was truly a family man, that he 
             loved his family. He spoke with love about the sacrifices 
             that he made upon the untimely death of his wife, about 
             how he had young children. He determined that he was going 
             to take care of those children himself, not farm them out 
             to other family members. So he sacrificed--he did the 
             PTAs; he did the hair; he did all of the things so that 
             his children would have a good life. It seems that 
             Donald's early life was difficult, and he was determined 
             that his children would not have the difficulties that he 
             had.
               Donald was a great man. We have lost him. The family has 
             lost a great man. We feel your pain; but the joy we share 
             because we knew him will sustain us. We were blessed to 
             know, love, be a part, and to share the life, as you did, 
             with this great man. He was a friend. We will miss him as 
             you will.
               Our thoughts and prayers are with you.

               Mr. DREIER. Madam Speaker, I am deeply saddened by the 
             loss of my dear friend and esteemed colleague, Don Payne. 
             I was privileged to serve with Don for more than two 
             decades. I always had enormous respect for his passion, 
             dedication, and encyclopedic knowledge of a range of 
             foreign policy issues, particularly the 54 nations of 
             Africa. He was one of the founding members of the House 
             Democracy Partnership, a commission that benefited 
             tremendously from his expertise and commitment.
               In November, Don and I had the opportunity to travel 
             together throughout Eastern and Central Europe to 
             commemorate the post-Soviet transition to democracy of 
             several nations. He endured with good spirits a number of 
             speeches honoring Ronald Reagan, never failing to remind 
             me that John F. Kennedy was the world's leading champion 
             of democracy long before Reagan's Presidency. We continued 
             on to Egypt, where Don and I served as international 
             witnesses in the first round of parliamentary elections. 
             His enthusiasm and energy never flagged as he spent 2 long 
             days traveling from poll to poll in Egypt's first true 
             election in 7,000 years.
               As Don always exemplified, our endeavor to protect human 
             rights, promote the rule of law, create economic 
             prosperity and eradicate violent extremism through the 
             building of democratic institutions is a thoroughly 
             bipartisan one. He will be greatly missed by all who were 
             privileged to know him.

               Mr. HINOJOSA. Madam Speaker, I rise with great sadness 
             to pay tribute to and honor the life of Representative 
             Donald Payne, an esteemed colleague and devoted public 
             servant.
               Committed to social and economic justice, Representative 
             Donald Payne spent his life helping the most vulnerable in 
             America and abroad.
               During my tenure in Congress, I had the pleasure of 
             serving with Congressman Donald Payne on the Education and 
             the Workforce Committee. As a former public school 
             teacher, Congressman Payne understood the needs of 
             students, parents, teachers, and educators and the value 
             of a good education.
               As a senior member of the Education and Workforce 
             Committee, Representative Payne worked tirelessly to 
             expand educational opportunity for disadvantaged children 
             and youth, and to ensure that all children had access to a 
             quality education.
               Congressman Donald Payne was a true champion for 
             American workers and the middle class, always fighting to 
             ensure that workers had safe working conditions and 
             family-sustaining wages. In the area of Foreign Affairs, 
             Congressman Payne was known around the globe for his 
             outstanding leadership in promoting peace and democracy in 
             Africa.
               Representative Donald Payne will be greatly missed in 
             this Chamber. My thoughts and prayers go out to his 
             family, his staff, and the people of New Jersey.

               Mr. LoBIONDO. Madam Speaker, I extend my deepest 
             sympathy to the family of Congressman Donald Payne, who 
             served New Jersey with distinction and honor for more than 
             two decades. His leadership was welcomed and respected at 
             home and in the Congress. His passion for civil rights and 
             stewardship of the Congressional Black Caucus will always 
             be remembered. My thoughts and prayers go out to the Payne 
             family and the residents of the 10th District who lost a 
             champion of their interests.

               Ms. FUDGE. Madam Speaker, on March 6, 2012, Congressman 
             Donald Payne of New Jersey passed away due to 
             complications from colon cancer. Today, along with my 
             colleagues in the U.S. House of Representatives, I pay 
             tribute to the memory of Congressman Payne. While today 
             marks the end of his work on Earth, the results of his 
             labor will live on for many years to come.
               In 1988, Donald Payne became New Jersey's first African 
             American to be elected to the U.S. Congress. As a public 
             school teacher, the first African American president of 
             the National YMCA, and most recently as a Member of 
             Congress for over two decades, Donald was a tireless 
             advocate for children, working families, and senior 
             citizens. He was a leader and a role model, who dedicated 
             his life to, among other things, closing the achievement 
             gap, providing equitable funding for public schools, and 
             making health care more affordable. In the 112th Congress, 
             he was a senior member of the House Committee on Education 
             and the Workforce. He was a key player in the passage of 
             the College Cost Reduction and Access Act, which cuts 
             interest rates on Stafford loans in half, increases Pell 
             grants and provides loan forgiveness to public service 
             employees with student loan debt. Donald was also a senior 
             member of the House Committee on Foreign Affairs, most 
             recently serving as the highest ranked Democrat on the 
             Subcommittee on Africa, Global Health, and Human Rights.
               Donald will always be remembered as a champion for human 
             rights and a strong advocate for humanitarian aid for 
             developing countries, especially African countries. Beyond 
             his work in Africa, he traveled throughout the world 
             serving as a voice on issues impacting the social 
             conditions of the global community. He was a former 
             chairman of the Congressional Black Caucus and, most 
             recently, served as chairman of the Congressional Black 
             Caucus Foundation, Inc. The absence of his passion, 
             leadership, and compassion will not go unnoticed. He will 
             be greatly missed.
               I was blessed to count Donald as a colleague, and as a 
             dear friend and mentor. I will always treasure his support 
             and guidance during the past few years. My heartfelt 
             prayers are with his family, staff, and constituents. May 
             the thoughts and prayers of many give solace to his family 
             and friends during this trying time.

               Mr. RANGEL. Madam Speaker, I cannot fully express my 
             sadness over the death of my dearest friend and 
             Congressional Black Caucus colleague Congressman Donald 
             Payne. Today his constituents in New Jersey's 10th 
             Congressional District, our colleague in Congress, people 
             across America and around the globe mourn the loss of a 
             great man, leader, and humanitarian. Donald was a champion 
             of the lesser among us. He saw wrong and fought tirelessly 
             to make it right.
               Donald sought to give every child a quality education 
             and a fair chance at success no matter where they came 
             from. For over 23 years in Congress, as former chairman of 
             the Congressional Black Caucus, and member of the House 
             Committee on Education, he advocated for low-income 
             students across our Nation. Moreover, as a member of the 
             Committee on Foreign Affairs, Donald worked passionately 
             to restore democracy and human rights in Africa and 
             throughout the world. Donald and I shared a vision in 
             giving Americans from all walks of life the opportunity to 
             serve and represent our Nation abroad. His most recent 
             accomplishment before he passed was the creation of 
             USAID's Donald Payne Development Fellowship Program. 
             Thanks to Donald's efforts young Americans will have the 
             opportunity to continue Donald's legacy of promoting peace 
             and compassion to the rest of world.
               I will deeply miss my brother, Donald Payne, whose 
             kindness and commitment to humanity will forever be 
             remembered. My deepest condolences go out to his family 
             and loved ones.

               Mr. BISHOP of Georgia. Madam Speaker, I come to the 
             House floor today to pay tribute to our beloved colleague, 
             dear friend, and one of our Nation's preeminent 
             humanitarian icons--the late Congressman Donald Payne.
               I first met Congressman Payne nearly two decades ago and 
             I will always remember him as a kind, welcoming, and 
             intellectually gifted individual.
               In serving in this distinguished body with Congressman 
             Payne over the past few decades, I had the pleasure of 
             seeing him excel in multiple roles and often under 
             challenging circumstances.
               As a former chairman of the Congressional Black Caucus 
             and more recently chairman of the Congressional Black 
             Caucus Foundation, I observed first hand his relentless 
             and passionate advocacy on improving the standards of 
             living for disadvantaged and disenfranchised communities 
             of color all around the world.
               Anyone who knew Donald Payne well, knows that one of his 
             biggest priorities was doing all he could to improve the 
             educational standing of our Nation's students and young 
             scholars. As a former teacher, he understood better than 
             most in this body, the insurmountable tasks that our 
             educators have in simultaneously instructing and mentoring 
             our future leaders.
               He used his senior position on the U.S. House of 
             Representatives Education and the Workforce Committee to 
             aggressively advocate on behalf of America's children. He 
             remained engaged in exploring ways that we could close our 
             Nation's educational achievement gap; provide equitable 
             funding for public schools; and make college more 
             affordable.
               As the ranking member of the House of Representatives 
             Foreign Affairs Subcommittee on Africa, Global Health, and 
             Human Rights, he worked extensively to protect human 
             rights and provide vital humanitarian assistance to 
             developing countries throughout the African continent.
               Madam Speaker, today the world has lost an uplifting and 
             inspiring public figure and a remarkable human being. 
             Those of us who were fortunate and blessed to have known 
             and worked with Donald Payne have lost a nurturing mentor 
             and widely admired colleague.
               Congressman Payne once said, ``There is a lot of dignity 
             in being able to achieve things without having to create 
             rapture.'' This quote speaks not only to the symbolism of 
             Donald's civil nature but to the substance of his lifelong 
             mission of accomplishing good deeds through consensus 
             rather than conflict.
               Madam Speaker, I would ask that all my colleagues take 
             time out of their schedules today to pay tribute to Donald 
             Payne for all that he did and all the good things that his 
             legacy will continue to inspire us to do.

               Ms. MATSUI. Madam Speaker, I rise today to remember 
             Congressman Donald Payne.
               Today, we lost a dear colleague and friend in the House 
             of Representatives, and the American people lost a 
             dedicated leader. I am honored to have served with 
             Congressman Payne, and am deeply saddened by his passing.
               Donald spent his life fighting for those less fortunate, 
             and was a committed advocate for education, civil rights, 
             and social justice--both at home and abroad. He was a 
             humanitarian in the truest sense of the word, and his 
             passion was both inspiring and contagious. As the first, 
             and only, African American from New Jersey elected to 
             Congress, Donald was a trailblazer. His achievements are a 
             testament to the hard work, patience, and determination 
             that became the hallmark of Donald Payne's career in 
             public service.
               As a senior member of the Education and Workforce 
             Committee, Donald was a steady and effective 
             representative for working men and women across America. 
             His efforts on their behalf led to tangible gains in the 
             areas of worker health and safety. Donald also lent his 
             voice in support of early education, working tirelessly to 
             ensure that every American child receives a first-class 
             education, regardless of financial circumstance.
               As a member of the Foreign Affairs Committee, Donald won 
             the admiration and respect of his colleagues for his 
             extensive and unrivaled knowledge of international 
             affairs, especially concerning Africa. His humanitarian 
             efforts to secure international aid for populations 
             ravaged by war and disease are a tribute to his compassion 
             and unwavering resolve to improve the lives of the 
             downtrodden. Madam Speaker, Donald's legacy and long list 
             of accomplishments will continue to provide a lasting 
             example for my colleagues and me going forward. My sincere 
             condolences go out to Donald's family, friends, staff, and 
             constituents. He will be missed in this House.

               Mr. COSTELLO. Madam Speaker, I rise today to ask my 
             colleagues to join me in recognizing the passing of our 
             dear colleague, Congressman Donald Payne and honoring his 
             lifetime commitment to service and humanitarian causes.
               Don Payne and I were classmates in Congress. I was first 
             elected in a special election in August 1988 and Don was 
             first elected in 1988 and took office with the 101st 
             Congress in 1989.
               A lifelong resident of Newark, NJ, Don Payne was an 
             educator, insurance executive, and president of the 
             National Council of YMCAs, an organization with which he 
             was involved until his passing. His passion for community 
             service took him to elected positions on the Newark City 
             Council and as an Essex County freeholder before being 
             elected as the first African American to represent New 
             Jersey in the U.S. Congress.
               As a Member of Congress, Don continued to be a tireless 
             advocate for his constituents in New Jersey but he also 
             built a reputation as a champion of human rights on an 
             international scale. As a leader of the Subcommittee on 
             Africa, Global Health, and Human Rights, Don traveled 
             extensively to bring aid and fight for oppressed people 
             across the globe. Don was very involved in efforts to 
             combat political oppression, ethnic violence, the spread 
             of AIDS and starvation in Africa but he also worked for 
             relief efforts in Haiti and was very supportive of peace 
             negotiations in Northern Ireland.
               This past Tuesday, March 6, Don Payne lost his battle 
             with cancer; the people of Newark and the world lost a 
             dedicated public servant; and I lost a dear friend and 
             colleague. He will be truly missed.
               Madam Speaker, I ask my colleagues to join me in an 
             expression of appreciation for the life and service of 
             Congressman Don Payne and to keep him and his family in 
             our thoughts and prayers.

               Ms. RICHARDSON. Madam Speaker, it is with a heavy heart 
             that I rise today to remember the life and mourn the loss 
             of our beloved colleague, the distinguished gentleman from 
             New Jersey, Congressman Donald M. Payne.
               For 12 terms, Congressman Payne was an effective 
             advocate for the interests of constituents, a trusted 
             expert on international affairs and Africa policy to his 
             colleagues, and a tireless champion for poor, vulnerable, 
             oppressed, and marginalized people everywhere on Earth. 
             But above all, Donald Payne was a good and kind man, who 
             with unfailing good cheer enriched the lives of all he met 
             and served.
               Born in Newark, NJ, on July 16, 1934, to William Evander 
             Payne and the former Norma Garrett, this son of a 
             chauffeur and a dockworker went on to graduate from Seton 
             Hall University, teach English and social studies and 
             coach high school football, and serve as the first Black 
             president of the National Council of YMCAs before his 
             election to Congress in 1988 to succeed Peter W. Rodino, 
             another legendary figure in New Jersey politics and the 
             chairman of the House Judiciary Committee during 
             Watergate. Donald Payne holds the distinction of being the 
             first and only African American elected to represent New 
             Jersey in the Congress of the United States.
               Throughout his congressional career, Donald Payne 
             championed educational and economic opportunity and human 
             and civil rights, both here and abroad. From his work in 
             furtherance of the Northern Ireland peace process, to his 
             efforts to bring attention and an end to the genocide in 
             Darfur, as well as his indispensable work to secure full 
             funding for PEPFAR to combat HIV/AIDS and malaria in 
             Africa, Donald Payne made a difference, and his impact has 
             been felt around the world.
               As a former chair of the Congressional Black Caucus and 
             the Congressional Black Caucus Foundation, Donald Payne 
             mentored and provided wise counsel to many of his 
             colleagues, including me. I valued his counsel and his 
             friendship, and I will miss him very much. I extend my 
             deepest sympathies to his family and loved ones.

               Mr. LARSON of Connecticut. Madam Speaker, Donald Payne 
             was a man of few words, but his actions spoke loudly and 
             boldly for those who could not speak for themselves. He 
             dedicated his life to helping the less fortunate, and to 
             expanding and protecting human rights for all, both in the 
             United States and abroad.
               He served 12 distinguished terms in the U.S. House of 
             Representatives, and was the first African American 
             Congressman from New Jersey. He served as chairman of the 
             Congressional Black Caucus, as well as chairman of the 
             Subcommittee on Africa, Global Health, and Human Rights. 
             His work on behalf of Darfur; his involvement in the fight 
             against HIV and AIDS; and his extensive travels to places 
             like Rwanda, Somalia, and Haiti demonstrated the depth of 
             his passion for social justice, and served as an example 
             for all who seek to make the world a better place.
               On a personal level, I will never forget him traveling 
             to Connecticut for the launching of the Freedom Amistad 
             Schooner in 2000. Donald was also instrumental in 
             commemorating the 200th anniversary of the abolition of 
             the transatlantic slave trade, and ensured the success of 
             the Amistad's anniversary trip. He himself traveled to 
             Sierra Leone and back to honor the 53 slaves that were 
             held aboard that fateful ship. He followed the Amistad's 
             journey very closely, and it was through his tireless 
             efforts that the Congressional Black Caucus succeeded in 
             bringing the Amistad to Washington, DC.
               Last year I was also fortunate to host Donald and a 
             delegation from the Congressional Black Caucus in Hartford 
             to celebrate the 200th anniversary of author Harriet 
             Beecher Stowe--the woman who wrote the book that started a 
             great war. Given Donald's commitment to social justice, 
             and his respect for history, I knew it would be a 
             meaningful and symbolic occasion. His attendance meant so 
             much to me, and I was grateful for the chance to show him 
             my district.
               It was an honor to serve with Representative Payne, and 
             he will be greatly missed by all who had the pleasure of 
             knowing him.

               Mr. RUNYAN. Madam Speaker, on March 6, the State of New 
             Jersey, and more specifically Newark and its surrounding 
             communities, lost a dedicated public servant, Congressman 
             Donald Payne.
               Congressman Payne truly lived a life of service, first 
             as an educator in the Newark and Passaic Public School 
             Districts, an Essex County freeholder, a member of the 
             Newark Municipal Service, and finally, as the first 
             African American Congressman from the State of New Jersey. 
             Representative Payne's public service record was also 
             dedicated to helping people through his volunteer work. 
             His involvement with the Newark YMCA and Boy's and Girl's 
             Club, showed his passion for helping children.
               In Congress, Representative Payne played an instrumental 
             role as an advocate in the treatment of AIDS and drug-
             resistant tuberculosis. His actions in Congress were 
             always based on how he could best serve his constituents. 
             Congressman Payne served as a role model for not only his 
             district, but the entire State of New Jersey.
               His love of service was only outdone by the love he had 
             for his family, from his late wife, to his children, 
             grandchildren, and great-grandchild. Congressman Payne 
             will be missed.

               Ms. HIRONO. Madam Speaker, I take this opportunity today 
             to commemorate the remarkable life of Congressman Donald 
             Payne.
               I am deeply saddened that my friend Don is no longer 
             with us. Don was a special man who touched the lives of so 
             many. He truly saw his life's work as a way to serve 
             others and make the world a better and more just place. 
             His compassion for all will be sorely missed.
               Don was my colleague on the Education and the Workforce 
             Committee, and I saw first hand the passion he brought on 
             behalf of America's children. He was a constant advocate 
             for early education, recognizing that all children deserve 
             a solid educational foundation regardless of income or 
             circumstances. He recognized the power of education to 
             further civil rights, and he strongly supported 
             Historically Black Colleges and Native Hawaiian education. 
             More than anything, Don saw education as a tool to create 
             a more just and civil world.
               Don's compassion extended to those suffering abroad. He 
             worked tirelessly to promote democracy around the world, 
             and I was fortunate to travel with Don to Haiti as part of 
             the House Democracy Assistance Partnership, of which he 
             was a founding member. Our bipartisan team greatly 
             appreciated Don's leadership and experience, and his 
             presence helped gain the U.S. delegation the respect of 
             our Haitian colleagues.
               Don's largest overseas focus was on Africa, where he 
             traveled to dangerous conflict areas in Somalia and 
             Darfur. Don refused to stand by and watch the suffering of 
             innocent African families and children. As noted by 
             Stephen Hayes, president of the Corporate Council on 
             Africa:

               Africa mourns today for it has lost its greatest 
             advocate in America with the passing of U.S. Congressman 
             Don Payne, and such an advocate with so much experience 
             and passion will not rise again soon. So, too, did the 
             poor and downtrodden lose one of the few such Congressmen 
             who still cares about their fate and understood their 
             lives so well.

               Madam Speaker, I know that Donald Payne has left a 
             lasting impact on the world. We can all start to live up 
             to his example by living our lives with empathy and 
             compassion. While he will be sorely missed, he will never 
             be forgotten. I join with my colleagues and with all of 
             his friends and colleagues in giving thanks for 
             Congressman Donald Payne's life of service.
               My thoughts and prayers are with Don's family and 
             friends. May he rest in peace.

                                     ADJOURNMENT
               Mr. JONES. Madam Speaker, I move that the House do now 
             adjourn.
               The motion was agreed to; accordingly (at 6 o'clock and 
             48 minutes p.m.), under its previous order and pursuant to 
             House Resolution 571, the House adjourned until tomorrow, 
             Wednesday, March 7, 2012, at 10 a.m., for morning-hour 
             debate, as a further mark of respect to the memory of the 
             late Honorable Donald M. Payne.
                                               Wednesday, March 7, 2012
               Mr. McGOVERN. . . . No one can come to the House floor 
             today and speak about Sudan and protecting the people of 
             Sudan from their murderous government without paying 
             tribute to our dear colleague, Donald Payne.
               Congressman Payne passed away yesterday from cancer. He 
             would have been an original cosponsor of the bill I'm 
             introducing today. No one fought harder for human rights 
             in Sudan. He was among the very first to call attention to 
             the genocide taking place in Darfur. He traveled there, 
             often alone, with just one or two aides, to talk to 
             refugees inside Darfur and in camps along the border and 
             to stand witness to their suffering. He was tireless in 
             his commitment to the people of Africa and their well-
             being.
               We all looked to him for leadership, for advice, and for 
             help. He extended this same commitment to the people of 
             African descent in our own hemisphere. I personally know 
             how much he did to promote the rights of Afro-Colombians 
             and to protect their leaders and communities. We will miss 
             him and we will miss his leadership.
               Mr. Speaker, he believed that human rights ought to 
             matter. And he believed, as we all should believe, that if 
             the United States of America stands for anything, it ought 
             to stand out loud and foursquare for human rights.

               Ms. WOOLSEY. Mr. Speaker, today marks exactly 125 months 
             to the day that we've been at war with Afghanistan. That's 
             125 months that we have been sending brave young men and 
             women to be maimed and killed in a conflict that is not 
             advancing our values but actually degrading them.
               I've never believed more fervently that this war is a 
             national security disaster, as well as a national tragedy 
             and a moral catastrophe.
               What we need, Mr. Speaker, is a greater commitment to 
             peace and security. What we need is a more generous 
             humanitarian spirit. What we need is diplomacy and 
             international dialog, cooperation, and conflict 
             resolution. What we need is to cherish human life and 
             human dignity here in the United States and on every 
             corner of the globe.
               Yesterday, we lost one of this body's fierce champions 
             for these values, our colleague, Donald Payne. He was a 
             peacemaker, a man of conscience, an ambassador of decency 
             and compassion. He would not tolerate genocide and 
             despair. He didn't turn a blind eye to human suffering, 
             and he didn't care if it was happening in Newark or 
             Nigeria. He went to some of the most dangerous places on 
             Earth to make lives and conditions better. He was a voice 
             for the otherwise voiceless. He used his power to advocate 
             for people who were otherwise powerless.
               In the mid-1990s, I observed Representative Payne at a 
             hearing with the Bush State Department. He was arguing, he 
             was pleading with the State Department to designate the 
             Darfur genocide. He actually had tears in his eyes and 
             tears in his voice, and this is a man known for being very 
             mild mannered.
               His compelling arguments and his compassion and passion 
             actually made it possible to convince the world to condemn 
             the Sudan/Darfur Government's role in planning and 
             executing the militia's campaign to kill. His leadership 
             had an indelible impact on African nations.
               Congressman Payne shared my belief that the wars we've 
             been fighting for the last decade are dreadful mistakes. 
             He was one of those who stood with us in 2005, when the 
             war in Iraq was still popular, to say no, this is wrong, 
             we have to bring our troops home. But he also understood 
             that it wasn't just about ending war, Mr. Speaker. It was 
             about also leaving something else behind: hope, 
             opportunity, democracy, and human rights.
               He knew that the key to ending violence, terrorism, and 
             instability was to build up human capital, to fight hunger 
             and disease, to defend and advance women's rights, to 
             build strong schools, and provide decent health care 
             worldwide.
               We've lost Donald Payne. But in his honor, let's not 
             lose sight of the ideals he made his life's work. Let's 
             not lose sight of the goals he fought for so tenaciously.
               Because of Donald Payne's example, I will fight forever 
             for peace and for stability worldwide, and believe me, the 
             beginning of this effort will be to bring our troops home 
             from Afghanistan.
                                                Thursday, March 8, 2012
               Mrs. CAPPS. Mr. Speaker, I rise today in recognition of 
             the life and contributions of our colleague and friend, 
             Donald Payne.
               Don will always be remembered for his commitment to his 
             community, which he served with distinction as a local 
             elected official; to his country, evident by 23 years of 
             service in Congress in which he championed education and 
             fair labor practices; and to the global community, where 
             he was a champion for global health, especially malaria 
             prevention and treatment.
               Don was a joy to travel with. He combined gentleness 
             with strength, stood with and for the underserved and 
             underrepresented, and always spoke of his commitment. As 
             he did, he had this warmhearted smile, even his eyes 
             smiled, as he gave voice to the voiceless.
               Our thoughts and prayers are with Don Payne's family, 
             with his staff, and the people of the 10th District of New 
             Jersey, and for all of us as we keep his legacy alive.
               Don, you will be missed.

               Mrs. CHRISTENSEN. Mr. Speaker, on behalf of the National 
             Black Leadership Commission on AIDS, Inc., I submit a 
             statement of condolence on the passing of my dear 
             colleague, Donald M. Payne.
                 National Black Leadership Commission on AIDS, Inc.
                  NBLCA Mourns the Passing of Rep. Donald M. Payne
                In reaction to the death of Rep. Donald M. Payne, 
             Tuesday, March 6, 2012, C. Virginia Fields, President and 
             CEO of the National Black Leadership Commission on AIDS, 
             Inc, issued the following statement of condolence:
               The National Black Leadership Commission on AIDS, Inc. 
             (NBLCA) expresses its profound sorrow at the death of Rep. 
             Donald M. Payne. For over two decades, Rep. Payne served 
             his constituents in New Jersey's 10th Congressional 
             District and the Nation with courage and distinction. He 
             was a longtime supporter of the NBLCA and dedicated his 12 
             terms in the U.S. House of Representatives to fighting 
             social injustice and advocating for the health and well-
             being of all Americans and other fellow citizens of the 
             world. His support in the House was instrumental in the 
             full implementation of the Minority AIDS Initiative and 
             other legislation addressing disease prevention and health 
             promotion. Rep. Payne was especially passionate about 
             ending HIV/AIDS and human rights violations in Africa 
             during his distinguished service on the House Foreign 
             Affairs Committee where he chaired the Subcommittee on 
             Africa.
               Mr. Payne will be sorely missed by all who had the 
             pleasure and honor to work alongside him in the fight 
             against HIV/AIDS and health disparities based on race and 
             ethnicity. On behalf of the NBLCA's Board of Directors and 
             staff, I convey heartfelt condolences to Rep. Payne's 
             family, constituents, and colleagues in the 112th Congress 
             of the United States. In Mr. Payne's memory, we rededicate 
             ourselves to enhancing our advocacy to protect the health, 
             human rights, and civil liberties of all Americans. May 
             God grant him peace.
                                                 Friday, March 16, 2012
               Mr. BERMAN. Mr. Speaker, I am submitting the attached 
             statement by World Food Program USA regarding the passing 
             of our good friend and colleague, Congressman Payne.
              Statement from Rick Leach, President and CEO, World Food 
                                     Program USA
               The entire staff and board of directors of World Food 
             Program USA mourn the passing of Representative Donald 
             Payne of New Jersey. Representative Payne was a tireless 
             champion on behalf of the world's poorest, hungriest 
             people, and his presence and efforts within the U.S. 
             Congress will be missed.
               As chairman of the House Subcommittee on Africa, 
             Representative Payne played a key role in pushing forward 
             U.S. policies to respond to the protracted crisis in the 
             Darfur region of Sudan, as well as across the African 
             continent. He was one of five Members of Congress to 
             accompany President Clinton and Hillary Rodham Clinton on 
             a tour of six African nations, and he headed a 
             Presidential mission aimed at finding solutions to the 
             political and humanitarian crisis in Rwanda. Due to his 
             record of outstanding service, Representative Payne was 
             chosen by President George W. Bush to serve for two terms 
             as a congressional delegate to the United Nations from 
             2003 to 2007.
               Representative Payne traveled many times to countries in 
             the worst throes of humanitarian crises, lending his voice 
             and wielding his influence to help those people most in 
             need. His many years of steadfast support, dedication, and 
             hard work have improved the lives of millions of people in 
             Africa, the United States, and across the globe. He will 
             be remembered for all that he has contributed to the 
             rights, well-being, dignity, and spirit of people across 
             the world. He was a true humanitarian hero.
                                                 Monday, April 16, 2012
             APPOINTMENT OF MEMBERS TO THE COMMITTEE TO ATTEND FUNERAL 
                        OF THE LATE HONORABLE DONALD M. PAYNE
               The SPEAKER pro tempore (Mr. Hurt). Pursuant to House 
             Resolution 571, and the order of the House of March 6, 
             2012, the Speaker on March 14, 2012, appointed the 
             following Members of the House to the committee to attend 
             the funeral of the late Honorable Donald M. Payne:
               The gentleman from New Jersey, Mr. Smith
               The gentleman from South Carolina, Mr. Clyburn
               The members of the New Jersey delegation:
               Mr. Pallone
               Mr. Andrews
               Mr. Frelinghuysen
               Mr. LoBiondo
               Mr. Pascrell
               Mr. Rothman
               Mr. Holt
               Mr. Garrett
               Mr. Sires
               Mr. Lance
               Mr. Runyan
               Other Members in attendance:
               Ms. Kaptur
               Mr. Levin
               Mr. Towns
               Ms. Waters
               Ms. Brown (FL)
               Mr. Rush
               Mr. Scott (VA)
               Mr. Watt
               Ms. Woolsey
               Ms. Jackson Lee (TX)
               Mr. Jackson (IL)
               Mr. Clay
               Mr. Butterfield
               Mr. Cleaver
               Mr. Al Green (TX)
               Ms. Moore
               Ms. Clarke (NY)
               Mr. Johnson (GA)
               Ms. Edwards
               Ms. Fudge
               Ms. Bass (CA)
               Ms. Sewell
               Ms. Norton
               Mrs. Christensen
                                                Tuesday, April 17, 2012
               Mr. KUCINICH. Mr. Speaker, I rise today in honor of the 
             late Honorable Donald M. Payne, so that we may commemorate 
             his extraordinary life of dedication and commitment to 
             service.
               Born in 1934 in Newark, NJ, he graduated from Seton Hall 
             University and pursued postgraduate studies at Springfield 
             College. A former English and social studies teacher, he 
             also coached football at Malcolm X Shabazz High School, 
             which was then called South Side High School. He was vice 
             president of Urban Data Systems Inc., as well as an 
             executive at Prudential Financial. In 1970, he became the 
             first African American president of the National Council 
             of YMCAs.
               Representative Payne entered public life in 1972 when he 
             was elected to the Essex County Board of Chosen 
             Freeholders. Ten years later he was elected to the Newark 
             Municipal Council where he served three terms. In 1988, 
             Donald became the Representative of New Jersey's 10th 
             Congressional District, and the first African American to 
             represent New Jersey in Congress. As chair of the 
             Congressional Black Caucus, he was a relentless defender 
             and supporter of education-related issues. He was an 
             inspiration and a friend.
               He was preceded in death by his wife, Hazel Johnson, and 
             is succeeded by son Donald Jr., daughters Wanda and 
             Nicole, four grandchildren and one great-grandchild.
               Mr. Speaker and colleagues, please join me in sending 
             our condolences to the family and friends of Donald M. 
             Payne who so faithfully cared for and served his 
             community.
                 

                              Proceedings in the Senate
                                                 Tuesday, March 6, 2012
               Mr. LAUTENBERG. Mr. President, I rise to pay tribute to 
             a longtime friend from New Jersey. It is a sad day for all 
             of us from New Jersey who knew Congressman Donald Payne 
             from North New Jersey, and I pay tribute to my colleague 
             who died this morning after a battle with colon cancer.
               Congressman Payne was the first African American from 
             New Jersey to be elected to Congress. He was a trailblazer 
             and a fine leader, one of the finest our State has ever 
             known. For more than two decades, Congressman Payne served 
             New Jersey with distinction, but the whole world benefited 
             from his leadership. He was a proud son of Newark and 
             became an expert on foreign relations and led efforts to 
             restore democracy and human rights around the world, 
             including places as far away from one another as Northern 
             Ireland and Sudan. President Clinton chose Congressman 
             Payne to accompany him on his historic tour of Africa in 
             1998.
               The Congressman also worked hard. He secured more than 
             $100 million to treat victims of malaria, tuberculosis, 
             HIV, and AIDS, and stopped the spread of these diseases in 
             Africa's poorest nations.
               Three years ago, against the State Department's advice, 
             Congressman Payne went to Somalia to see the turmoil there 
             for himself, narrowly escaping with his life when 
             insurgents launched a mortar attack near his airplane when 
             he was leaving.
               The Congressman also helped with passage of a resolution 
             declaring the killings in Darfur as genocide and raising 
             global awareness of these travesties.
               At home Congressman Payne was a tireless advocate for 
             his constituents. He brought significant economic 
             development to counties in New Jersey, including Essex, 
             Hudson, and Union. He was a former schoolteacher and was a 
             leader on education. He worked hard to close the 
             achievement gap, with making college more affordable and 
             bringing more equity to school funding. Congressman Donald 
             Payne was a man of conscience and conviction.
               I knew him for many years, and I was always struck by 
             his soft-spoken demeanor, and that kind of made him a 
             rarity in politics. Congressman Payne knew he didn't need 
             to raise his voice; his ideas were powerful enough. The 
             Congressman put it best when he said: ``There is a lot of 
             dignity in being able to achieve things without having to 
             create rapture.''
               As I mentioned, Donald Payne was a teacher in the Newark 
             public schools, and Newark was a poverty-stricken city. 
             His mission was to inspire young people to use education 
             in their lives to achieve opportunity. The people of New 
             Jersey sent him to Washington for the first time in 1988, 
             and they continued sending him back by overwhelming 
             margins for the next 22 years. He became an inspiration to 
             many, including members of his family who followed him 
             into careers in public service.
               Most of all, Donald Payne was an inspiration to the 
             people he served. He gave them hope. He gave them some 
             ideas of what they could make of their lives. His voice 
             sounded important and deliberate enough to convince people 
             to try harder, and he did succeed many times.
               In 1988, during his first campaign for the House, 
             Congressman Payne told a reporter: ``I want to be a role 
             model for the kids I talk to on the street corners.'' He 
             used to see a lot of them. He worked hard within his 
             congressional district. He said: ``I want to see there are 
             no barriers to achievement.''
               Donald Payne achieved this goal. An entire generation of 
             New Jerseyans has come of age knowing and respecting 
             Congressman Donald Payne. He has undoubtedly inspired many 
             young New Jerseyans to enter public service, and I expect 
             we will one day see some of them walking the Halls of 
             Congress and following in Donald Payne's footsteps, but 
             today these Halls feel emptier without his presence.
               I am going to miss Don Payne. We will mourn his absence 
             from our lives, but we will also take comfort in the 
             knowledge that his legacy will endure for a long time to 
             come, way beyond his life. We thank him at this time for 
             all of the good he did and that he brought to our people 
             and our State.
               With that, Mr. President, I yield the floor.

               Mr. MENENDEZ. Madam President, I rise to mourn the 
             passing of a great man, a great leader, a proud New 
             Jerseyan, and my friend, Congressman Donald Payne. I am 
             saddened beyond words by his death. Personally, I have 
             lost a close friend and the people of New Jersey have lost 
             a tireless voice, a true advocate who spent a lifetime 
             fighting for fairness, for justice, and for the little 
             guy.
               Wherever there was injustice, intolerance, or suffering, 
             wherever someone was downtrodden by the more powerful and 
             didn't have a fair chance, Donald Payne was there 
             intervening. From his earliest days in Congress, he 
             focused on New Jersey, but his influence was profoundly 
             felt around the world. As a senior member of the House 
             Committee on Foreign Affairs and the ranking member of the 
             Subcommittee on Africa, Global Health, and Human Rights, 
             Donald Payne followed his passion to restore democracy and 
             human rights in places where the suffering was greatest.
               If we asked him what his greatest accomplishment was--
             and there were many--he would tell us it was working on 
             global health issues, cofounding the Malaria Caucus that 
             he launched with First Lady Laura Bush, securing $50 
             million to fight drug-resistant tuberculosis, and $50 
             billion for HIV/AIDS, tuberculosis, and malaria that 
             literally--and I have heard these stories--literally saved 
             whole villages in Sub-Saharan Africa, because that is the 
             kind of man he was.
               He built a reputation as chairman of the Africa, Global 
             Health, and Human Rights Subcommittee for his integrated 
             approach to Africa, combining health, development, 
             economic growth, and improvements for a better quality of 
             life. He once said:

               Malaria, tuberculosis, and HIV/AIDS are diseases that 
             are caused, as well, by poverty, and until we really start 
             dealing with poverty elimination, we are going to continue 
             to have these diseases that follow poverty. We cannot be 
             serious about development [assistance or engagement] 
             without effectively dealing with these three major 
             diseases.

               He did everything he could to live up to those words.
               He could not ignore the fact, as he pointed out, that:

                . . . more than 29 million people in Sub-Saharan Africa 
             live with HIV/AIDS . . . that malaria and HIV together 
             kill more than 4 million people each year . . . that 90 
             percent of them are in Africa . . . that, for millions 
             around the world--particularly in Sub-Saharan Africa, 
             where the global malaria burden is heaviest--the disease 
             is a daily reality, an enduring epidemic that kills 
             millions and impedes the progress of entire nations. . . .

               He believed in putting an end to the scourge of these 
             diseases and helped broaden our focus in dealing with 
             poverty, disease, and development as a single issue and 
             always said, ``These are global problems that warrant a 
             global collaborative approach. . . .''
               On World Malaria Day in 2010 he said, ``This is not an 
             endeavor for which we lack the knowledge, skills, or 
             resources to win. . . .''
               Donald Payne was determined to win.
               When he put his mind to it, he could do anything. He 
             believed he could change the world one village at a time, 
             and he did because that is the kind of man he was.
               I served with Donald Payne in the House. I got to know 
             him. I grew to respect his deep and passionate commitment 
             to the institution and the people he served, his belief in 
             the process as it was intended by our Founders, to bring 
             all of us together, no matter what our politics or 
             persuasion, to make a difference for his district, for New 
             Jersey, for the Nation, and for people around the world.
               Donald considered himself hugely lucky to serve. He saw 
             it as an honor and he made a difference because that too 
             is the kind of man he was. Donald Payne was a 
             Congressman's Congressman. To me he was what public 
             service is all about. He embodied the concept of Congress, 
             the assembly of a few good people committed to the 
             betterment of all of us.
               In his passion for these issues, he worked in common 
             cause to bring together people who were often from totally 
             different ends of the political spectrum. Many of us would 
             refer to him as ``the great convener'' because he had the 
             unique ability to bring together people of disparate 
             beliefs on behalf of these issues he believed in and felt 
             so passionately about.
               Don's career and accomplishments were exemplary. Before 
             he was elected to Congress, he was an educator in the 
             Newark and Passaic Public School Districts. He was the 
             former national president of the YMCA. He became New 
             Jersey's first African American Congressman, winning 
             election overwhelmingly in 1988, and was serving, at the 
             time of his death, his 12th consecutive term--this year. 
             He was a senior member of the House Committee on Education 
             and the Workforce, and he was a steadfast vocal advocate 
             for early childhood education. He was instrumental in 
             making K-12 education more successful and for making 
             college more affordable. He worked to cut in half the cost 
             of the Stafford loans and increased the Pell grants. He 
             was a tireless champion of working families, always an 
             advocate of increasing the minimum wage, always enforcing 
             workforce protections, because that is the kind of man 
             Donald Payne was. Through his life and service, he was a 
             man of the people, and the people of New Jersey will never 
             forget what he did for Essex, Hudson, and Union Counties 
             or for the State as a whole.
               In the end Congressman Payne will be remembered for the 
             dignity and honor he brought to this institution and the 
             Congress and the district he represented, always putting 
             the interests of the community, New Jersey, and humanity 
             first, because that is the kind of man he was. Donald made 
             New Jersey proud, and he will forever be missed by all of 
             us who were touched by his warmth and compassion. I join 
             my colleagues in mourning the passing of a great man.
               I visited Congressman Payne on Saturday at the hospital 
             and talked to his brother, who said leaders throughout the 
             world had been calling to inquire as to how he was. 
             Leaders throughout the world mourn his passing. They knew 
             how he touched the lives of their citizens.
               Our thoughts and prayers go out to Donald's beloved 
             children and his entire family and all of those who were 
             touched by him throughout his life. He will be missed and 
             we certainly hope God will bless this great man who gave 
             back much more than he ever received in life.
               I yield the floor and suggest the absence of a quorum.
                                               Wednesday, March 7, 2012
               Mr. REID. Mr. President, I ask unanimous consent that 
             the Senate proceed to S. Res. 390.

               The PRESIDING OFFICER. The clerk will report the 
             resolution by title.
               The assistant legislative clerk read as follows:

               A resolution (S. Res. 390) honoring the life and legacy 
             of the Honorable Donald M. Payne.

               There being no objection, the Senate proceeded to 
             consider the resolution.

               Mr. REID. I ask unanimous consent that the resolution be 
             agreed to, the preamble be agreed to, the motions to 
             reconsider be laid upon the table, with no intervening 
             action or debate, and any statements related to the 
             resolution be printed in the Record.

               The PRESIDING OFFICER. Without objection, it is so 
             ordered.
               The resolution (S. Res. 390) was agreed to.
               The preamble was agreed to.
               The resolution, with its preamble, reads as follows:
                                     S. Res. 390
                Whereas the Honorable Donald M. Payne was born in 
             Newark, New Jersey on July 16, 1934, graduated from 
             Barringer High School in Newark and Seton Hall University 
             in South Orange, New Jersey, and pursued graduate studies 
             at Springfield College in Massachusetts;
               Whereas the Honorable Donald M. Payne was an educator in 
             the Newark and Passaic, New Jersey public schools and was 
             an executive at Prudential Financial and at Urban Data 
             Systems Inc;
               Whereas the Honorable Donald M. Payne became the first 
             African American national president of the YMCA in 1970 
             and served as Chairman of the World Refugee and 
             Rehabilitation Committee of the YMCA from 1973 to 1981;
               Whereas the Honorable Donald M. Payne served 3 terms on 
             the Essex County Board of Chosen Freeholders and 3 terms 
             on the Newark Municipal Council;
               Whereas, in 1988, the Honorable Donald M. Payne became 
             the first African American elected to the United States 
             House of Representatives from the State of New Jersey;
               Whereas the people of New Jersey overwhelmingly 
             reelected the Honorable Donald M. Payne 11 times, most 
             recently in 2010, when the Honorable Donald M. Payne was 
             elected to represent the Tenth Congressional District of 
             New Jersey for a 12th term;
               Whereas the Honorable Donald M. Payne was a tireless 
             advocate for his constituents, bringing significant 
             economic development to Essex, Hudson, and Union Counties 
             in New Jersey;
               Whereas, as a senior member of the Committee on 
             Education and the Workforce of the House of 
             Representatives, the Honorable Donald M. Payne was a 
             leading advocate for public schools, college 
             affordability, and workplace protections;
               Whereas, as a senior member of the Committee on Foreign 
             Affairs of the House of Representatives, the Chairman and 
             Ranking Member of the Subcommittee on Africa, Global 
             Health, and Human Rights, and a member of the Subcommittee 
             on the Western Hemisphere, the Honorable Donald M. Payne 
             led efforts to restore democracy and human rights around 
             the world, including in Northern Ireland and Sudan;
               Whereas the Honorable Donald M. Payne was a leader in 
             the field of global health, co-founding the Malaria 
             Caucus, and helping to secure passage of a bill 
             authorizing $50,000,000 for the prevention and treatment 
             of HIV/AIDS, tuberculosis, and malaria;
               Whereas the Honorable Donald M. Payne served as Chairman 
             of the Congressional Black Caucus Foundation and 
             previously as Chairman of the Congressional Black Caucus;
               Whereas, in March 2012, the United States Agency for 
             International Development launched the Donald M. Payne 
             Fellowship Program to attract outstanding young people to 
             careers in international development;
               Whereas the Honorable Donald M. Payne served on the 
             boards of directors of the National Endowment for 
             Democracy, TransAfrica, the Discovery Channel Global 
             Education Partnership, the Congressional Award Foundation, 
             the Boys and Girls Clubs of Newark, the Newark Day Center, 
             and the Newark YMCA;
               Whereas the Honorable Donald M. Payne was the recipient 
             of numerous honors and awards, including honorary 
             doctorates from multiple universities;
               Whereas the Honorable Donald M. Payne passed away on 
             March 6, 2012, and is survived by 3 children, 4 
             grandchildren, and 1 great-grandchild; and
               Whereas the Honorable Donald M. Payne's long history of 
             service will have an enduring impact on people in New 
             Jersey, across the United States, and around the world: 
             Now, therefore, be it
               Resolved, That the Senate--
               (1) expresses profound sorrow at the death of the 
             Honorable Donald M. Payne, United States Representative 
             for the Tenth Congressional District of New Jersey;
               (2) conveys the condolences of the Senate to the family 
             of the Honorable Donald M. Payne; and
               (3) respectfully requests that the Secretary of the 
             Senate transmit a copy of this resolution to the House of 
             Representatives and the family of the Honorable Donald M. 
             Payne.
                                           
             [GRAPHIC] [TIFF OMITTED] T3300.002
             


                          .epsThe Honorable Donald M. Payne
             [GRAPHIC] [TIFF OMITTED] T3300.003
             

                           .epsJuly 16, 1934-March 6, 2012
                 
               [GRAPHIC] [TIFF OMITTED] T3300.005
               


                               .epsCelebration of Life

                             Congressman Donald M. Payne
             10th District of New Jersey

Metropolitan Baptist Church, Newark, New Jersey

March 14, 2012




                     ...........................................................................................
                     Tributes

                     Hon. Chris Christie
                     New Jersey Governor

                     Hon. Eric H. Holder, Jr. (Letter from President Barack Obama)
                     Attorney General of the United States                     Hon. James E. Clyburn (SC-06) (Letter from Hon. Nancy Pelosi, Democratic Leader)
                     Assistant Democratic Leader, U.S. House of Representatives                     Hon. William V.S. Bull, Sr.
                     Ambassador, Embassy of the Republic of Liberia                     Hon. William Jefferson Clinton
                     42nd President of the United States                     Hon. Raymond L. LaHood
                     Secretary, U.S. Department of Transportation                     Hon. Lisa P. Jackson
                     Administrator, U.S. Environmental Protection Agency                     Hon. Frank R. Lautenberg
                     Member, U.S. Senate                     Hon. Emanuel Cleaver, II (MO-05)
                     Chairman, Congressional Black Caucus                     Hon. Philip Thigpen
                     Chairman, Essex County Democratic Committee                     Hon. Sheila Y. Oliver
                     Speaker, New Jersey General Assembly                     Hon. John Lewis (GA-05)
                     Member, U.S. House of Representatives                     Hon. Sheila Jackson Lee (TX-18)
                     Board Member, Congressional Black Caucus Foundation, Inc.                     Hon. Cory Booker
                     Mayor, City of Newark                     Hon. Joseph N. DiVincenzo, Jr.
                     Essex County Executive                     Frank Khiene
                     YMCA                     Musical Interlude                     Lee Fisher
                     Chairman, South Ward Democratic Committee                     Marcellus King
                     Former Student                     Betty Neals
                     Junior Leaguers, Alumnus                     Ted Dagne
                     Senior Advisor, President of South Sudan                     Rev. Al Sharpton
                     National Action Network                     Hon. Robert L. Bowser
                     Mayor, City of East Orange
                     President, National Conference of Black Mayors                     Pastor Keith D. Wright
                     He Is Sovereign Ministries                     Honorable Sybil Elias
                     Chief Judge, Orange Municipal Court                     Musical Interlude                     William J. Ewing
                     Seton Hall Classmate                     Lawrence Hamm
                     Chairman, People's Organization for Progress                     Rev. Jesse Jackson
                     Rainbow Push Coalition                     Family Reflections                      William D. Payne, Brother
                      Wanda M. Payne, Daughter
                      Shakir Johnson, Grandson
                      Donald M. Payne, Jr., Son
                      Nicole Y. Payne, Daughter
                      Kathryn Stanley James, Sister
                      Craig A. Stanley, Nephew
                      Jack Payne, Grandson
               

             [GRAPHIC] [TIFF OMITTED] T3300.004
             
             .eps  
             [GRAPHIC] [TIFF OMITTED] T3300.006
             

             .epsCongressman Donald M. Payne

             World statesman, devoted father, servant to all people, 
             Donald Milford Payne was born to William Evander and Norma 
             Garrett Payne on July 16, 1934. He and his older siblings, 
             Kathryn and William, were raised in a loving environment 
             in a working-class area of all ethnicities that surely 
             fostered the Congressman's ability to embrace the concerns 
             of others in the many roads on which his life's journey 
             took him. Beloved by his family, colleagues, staff, 
             constituents, and people throughout the world, Congressman 
             Payne leaves a magnificent legacy of service for all to 
             emulate.

             A graduate of Newark's public schools and Seton Hall 
             University (1957), Congressman Payne taught at South Side 
             High School, encouraging youngsters to strive to reach 
             their full potential. During his tenure as a manager at 
             Prudential Insurance Company, he volunteered with the 
             Leaguers and the Young Men's Christian Association (YMCA) 
             where he established several significant national 
             programs. In 1970, he became the first African American 
             national president of the YMCA. Subsequently elected 
             chairman of the YMCA World Refugee and Rehabilitation 
             Committee, he visited more than eighty countries learning 
             about international problems in unknowing preparation to 
             later become a spokesperson for those indigenous 
             populations.

             Congressman Payne's political sphere of influence stems 
             from his work as a district leader for the Democratic 
             Party, evolving to elected positions on the Newark City 
             Council, Essex County Freeholders, and culminating in his 
             landslide victory to the United States House of 
             Representatives for New Jersey's 10th District in 1988, 
             completing twelve terms. He was the first and only Black 
             Congressman elected from New Jersey. Nonetheless, 
             Congressman Payne held the mantle of representative for 
             all; the people's Congressman. He never wavered from his 
             campaign platform of advocacy for youth and the 
             underserved. He chaired the Congressional Black Caucus 
             (CBC) and was chairman of the Congressional Black Caucus 
             Foundation, Inc. at the time of his passing. As the gentle 
             warrior, he held firmly to his principles. He offered 
             legislation that affected education, global health, labor, 
             public policy and international diplomacy.
             Appointed by President George W. Bush as Congressional 
             delegate to the United Nations for two terms, Congressman 
             Payne's wisdom and counsel on international affairs was 
             highly respected by national leaders. He was deeply 
             admired and loved by people all over the world, 
             particularly the people of Africa, Ireland and the 
             Caribbean. As ranking member of the Subcommittee on 
             Africa, Global Health, and Human Rights of the House 
             Foreign Affairs Committee, he authored legislation that 
             declared genocide in Darfur, Sudan, addressed famine 
             relief, secured $50 million for tuberculosis issues, and 
             $50 billion for HIV/AIDS, tuberculosis and malaria in sub-
             Saharan Africa. He was also a major contributor to the 
             work of the Committee on Education and the Workforce.

             Just a few weeks ago, the U.S. Agency for International 
             Development established a fellowship designed to attract 
             outstanding young people to careers in international 
             development. The fellowship will be named in honor of 
             Congressman Payne.

             Congressman Payne was a life-long member of Bethlehem 
             Baptist Church in Newark, New Jersey where Reverend Toney 
             E. Jackson is the senior pastor. Congressman Payne was a 
             true family man, raising his children as a widower upon 
             the death of his wife Hazel Johnson in 1963. He always 
             involved his children in his community activism. Donald 
             Jr., Wanda and Nicole have all embraced their father's 
             love of service to others, extending the road that their 
             father paved. If the next generations of Paynes--Jack, 
             Yvonne, Donald II, Shakir and Samir--can walk that often 
             difficult path as well, with all whom Congressman Payne 
             touched, the world will surely be a better place for the 
             gift of his remarkable life.
             The Order of Service

             Celebration of the Life of Donald M. Payne,

             Member of Congress
                     Rev. Dr. David Jefferson, Sr.                Pastor Toney E. Jackson
                    Metropolitan Baptist Church                  Bethlehem Baptist Church
                    Newark, NJ                                   Newark, NJ
                    Officiating                                  Congressman Payne's home church                    Organ Prelude                                ...............................................                    Processional                                 ...............................................                    Invocation                                   Rev. David Jefferson, Jr.
                                                                 Metropolitan Baptist Church
                                                                 Newark, NJ                    Musical Solo                                 The Lord's Prayer by
                                                                 Trustee Chama White
                                                                 Bethlehem Baptist Church
                                                                 Newark, NJ                    Old Testament                                Rev. Ron Christian
                                                                 Christian Love Baptist Church
                                                                 Irvington, NJ                    New Testament                                Jack Payne
                                                                 Grandson                    Prayer of Comfort                            Rev. Dana Owen
                                                                 Messiah Baptist Church
                                                                 East Orange, NJ                    Ministry of Music                            Combined Choirs, Bethlehem Baptist Church and
                                                                  Metropolitan Baptist Church
                                                                 Newark, NJ                    Tributes                                     ...............................................                    Ministry of Music                            Combined Choirs, Bethlehem Baptist Church and
                                                                  Metropolitan Baptist Church
                                                                 Newark, NJ                    Tributes                                     ...............................................                    Ministry of Music                            Combined Choirs, Bethlehem Baptist Church and
                                                                  Metropolitan Baptist Church
                                                                 Newark, NJ                    Family Reflections                            William D. Payne, Brother
                                                                  Wanda M. Payne, Daughter
                                                                  Shakir Johnson, Grandson
                                                                  Donald M. Payne, Jr., Son
                                                                  Nicole Y. Payne, Daughter
                                                                  Kathryn Stanley James, Sister
                                                                  Craig A. Stanley, Nephew                    His Life Story                               Fran Bradman, Bethlehem Baptist Church
                                                                 Newark, NJ                    Eulogy                                       Pastor Toney E. Jackson
                                                                 Bethlehem Baptist Church
                                                                 Newark, NJ                    Recessional                                  ...............................................
                                                                 [GRAPHIC] [TIFF OMITTED] T3300.001
                                                                 
                 .epsU.S. Capitol flag flown half staff in honor of 
                             Congressman Donald M. Payne

             [GRAPHIC] [TIFF OMITTED] T3300.007
             

              .epsThe celebration will conclude at gravesite with full 
                                   military honors
                          Glendale Cemetery, Bloomfield, NJ

                                  Acknowledgements
                The Family wishes to acknowledge the many expressions
                 of sympathy and condolences they have received. The
                    outpouring of support has been overwhelming.
                We ask that you continue to keep us in your prayers.
                       May God's continuous blessing be yours.
             Governor Chris Christie.

               I want to be a Congressman to serve as a role model for 
             the young people I talk to on the Newark street corners. I 
             want them to see there are no barriers to achievement. I 
             want to give them a reason to try.

               I looked at a lot of things that Congressman Payne has 
             said over the last 48 hours preparing to come here today, 
             and I'm sure you'll hear a lot of them after me. I don't 
             think anything that I read that he said symbolized who he 
             was better than that statement.

               I want to serve as a role model for the young people I 
             talk to on the Newark street corners. I want them to see 
             there's no barrier to achievement. I want to give them a 
             reason to try.

               He did. He did. He did in every day of his life in every 
             way that he served. He did when he was thundering for 
             justice on the floor of the House of Representatives. He 
             did in his quiet moments with his family and friends. He 
             did as he called out the injustices he saw in the world in 
             both major speeches and quiet moments. He did when he 
             stood up for what he believed was right every day and was 
             willing to spend his entire life trying to make the dreams 
             of others a reality.
               Now, whether it was advocating for education, let's 
             remember he was a teacher. He started as a teacher and he 
             would tell you he never stopped. He never stopped being a 
             teacher no matter what other places God called him to 
             serve. I believe he saw his role as a teacher as the 
             formative experience of his life, and when he went to 
             Congress he fought. He fought hard for education for every 
             child in America, no matter their zip code, no matter 
             their economic standing, no matter how others saw their 
             potential, he knew that if given a chance, their potential 
             could be realized. And whether it was justice here at 
             home, which was so obvious to him, he pointed out what was 
             not so obvious to us around the world. Whether it was in 
             Africa, or in Ireland, whether it was people enjoying 
             liberty and freedom everywhere, the liberty and freedom he 
             fought for, or whether it was protecting people from the 
             scourge of disease, he understood that justice took all 
             forms, not just the justice that comes from a system of 
             government that allows people to live their lives freely, 
             but the justice that comes from people having equal access 
             to the medicines that will keep them alive. He fought for 
             those things too, and he fought for those things whether 
             you were a member of his party or a member of the opposite 
             party.
               From this I speak from personal experience. For 7 years 
             we were neighbors. Lots of people don't know that, but you 
             know his district office was in the Martin Luther King, 
             Jr. Courthouse and I was next door in the building named 
             for his predecessor as the U.S. Attorney. When my staff 
             would allow me to wander into the courthouse, I would 
             often see Congressman Payne, and the thing that struck me 
             the most about him was his gentle power.
               There are many people who use power in many different 
             ways, and their personalities come across and project in 
             different ways [Laughter].
               Congressman Payne and I complemented each other 
             [Laughter and applause].
               It was the gentleness of his soul that came through to 
             me each and every time we spoke, whether it was about an 
             important issue that he was concerned about and wanted to 
             speak to me, or whether it was just talking about our 
             families, and how our lives were going, and how we thought 
             we could do more good for the people who gave us an 
             opportunity to serve.
               He was a role model, not just for those kids on the 
             street corners of Newark that he talked about, but he was 
             a role model for all of us, to understand that the 
             opportunity to serve is not just an opportunity. It's a 
             responsibility. It's a responsibility to use that 
             opportunity to do good and great things. He spent a life 
             doing good and great things, and he did it in a way that 
             was gentle but powerful. All of you who sit here this 
             morning who knew him, who admired him, who loved him, know 
             that that combination is one that's rare in any human 
             being but particularly rare in human beings in public 
             life.
               So as we celebrate his life today, and as we say 
             goodbye, we thank him for his gentle grace. We thank him 
             for his firm sense of what is right and wrong, we thank 
             him for standing up for those who have trouble standing up 
             for themselves and on behalf of the people of the State 
             that he served his entire life, I thank his family for 
             giving him to our State, selflessly, giving him to our 
             State to make our State a better place, to make us a 
             better people. He did that for New Jersey. He did that for 
             America. And he was a shining example for citizens all 
             over the world of what is truly great about this country, 
             that anyone who is willing to work hard enough and 
             believes strongly enough in the things they hold inside, 
             can change the world. Donald Payne changed the world 
             [Applause].

             Attorney General Eric H. Holder, Jr. Thank you, Reverend 
             Jefferson. It is an honor to join with you, Governor 
             Christie, President Clinton, and leaders from across and 
             beyond this State--and with so many of Congressman Payne's 
             family members, friends, colleagues, and constituents--as 
             we pay tribute to the remarkable life, and the enduring 
             legacy, of a dedicated public servant, a determined 
             advocate, a dear friend, and a beloved father, 
             grandfather, and great-grandfather.
               I want to thank the Payne family for allowing me to 
             share in this occasion. I also would like to recognize 
             Congressman Payne's extended family--the people of New 
             Jersey's 10th Congressional District. Without question, 
             representing you in Washington was the highlight and 
             highest honor of his career. So it's especially moving to 
             see such an outpouring of affection and appreciation from 
             so many neighbors, friends, and fellow New Jerseyans whose 
             lives have been touched, and enriched, by the exceptional 
             leader we've gathered to remember.
               Although we have come together in a time of loss, it is 
             clear that we are bound by more than grief. We are united 
             by our gratitude--for Congressman Payne's enduring 
             contributions, his many sacrifices, and his inspiring 
             achievements. And--as he would be the first to remind us--
             we are also joined by a shared responsibility--to carry on 
             his critical work, to carry forward his vision of a 
             stronger Nation and a better world, and to live up to the 
             example of service that he left to us.
               Throughout his life, Donald Payne was a champion for the 
             most vulnerable among us--a trailblazer who, even as he 
             rose to unprecedented heights, never forgot to reach back 
             and help to lift up those in need. As the first African 
             American to represent New Jersey in the U.S. Congress, he 
             brought the perspective of a public school teacher to the 
             halls of power in our Nation's Capital. He proved to be 
             both a statesman and gentleman. In a city where progress 
             can too often be stalled by bureaucracy and big egos, he 
             showed how compassion, courage, and willingness to find 
             common ground can drive positive change.
               At every turn, just as surely as he was a strong 
             advocate for his constituents--and, in particular, for 
             young people, the elderly, and those across, and far 
             beyond, this country who could not speak out or stand up 
             for themselves--so, too, was he a determined enemy: of 
             poverty; of violence and cruelty toward children; of 
             obstacles to prosperity; of war; and of human rights 
             abuses around the world.
               In addition--for President Obama, for me, and for so 
             many other beneficiaries of his work--Congressman Payne 
             was a treasured friend, advisor, and role model. We have 
             stood on his shoulders--and been privileged to walk 
             through the doorways of opportunity that he pried open. He 
             helped make real the possibility of our Nation's first 
             African American President--and first African American 
             Attorney General.
               Over the course of his 12 terms in Congress, he rose to 
             become a powerful Member of the U.S. House of 
             Representatives, chair of the Congressional Black Caucus 
             and a congressional delegate to the United Nations. He 
             fought tirelessly for the middle class, for quality 
             education, for peace in war-torn Africa, and for the human 
             dignity of millions around the world.
               In a business where taking credit is nothing less than 
             an art form, Congressman Payne was always the last to seek 
             recognition. He focused, not on the spotlight, but on 
             solving problems and serving others. His legacy lies in 
             the summer jobs programs that have done so much to keep 
             America's young people in school and out of the criminal 
             justice system; in the diplomatic and humanitarian 
             attention that the world has focused on Africa; in the aid 
             that has saved and improved countless lives; and in the 
             stories of so many individual New Jerseyans, who, for 24 
             years, were fortunate to have one of the best and 
             strongest voices in Washington speaking out on their 
             behalf.
               Yet, were he here today, I know that Congressman Payne 
             would seize this opportunity to point out that, for all 
             the progress that we've seen as a Nation, and all the 
             achievements that he, personally, helped to bring about, 
             much more remains to be done. In far too many 
             neighborhoods here in Newark and across this country, 
             there are kids who will not find their way to college, and 
             who will find the doors of opportunity to be closed. In 
             countries like Sudan and Somalia, there are ordinary 
             citizens who cry out for an end to suffering, to violence, 
             and to poverty, but still find the community of nations 
             slow to respond.
               Today, we can be justifiably proud of the progress that 
             Congressman Payne dedicated his life to making, both here 
             and around the world. But, as we take him to his rest this 
             morning, it is also time to recommit ourselves to the 
             spirit of compassion that defined him, and the call to 
             service that shaped his career, a call that his brother 
             and his son have already taken up, each in his own way.
               Let these efforts be our common cause. Let our work be 
             Donald Payne's living monument. And let his unwavering 
             faith, in our Nation, in the citizens of New Jersey, and 
             in the power of public service, continue to guide our 
             steps forward.
               Once again, thank you for the chance to share in this 
             moment, and for the opportunity to join you in bidding 
             farewell to an extraordinary leader and mentor, and a good 
             friend.
               It is now my privilege to read a letter of condolence to 
             the Payne family.
                                                      March 12, 2012
             The Family of Donald Payne
               Dear Payne Family:
               Michelle and I were deeply saddened by the passing of 
             Congressman Donald Payne, and we extend our heartfelt 
             condolences at this difficult time.
               Don will be remembered for his trailblazing career, his 
             passion for lifting up America's working families, and his 
             abiding commitment to restoring human rights and democracy 
             across Africa. I know he will be dearly missed, and I pray 
             both time and fond memories will temper the grief you must 
             feel.
               Please know that you and your loved ones will remain in 
             my thoughts and prayers.
                 Sincerely,
                                                  Barack Obama,
                          President of the United States of America.

             President Bill Clinton. As I see the struggles we still 
             have in America, and read one more heartbreaking story 
             about the violence of the world, I realize that the 
             headlines are always going to be dominated by who drops 
             bombs and who gets killed and who does this other thing. 
             Don Payne believed peace was better than war, he believed 
             that it was better to build than to break and then pick up 
             the pieces of what you had not built in the first place. 
             He believed it was better to reconcile than to resent. You 
             know when he grew up, he could have been a resenter, he 
             could have been an angry man, not a builder. If so, this 
             church would not be full today. He knew big always beats 
             small. I loved him, because day in and day out while he 
             built his own family, dealt with his own problems, dealt 
             with his own life, he just kept building. He is now 
             finished his course, and God has said, ``Well done.'' In 
             every walk of life, more than anything else my friend, you 
             were a good and faithful servant.

             EPA Administrator Lisa P. Jackson. Thank you for giving me 
             this chance to remember Congressman Payne. I have been 
             praying for him and his family since his hospitalization 
             earlier this month. They are in my thoughts and prayers 
             now as they say goodbye to a father and a grandfather and 
             a friend.
               Much as I am glad to be back in New Jersey with all of 
             you, I am sorry to be here under these circumstances. When 
             I was thinking about what to say, I realized that I took 
             my first job in New Jersey right around the time that 
             Congressman Payne took office [1989]. I lived here and 
             worked here and started my family here in the time that 
             served his district and this State.
               I return here today with all of you to a State that was 
             made better by his service.
               I am deeply grateful to Congressman Payne for breaking 
             barriers that stood in the way for so many years. He made 
             history as the first, but certainly not the last, African 
             American Congressman from this State. I am happy to have 
             raised my two sons in a place where they could see, first 
             hand, how far they could go in their lives.
               Congressman Payne also added his voice to struggles of 
             people half the world away. He saw that the distances 
             between nations would not keep us from being connected and 
             sharing interests. So he dedicated himself to protecting 
             the rights, improving the safety, and honoring the dignity 
             of people who lived thousands of miles from here. In fact, 
             he did more than just lend his voice, even going so far as 
             to put himself in dangerous places at dangerous times.
               It was a great example of someone worrying less about 
             keeping his job, and more about not wasting any 
             opportunities the job gave him to help people in need. It 
             was the work of a man using his position and his power to 
             simply do the right thing.
               Even with the sweeping impacts he had on our history and 
             our international work, Congressman Payne was first and 
             foremost dedicated to his district. He will be remembered 
             here for all he did to improve lives and create 
             opportunities in the New Jersey 10th. I'm glad to know 
             that his commitment to public service runs through his 
             family.
               As I said, I settled down here around the time 
             Congressman Payne took office, which means I began my 
             career protecting health and the environment here at that 
             same time. So let me finally say farewell to someone who 
             was a champion for our environment. Congressman Payne was 
             dedicated to protecting our health from pollution, and 
             stepped up to make our communities stronger and cleaner so 
             that the people of this State could enjoy every possible 
             opportunity. I was particularly grateful for his focus on 
             communities that face disparities in pollution and thus, 
             suffered disproportionately from the health effects.
               His work is not done, and will carry on in the people he 
             inspired through 23 years in Congress and a lifetime of 
             service. He will be greatly missed here in his home State 
             of New Jersey, back in Washington, and in the regions he 
             advocated for around the globe. My thoughts and prayers 
             are with his family and friends, and with Congressman 
             Payne as he returns home.

             Senator Frank R. Lautenberg. Thank you, Pastor David 
             Jefferson, for welcoming us to the Metropolitan Baptist 
             Church today.
               We are here to pay tribute to our friend and colleague, 
             Donald Payne.
               Our hearts go out to his family, including his brother 
             William, his sister Kathryn, his three children, four 
             grandchildren, and one great-grandchild.
               We thank all of you for sharing Donald Payne with all of 
             us.
               President Clinton, welcome to Newark. Your presence and 
             the presence of all of our guests today shows the powerful 
             impact that Donald had in New Jersey, Washington, and 
             beyond.
               I knew Donald for years, and I was always struck by his 
             soft-spoken demeanor, which made him a rarity in politics.
               Donald knew he didn't need to raise his voice--his ideas 
             were powerful enough.
               Donald put it best when he said, ``There is a lot of 
             dignity in being able to achieve things without having to 
             create rapture.''
               I hope that Donald will forgive us for a little rapture 
             today as we remember the remarkable life he led.
               Congressman Donald Payne will be remembered as a 
             trailblazer and one of the finest leaders our State has 
             ever known.
               For more than two decades, Donald served New Jersey with 
             distinction--but the whole world benefited from his 
             leadership.
               This proud son of Newark became an expert on foreign 
             relations and led efforts to restore democracy and human 
             rights around the world, including in Northern Ireland and 
             Sudan.
               We heard President Clinton reflect on Donald's role in 
             his historic tour of Africa in 1998.
               Even as he worked around the world to end famine, 
             disease, and genocide, Donald never stopped fighting for 
             those here at home.
               As everyone here knows, Donald was a tireless advocate 
             for his constituents, bringing significant economic 
             development to Essex, Hudson, and Union Counties.
               As a former schoolteacher in Newark and Passaic public 
             schools, he was also a leader on education issues.
               He worked hard to close the achievement gap, make 
             college more affordable, and bring more equity to school 
             funding.
               Donald became an inspiration to many, including members 
             of his family who are here today and who followed him into 
             careers in public service.
               But most of all, Donald was an inspiration to the people 
             he served.
               In 1988, during his first campaign for the House, he 
             told a reporter, ``I want to be a role model for the kids 
             I talk to on the street corners. I want them to see there 
             are no barriers to achievement.''
               Donald Payne achieved this goal.
               An entire generation of New Jerseyans has come of age 
             knowing and respecting Congressman Donald Payne.
               He has undoubtedly inspired many young New Jerseyans to 
             enter public service, and I expect we will one day see 
             some of them walking the Halls of Congress, following in 
             Donald Payne's footsteps.
               Since his passing, the Halls of Congress and the streets 
             of Newark feel emptier without his presence.
               We will miss Congressman Donald Payne and we will mourn 
             his absence from our lives, but we will also take comfort 
             in the knowledge that his legacy will endure for a long 
             time to come.

             Congressional Black Caucus Chairman Emanuel Cleaver II. It 
             falls to me, as chair of the Congressional Black Caucus, 
             to speak a few words about our friend and colleague, 
             Donald Payne.
               He was indulgent with his family, intolerant toward 
             injustice, invisible during credit-taking time, 
             incorruptible in a city of temptation and inextinguishable 
             as a human spirit who is much loved.
               Now I am compelled to utter something that is 
             counterintuitive. Washington, DC, is a city of heroes. 
             Yes, I challenge the late-night comedians and mid-day 
             commentators. Washington, DC, is a city of heroes.
               This is the city of Washington, Lincoln, Jefferson, 
             Roosevelt and Roosevelt, Kennedy, and Reagan.
               This is the city where leaders have gathered since 1790 
             to create the most democratic republic in world history.
               This is the city that attracted courageous leaders who 
             slammed slavery into the junkpile of days gone by.
               The leaders of Washington suffered from and eventually 
             stabilized the scariest economic downturn in world 
             history.
               It was from this city that the will was harvested to win 
             not one but two world wars.
               With civil rights leaders at the forefront, Jim Crow was 
             liquidated legislatively in Washington, DC.
               Donald Payne sowed seeds of civility and thus enjoyed a 
             bountiful harvest of good will from all sides.
               This is the city where in 1983 Ronald Reagan and Tip 
             O'Neill bandaged Social Security and added two decades to 
             its solvency.
               The forceful but civil words Donald Payne spoke in these 
             Hallowed Halls were short to speak but their echoes are 
             endless.
               Heroes in Washington, DC, are made by the men and women 
             who, win or lose, and at no small risk to themselves, 
             place their name on ballots for a place in the People's 
             House.
               Donald Payne was a hero, he defeated a hero to get here 
             and once here, he remained true to his ideals and beliefs.
               Donald Payne was a hero because he never landed on the 
             evening news because of caustic comments.
               He is a hero because he forced congressional attention 
             on Africa.
               He became a hero because in a time filled with hot air, 
             he taught us to say nothing often.
               He is a hero because he won more Washington battles with 
             his ears than his mouth.
               He is a hero because his life was measured not by its 
             duration but by its donation.
               John Wesley, who is credited with creating the 
             Foundation, said, ``Our people die well.''
               ``Blessed are the dead which die in the Lord, They rest 
             from their labor and their works do follow them.''
               At the funeral of former Soviet Leader, Leonid Brezhnev, 
             his widow, without the knowledge of the Soviet leadership 
             or the KGB, stood motionless by her husband's coffin until 
             a few seconds before it was closed. Then just as the 
             soldiers touched the lid, the former Soviet leader's widow 
             performed an act of great courage; she reached down and 
             made the sign of the cross on her husband's chest.
               She did what she was not supposed to do. But she had 
             hopes for another life for her husband, another life 
             represented by Jesus Christ. She was asking for mercy for 
             her husband.
               I realize that I am not supposed to do anything 
             religious at this service. But I do as Donald did, believe 
             in life in another realm.

             Representative John Lewis. On April 3, 1968, Martin Luther 
             King, Jr., gave his last sermon in Memphis, TN. He talked 
             about a trip he and Coretta took to Jerusalem where they 
             drove along the road to Jericho. He discovered it was a 
             long winding journey, full of twists and bends, and places 
             where someone could easily get ambushed. I hear many 
             people did.
               King said as he drove, he understood why Jesus used the 
             road to Jericho in a parable to illustrate the meaning of 
             brotherly love. A Levite priest walked on that winding 
             road and saw a troubled stranger who lay stranded, 
             struggling, and in pain.
               But the priest was afraid, and said, ``If I stop to help 
             this man, what will happen to me?'' But when the good 
             Samaritan passed down that road, he did not hesitate to 
             lend a hand. He lost all concern for himself, King said, 
             asking instead, ``If I do not stop to help this man, what 
             will happen to him?''
               Donald Payne was a good Samaritan who never turned a 
             blind eye to the sorrow of any human being. Through his 
             work he left a powerful legacy that demonstrates to every 
             single person who ever knew him what a life of public 
             service truly means. He was such a gentleman who walked 
             with dignity and pride, but he was so unassuming, so 
             sincere, so dedicated.
               His only motive was to defend the people of his 
             district. He loved the people, and the people loved him. 
             The care and support of the human family was his charge 
             that led him beyond the borders of any legislative 
             mandate. He believed it was his duty to stand up for the 
             locked out and the left behind wherever he might find 
             them, in Newark, in New Jersey, in America, Africa, or 
             around the world.
               He was a beautiful man, a sensitive man who dared, as 
             one philosopher put it, to reach his hand into darkness, 
             so he could pull someone else into the light. He was never 
             afraid to ride into conflict, if it meant he could get a 
             clearer understanding of what was good and just.
               He could navigate the toughest streets of Newark. No 
             neighborhood was too hard, too difficult, or too 
             distressed for him to pay a visit to teachers, schools, 
             parents, or students. No Nation was too dangerous or too 
             remote, if he believed he could make a difference.
               One of the first trips I ever took to Somalia was with 
             Don. I will never forget it. Everywhere we went in little, 
             dusty villages on the side of a winding road, in the halls 
             of government, in the homes of the poor, everywhere we 
             went they knew this good Samaritan by name. They knew Don, 
             and he knew them.
               I learned so much from him during that trip. It was very 
             dangerous because rebels were holding back American 
             supplies, starving people to death. Don and I saw children 
             just hours from death, dangling, just skin and bones, held 
             in their mothers' arms. We saw people dying on the side of 
             the road. Though trouble was all around us, Don never 
             thought about his safety, while so many lives were at 
             stake. He never needed any fanfare, only the opportunity 
             to serve, and he would be the first to come when you 
             called.
               He was one of the first Members of Congress to join me 
             in Alabama long before there was any thought about a 
             pilgrimage. He and Connie Morella from Maryland walked 
             with me across the Edmund Pettus Bridge, not for fashion 
             or for fame, but to pay tribute to history.
               He was a quiet visionary who searched for meaning in all 
             he did, one of the nicest human beings you ever want to 
             meet. He was warm and kind. He never hid behind the walls 
             of position or power. He was a humble, decent man, 
             comfortable in his own skin. He was anchored in his 
             mission and that grounded him. Donald Payne had the 
             strength to love. To me, he was the embodiment, the 
             personification of the best in the human spirit.
               My last trip with him was on December 10, Human Rights 
             Day, when he invited me to his district.
               Don, it was a wonderful time to be with you, to see how 
             the people of your district admired and loved and 
             supported you.
               I am so glad we spent that time together. I am glad you 
             called me when you did and that you gave me an opportunity 
             to see you before you left Washington for the last time. 
             The last words I ever heard him speak were not about his 
             health, but about the people he still felt the need to 
             serve.
               He said, ``John, I have so much that I want to do.'' He 
             was saying in effect, he was not finished. And he was 
             right. He was a rare individual, whose leaving left a void 
             of leadership. We may not be so lucky to see his likeness 
             again. But Donald, I want to promise you today and the 
             heavenly hosts that surround you, we will finish what you 
             started, and you will help by being our heavenly guide.
               We will do our part in your memory with your gentle 
             spirit in our hearts. Safe travels, my friend, my 
             colleague, my beloved brother, to the far corners of 
             heaven. A good Samaritan has finally found his way home. 
             We will see you again some day. We will meet again. Thank 
             you.

             Congressional Black Caucus Foundation Board Member Sheila 
             Jackson Lee. To the Payne family, Members of Congress, 
             Senators, former President Bill Clinton, Governor 
             Christie, Mayor Corey Booker, members of the 
             administration, the community of Newark and the community 
             of New Jersey, I am Congresswoman Sheila Jackson Lee and I 
             am here to bring you remarks on behalf of the 
             Congressional Black Caucus Foundation in regards to our 
             beloved friend, Congressman Donald Payne.
               Congressman Payne provided me with a tremendous amount 
             of support as I became a new member of the CBC. I am 
             particularly grateful for his constant encouragement and 
             lessons on the great history of the caucus. At a time when 
             the political rhetoric has become toxic and elected 
             officials often pander to their basic instincts of the 
             most radical part of themselves, Donald Payne continued to 
             represent his constituents as a forceful statesman.
               His work as a member of the House Committee on Foreign 
             Affairs helped promote democracy and protect basic human 
             rights abroad. As the ranking member of the Subcommittee 
             on Africa and Global Health, he was also the author of 
             legislation that provided famine relief in Darfur and 
             facilitated the peace process in that area. He also 
             founded the Malaria Caucus and helped to secure billions 
             of dollars in aid to treat HIV, AIDS, tuberculosis, and 
             malaria abroad.
               Depth of life is not only measured by how much we 
             appreciate the important things, but also by how much we, 
             in turn, are appreciated. Again, we find the true meaning 
             of this idea among ourselves and our feelings. We are here 
             because we cared. We are here because our connection with 
             Donald Payne was a deep connection based on friendship, 
             love, trust, and understanding. That can only happen with 
             a treasured human spirit, with a spirit like Donald Payne.
               When I heard the sad news that Donald Payne had passed 
             away a few days ago, my first thought was that a light had 
             just gone out in the world. I sat in stunned silence at my 
             desk for a very long time thinking about the influence he 
             had on my life that, until that moment, I am not sure I 
             fully appreciated.
               As I stand here there is a song in my head that I can't 
             get rid of. Some of you may know it. It was a popular song 
             from a not so good television show a few years ago called 
             ``The Heights.'' The song was: ``How do you talk to an 
             angel?'' I'm standing here wondering just that, because 
             there is no doubt in my mind that Donald Payne was an 
             angel here on Earth and is now an angel in heaven. He had 
             a heart of gold. Looking around this church today makes it 
             clear just how many people's lives Donald touched with 
             that heart of gold.
               How was I supposed to choose from all those memories of 
             joy and laughter, or the way he always seemed to know what 
             we Members of Congress had been up to, because no doubt, 
             he'd been up to the same things himself, back in his 
             district here in Newark?
               Now there is an empty space where once a man worked, 
             played, and bent down to take the hands of his children, 
             and his children's children. It's a very large void, not 
             so much because his physical presence is now gone, but 
             more because the way in which he shared himself was 
             something that filled us all with the sense that we were 
             someone special to him as special as he was to us. And 
             that space can never be filled by another person.
               We have all appreciated the visits, and the phone calls, 
             the little stories of things that Donald did or told you, 
             most of which we'd never heard before. It's like adding 
             more pictures to the album of memories we already have. 
             Our greatest regret being that we did not have more years 
             with him in which to add to that album.
               In closing, I'd like to suggest something to you. Don't 
             mourn; don't be sad. He wouldn't have wanted that. Instead 
             remember the good times: remember his laughter, remember 
             his smile, remember him happily and remember him often. 
             Now that is how he would want us to feel. He was a 
             courageous man and a renaissance man who will be truly 
             missed.
               No one expected tomorrow to come so soon. As I see all 
             of you, and as I spent this moment talking to you and 
             sharing comfort, I know my brother Donald Payne has done a 
             great thing. He pulled a vast number of people together of 
             different hues, backgrounds, and areas, and brought you 
             all together. It is a testament to his values, a testament 
             to his charm and a testament to a great life. I hope what 
             he gave you will stay with you just long enough for you to 
             share it with someone else. He will stay with me because 
             that's what great friends are supposed to do.
               Donald was a devoted husband, father, brother, and 
             member of his community. I would like to ask that you 
             remember the words of Matthew 5:1-14.

             When Jesus saw the crowds, he went up the mountain; and 
               after he sat down, his disciples came to him. Then he 
               began to speak, and taught them saying:
             Blessed are the poor in spirit, for theirs is the kingdom 
               of heaven.
             Blessed are those who mourn, for they will be comforted.
             Blessed are the meek, for they will inherit the earth.
             Blessed are those who hunger and thirst for righteousness, 
               for they will be filled.
             Blessed are the merciful, for they will receive mercy.
             Blessed are the pure in heart, for they will see God.
             Blessed are the peacemakers, for they will be called 
               children of God.
             Blessed are those who are persecuted for righteousness' 
               sake, for theirs is the kingdom of heaven.
             Blessed are you when people revile you and persecute you 
               and utter all kinds of evil against you falsely on my 
               account.
             Rejoice and be glad, for your reward is great in heaven, 
               for in the same way they persecuted the prophets who 
               were before you.
             You are the salt of the earth; but if salt has lost its 
               taste, how can its saltiness be restored? It is no 
               longer good for anything, but is thrown out and trampled 
               under foot.
             You are the light of the world. A city built on a hill 
               cannot be hid.

               Donald was a light in this world, now he is a light in 
             heaven.

             William D. Payne, brother. Thank you very much Reverend 
             and clergy members. I think that's what you're supposed to 
             say. I'm not used to speaking in churches. Reverend, 
             clergy, and others, I want to thank you very much for 
             coming here today.
               Some of you have probably known the Payne brothers for 
             quite a long time and you probably know that we are kind 
             of close. I have a difficult time referring to my brother 
             in the past tense. He's still here--I just cannot yet 
             accept the fact that he will not be there when I call the 
             office late at night as I used to do. Even though the 
             office closed at 6 or 7, Donald might've been there at 10 
             or 11 at night. He would want to get some work done and I 
             would call. He would answer the phone sometimes but he 
             would try to disguise his voice because he wouldn't want 
             anybody calling him. I would call late at night. He kind 
             of said, ``Congressman Payne's office.'' I would say, 
             ``can I speak with Congressman Payne?'' He tried to 
             disguise his voice in case he wanted to say, ``well he's 
             not in right now.''
               I can also say that I was there, Congressman Lewis, when 
             my brother said to you that ``he had so much more to do 
             and that he wished that he had more time'' and you 
             comforted him by saying ``Don, you've done a good job.'' 
             So, I just want to thank you for that.
               President Clinton, you may not remember this but we were 
             playing miniature golf up in Martha's Vineyard a couple 
             years back, and I happened to walk by and you said, 
             ``Where's Don?'' I said, ``He's not here.'' Then you said, 
             ``I want to thank him for all the work he's been doing for 
             Africa.''
               We were up there a couple years ago and he talked about 
             all the times that he had in the White House and after the 
             official functions were over he would go upstairs with the 
             family and join in. He told me once that there was dancing 
             up there. He was dancing with the Secretary of State and 
             he said to her, ``Boy, for a woman from Little Rock you 
             sure can dance,'' and she said, ``Wait a minute Donald, 
             I'm from Chicago. He's from Little Rock.''
               I would like to thank one person who hasn't been 
             mentioned. We talk about the triplets and how wonderful 
             they are and all of that business. But, nowhere is 
             mentioned the person who is really responsible for the 
             triplets truly being who they are and her name is 
             Beatrice. The mother of the triplets hasn't been 
             mentioned. I want Beatrice to stand up. You look to the 
             program and her name is not there but I also like to say 
             [sniffles] . . . I have a tissue so that's alright. We 
             grew up in poverty so we didn't have handkerchiefs so we 
             just [sniffles] . . . fancy tissues, but we didn't have 
             that kind of stuff. My brother and I used to be very close 
             as we were saying. Sometimes we would walk--when we were 
             10 or 11 years old we lived with our grandparents because 
             our mother passed away when she was only 30 years old and 
             my grandmother said Willie, our father, was too young to 
             raise these kids. So they bought a house with my aunt and 
             my grandparents. They bought a house so we went to live 
             with them. My grandmother was very strict. She gave us a 
             lot of orders to do things, and we had jobs to do, and one 
             was to wipe the stairs down every Saturday, and to do this 
             or that. Also one of them was you had to lock the gate 
             when you were coming back. Don't leave the gate unlocked. 
             So Don and I would walk together down the street and one 
             of us would have to lock that gate, and we would always 
             walk down the street with our arms around each other and 
             just at the right moment one of us would break because one 
             of us would try to outfox the other and we would run and 
             go down the street. He was fast.
               We're here and we have so many people to thank. I saw my 
             friend Jim McGreevy here a little while ago and I saw Jim 
             Florio here also. They were great friends. I want to 
             mention that March 6 is the day. It's the day that my 
             father passed, on the same night in 1989. My father passed 
             on the same day that my brother passed. I didn't realize 
             it at the time but he went home to be with my father on 
             the very same date. We've been really blessed to have had 
             my brother.
               People used to say, ``He ain't heavy, he's your 
             brother.'' I began to realize that I was not carrying him, 
             Donald was carrying me because there are those who say 
             that Don is a very nice guy. He's the decent one. He's so 
             nice. And Bill is the other one. I think he carried me a 
             lot. I'm going to miss him a great deal. You know I had 
             the opportunity to see him on occasion in some of the 
             other African nations where he went and I saw how they 
             treated him and I guess what describes him is that he 
             walked with kings but he never ever lost the common touch. 
             Donald was a very humble man and I love him, and I'm not 
             sure what I am going to do when I call late at night and 
             he's not there.
               Thank you.

             Wanda M. Payne, daughter. I am going to be very brief. My 
             father used to tell me not to say that I'm not a speaker, 
             so I'm going to be quick. I just want to thank everybody 
             for their love and support during these difficult times. 
             My father was like a mother and a father to me because as 
             you know my mother passed away when I was 2 and my brother 
             was 4. He never remarried so he raised us on his own and 
             he did a good job.
               He always encouraged me to do whatever I wanted to do 
             just as long as I was happy and good at it. I am a pre-K 
             teacher and I love my job. He never pushed me to do 
             anything else because you have to be happy with what you 
             do or you're not going to be effective.
               In closing, I would like to thank Reverend Ron 
             Christian. I mention him because it really touched me when 
             the minute he knew that my father was gravely ill he 
             stayed with us and him at the hospital throughout the 
             whole 4 or 5 days in Washington and New Jersey and never 
             left. He slept there and he prayed with us constantly. Not 
             to take away from anyone else, but he didn't have to stay 
             there. Thank you Ron. I love you. I love everyone else and 
             that's it.
               And Shakir, my son, my father really helped me raise 
             him, from bottle feeding to taking him to school. All of 
             that. Shakir--would you like to say something? Come on.
               Thanks again.

             Shakir Johnson, grandson. I am a little shy, but you know 
             what, I will just speak from my heart. As you know, like 
             my mom says, it is very tough but I know I can't hang my 
             head because I have to support not just my mom, but my 
             family, including my son, who is right here with me. I 
             just want to say, thanks to everybody who came over to the 
             house. Like I said, I am a little nervous, but I just want 
             to thank everybody who helped out. I want to be successful 
             and help out as much as possible and I love everybody.

             Donald M. Payne, Jr., son. Good afternoon. Let your hearts 
             not be troubled.
               To the assembled clergy, President Clinton, the 
             dignitaries, friends from all over the 10th Congressional 
             District, and the world, and to our family.
               I was fortunate to have a wonderful family because you 
             don't get to choose your parents. I was talking to my 
             aunts the other day as we were trying to make plans for 
             them to get here from Virginia and something just came to 
             my head and I said, ``I thank God for my mother for having 
             such great taste.''
               I want everyone to be happy. I'm at peace.
               On March 6, I found strength that I didn't know I had.
               We've all talked about the man today but no man is 
             perfect. Donald Payne, the Congressman, had flaws. He bit 
             his nails, he hoarded newspapers, and he would make me 
             take his garbage out, as I lived next door. So, no, the 
             man was not perfect.
               I want to thank Uncle Bill for correcting something that 
             was missed. Beatrice Payne is very important in all of our 
             lives. As it was stated, she is the mother of the triplets 
             which was one of the reasons my father allowed me to stay 
             around. So, Uncle Bill, I appreciate you for introducing 
             her so I can go home tonight. One more time for Beatrice 
             Payne, please.
               Mayor Booker, I never received as many ``no's'' as you 
             did from him.
               I really want to thank everyone for the outpouring of 
             love that you have shown my father. He was a very simple 
             and principled man with very complicated issues. He always 
             told me that it was either right or it was wrong. 
             Irrespective of what it was, it was either right or wrong. 
             So, life was very simple for him.
               To his staff--he thought the world of you. Because he 
             was about giving people opportunities and as I said to 
             them last night, he would not have hired you if he didn't 
             think there was something special about you--to give you 
             the opportunity to rise and meet your potential. So, thank 
             you for what you did for him because no man can do it 
             alone. Thank you.
               He didn't have a lot of time and one of the things I 
             think made this situation easier for me is because he was 
             always gone. He was either in Washington or he was 
             traveling and so I have to snap and think that he is not 
             here anymore. The realization will come, but it feels as 
             though he is either in Washington walking the Halls of 
             Congress or flying into Africa right now. I have had my 
             time to grieve and I guess I will grieve more but during 
             his illness I drove to Washington. I didn't take a plane 
             or train. I drove and I had a lot of time to reflect on 
             what he meant to me and the things that he has done for 
             other people. I'm at peace and I want my family to be at 
             peace.
               Just think of the things that he did for us without ever 
             asking for anything.
               He always wanted people to understand that no man was 
             above another man.
               There was a poem that he used to recite and if you were 
             close to him, he taught it to you. I don't know if he 
             taught it to me or if I heard it so much that I remembered 
             it. I believe the poem really gets to the essence of who 
             he was. And it says:

             Whether you have blonde fleecy locks or black complexion
             it does not forfeit nature's claim.
             Skin may differ
             but affection dwells in black and white the same.
             Were I so tall as to reach the pole or span the ocean with 
               my hands
             I must be measured by my soul.
             The mind is the standard of a man.

               Thank you.

             Nicole Y. Payne, daughter. Good afternoon.

             Titus 2:7:
               And you yourself must be an example to them by doing 
             good works of every kind. Let everything you do reflect in 
             the integrity and seriousness of your teaching.

               This verse embodies the legacy of my father. As our 
             family moved through the process during the final days 
             with him, I was fluttered with pleasant memories of him 
             and how he lived life and loved to live. My first 
             rollercoaster ride was with my father. I realized going 
             through the process that the ride was analogous to life. 
             It was a life lesson of how to enjoy the ride we call life 
             through the peaks, the valleys, the scary times, and the 
             points of exhilaration, and to truly enjoy the ride.
               As I sat in the hospital room during the last days of 
             his life, I was utterly moved and compelled to tears as 
             people came, visited, and thanked him for all his works 
             that inspired them to be better people and to make a 
             difference in the world. As I read the cards, they thanked 
             him for turning on their heat, turning on their lights, 
             and getting food stamps. He was their champion. He was 
             their advocate--from the constituents of Bergen Street and 
             the neighborhoods like it, to the obscure villages in 
             Africa there is still work to be done.
               Known as a gentle man, he was also a fighter, but not to 
             destroy--to edify. He was passionate about compassion and 
             he had to fight for what was right. He could not rest 
             until it was done. So, today I implore you to replace your 
             tears of sadness with tears of joy and to enjoy having 
             known him, and to continue to plant the seeds and to reap 
             the good works. Celebrate his life and do something in 
             your lifetime to impact someone else, but most of all, do 
             this with integrity, compassion, determination, but most 
             of all with love.
               Thank you.

             Kathryn Stanley James, sister. A lot of you don't know me, 
             but I am the matriarch of this great family, even though 
             they think of me as the crybaby. Bill was the hard one, 
             Donald was the great one, and I was the little crybaby. 
             But, today I feel that I can speak about my brother. I 
             remember when my brother was 3 years old. He used to march 
             around the house with a pot and a spoon in his hand, 
             marching like he was in a parade. When he went outside, he 
             would do the same thing. He has been in many parades 
             during his life. Today is his last parade as we followed 
             his casket to the church.
               I want to say that I appreciate all of you for coming 
             here and I want to tell you a couple of little things.
               When I was in the Hall of Records at the courthouse, 
             where Donald was lying in state, I met many people that 
             came to pay their respect for what he did for them. This 
             one particular lady was telling me that she had triplets. 
             Because she and her husband were struggling with the 
             triplets, Donald bought three cribs, diapers, food, and 
             everything that she needed to help the children. He always 
             made sure that they were okay. I said to her, ``Oh that's 
             great! Donald has beautiful triplet grandchildren: Donald, 
             Jack, and my little bunny (Yvonne).''
               She said, ``Oh yeah?''
               I said, ``They're 13 years old. How old are your 
             triplets?''
               She said, ``42 years old.''
               That shows you even before he was this great Congressman 
             he was taking care of people in his district; helping them 
             with food and other matters.
               This past December, Donald called me. He wasn't even in 
             this country I don't think, but he said, ``Kathryn, I want 
             to take you to the White House for the Christmas reception 
             with the President.'' I was glad at first and then I 
             started thinking, oh my goodness what am I going to wear? 
             What am I going to do? So I said, ``Okay, I'll be there.''
               As I was getting ready that morning, I put my evening 
             bag and my driver's license together because you need 
             identification to get into the White House. When we 
             arrived at the White House, Donald asked, ``Do you have 
             your driver's license?'' I told him that I had everything. 
             So we're at the White House and they ask for my driver's 
             license. Well, I forgot I took it out of that bag and put 
             it in another one. Donald fussed and he fussed. But they 
             let us in because they knew Donald.
               At the reception, you had a certain time to take 
             pictures. We were in line and the President and Mrs. Obama 
             were standing there ready to take a picture with Donald 
             and me. Well, I took with me a picture of Mrs. Dorothy 
             Inghram who lives in California, where I live now. Mrs. 
             Inghram is 106 years old. She was the first African 
             American teacher in the area, the first principal, the 
             first superintendent, and they named a library after her. 
             She is still sharp. She had a birthday last November and I 
             was there. She still gets around in a wheelchair 
             sometimes. She is such a wonderful person. So, I was 
             telling all of this to Mrs. Obama while we're supposed to 
             be taking a picture. Donald was just hitting my arm so 
             that I would stop talking. I had a little package with 
             Mrs. Inghram's autobiography and a picture of her and I 
             was getting ready to hand it to Mrs. Obama but the Secret 
             Service took it out of my hand. Donald said, ``Kathryn'' 
             and President Obama said, ``Donald, you know how sisters 
             are.''
               I met one of the President's staffers and she gave me 
             her card to follow up. I called her and she sent Mrs. 
             Inghram a picture of the First Family and a letter 
             congratulating her on her 106th birthday anniversary.
               I just wanted to thank you all for coming. Donald is my 
             little brother. When he called me and while we were at the 
             reception, he said this might be the last time going to 
             the White House.
               I didn't know whether he meant it was the last time with 
             President Obama--I pray that he gets reelected--or whether 
             he meant that it was his last time going to the White 
             House since he'd always go and I would say ``you never 
             take me.'' Donald had a lot of friends, men friends, lady 
             friends, and staffers. He would always take somebody else. 
             I know that a few of you are here today who went to the 
             White House with him.
               I'm privileged and honored to have gone with him and to 
             take a beautiful picture with the President and Mrs. 
             Obama. I also have a beautiful picture with you, Mr. 
             Clinton. It is on my bedroom mirror. And I'm glad you 
             remembered my name because a lot of people always forget 
             my name. They always forget that Donald had a sister.
               This is my son, Craig. I told him that I was going to 
             speak and pray that I would not cry. I feel great. I feel 
             this is a celebration of Donald's life and I appreciate 
             everybody for being here.

             Craig A. Stanley, nephew. Thank you, Mother.
               First, giving honor to God, who's the head of my life. 
             I'm going to be brief, Uncle Bill.
               As Christians, we hold out hope up until the last minute 
             for a miracle, so, up until the last minute, I didn't 
             believe that he was going to be leaving us. Even the way I 
             saw him, I couldn't accept it until I got a call that 
             night and then I got a call that morning from my sister. I 
             knew based on the call that night and the call that 
             morning that my uncle had transitioned.
               I had very little time to really be sorry about his 
             passing because immediately the thought came to my mind 
             that he's there with Martin Luther King, Uncle Bill! You 
             know? And he's there with Sojourner Truth, right? And he 
             can even stop and tell Carter G. Woodson about your bill, 
             Uncle Bill, and how we're trying to get African American 
             history included in the history of New Jersey.
               So, I had so little time to grieve, but that's a good 
             thing because I know he's in a better place.
               I thank God for blessing me by placing me in such a 
             phenomenal position to be influenced by my uncles. The 
             fact is that my story could be repeated hundreds of times 
             by hundreds of young Newark kids. I was recruited by one 
             of the many high school fraternities that the Congressman 
             started when he was a teacher in the 1960s and 1970s. Of 
             course it was automatic that I would be involved with the 
             YMCA Youth and Government Program. That's a youth model 
             legislature program. I ran for president of the senate. I 
             wasn't victorious, but I got my bill passed after making 
             compelling speeches in both houses. We had a rule that you 
             could go into the other house; even if you were a senator, 
             you could go and speak in the assembly. That's why we were 
             able to do it, Madame Speaker.
               The point is I often tell my students that that is when 
             I realized that being a legislator might be something I 
             wanted to do. I'm currently the director of the Consortium 
             for Pre-College Education at NJIT and we get kids ready to 
             graduate from high school and to be very successful in 
             college. We work with middle and high school students. 
             Youth and Government is where I found out the importance 
             of government. It crystallized for me there, and I 
             realized I could do this. The Youth and Government Program 
             is almost exclusively comprised of suburban students. 
             Unfortunately, a lot of urban kids don't have the 
             wherewithal do to it. My uncle, Donald Payne, made it 
             available to hundreds of urban kids.
               I was able to complete my senior year of high school as 
             an exchange student in Switzerland because of Congressman 
             Payne. But the bottom line is that he didn't just impact 
             my life, he impacted thousands of youths. And it wasn't 
             just the fact that he impacted their lives but many of 
             them are impacting lives of other students. So, it's not 
             just the thousands that he impacted; not just the work 
             that he's done but the work that he did is being repeated 
             not by multiplication but exponentially. That's what makes 
             his life an epic life!
               Finally, I just want to say to my Uncle Bill who is, as 
             he said himself, Uncle Donald was the nice one--the one 
             who Reverend Jefferson says that I remind him of--and then 
             there is Uncle Billy, the other uncle.
               The fact of the matter is that I love them both 
             tremendously and the fact of the matter is that Uncle 
             Donald would have been kicking and screaming if he thought 
             we were doing this for him over the last 3 days. He would 
             say ``This is not me, I don't want this, and you can't do 
             this, no, this is not me.'' But you know what? Then Uncle 
             Billy would say, ``Don, you sat with kings, you're one of 
             the few people in the world who can sit with the freedom 
             fighter and the president of the same country and be 
             respected by both.'' And then, true to form, my Uncle 
             Donald would acquiesce and say, ``okay,'' to keep the 
             peace, right Uncle? Right Ma? And so he would go along 
             with it.
               As a result of Uncle Bill's efforts, I thank you Donald 
             Payne, Jr., my cousin, and Wanda and Nicole, for allowing 
             us to send this hero off in a way that is appropriate and 
             befitting of the man.
               Thank you and thank all of you.

             Jack Payne, grandson. Jesus comforts His disciples.

             John 14:1-3 (New Testament)
               Do not let your heart be troubled; believe in God, 
             believe also in Me.
               In My Father's house are many dwelling places; if it 
             were not so, I would have told you; for I go to prepare a 
             place for you.
               If I go and prepare a place for you, I will come again 
             and receive you to Myself, that where I am, there you may 
             be also.
             [GRAPHIC] [TIFF OMITTED] T3300.008
             
             [GRAPHIC] [TIFF OMITTED] T3300.009
             

             A CELEBRATION OF THE LIFE OF

                                    THE HONORABLE

                                   DONALD M. PAYNE
                             New Jersey's 10th District

                             JULY 16, 1934-MARCH 6, 2012

                                    Statuary Hall
                                United States Capitol
                              Wednesday, April 25, 2012
                                     11:00 a.m.
             ``When I was very young, I came across a book of poetry 
             from my father. I will never forget a quote from that book 
             that read, `A father wants his son to be a better, 
             brighter man than he.' I always remembered that as I grew 
             up. Among the many lessons my father taught me, he taught 
             me that in whatever I do, to be the best at it--to work 
             hard, to always be respectful, to be proud of what I do. 
             This has made me a better person.''
                                        --The Honorable Donald M. Payne
             Order of Service

             Prelude
                  United States Army String Quartet

             Presentation of the Colors
                  United States Capitol Police Ceremonial Unit

             National Anthem
                  SFC Leigh Ann Hinton, United States Army Band Soloist

             Welcome
                  The Honorable John Boehner, Speaker of the United 
                    States House of Representatives

             Invocation
                  The Reverend Patrick J. Conroy, S.J., Chaplain of the 
                    United States House of Representatives

             Tributes
                  The Honorable Donna Christensen, United States House 
                    of Representatives
                  The Honorable Emanuel Cleaver, United States House of 
                    Representatives
                  The Honorable Lynn Woolsey, United States House of 
                    Representatives
                  The Honorable Chris Smith, United States House of 
                    Representatives

             Musical Selection
                  ``The Wind Beneath My Wings''
                  Mr. Anthony Harrington, Soloist

             Family Reflection
                  The Honorable Donald M Payne, Jr., son of the 
                    Honorable Donald M. Payne
                  Mr. Jack D. Payne, grandson of the Honorable Donald 
                    M. Payne
                  Mr. William D. Payne, brother of the Honorable Donald 
                    M. Payne

             Tributes
                  The Honorable Nancy Pelosi, Democratic Leader of the 
                    United States House of Representatives
                  The Honorable Frank Lautenberg, United States Senate
                  The Honorable Joe Biden, Vice President of the United 
                    States
                  The Honorable John Boehner, Speaker of the United 
                    States House of Representatives

             Benediction
                  The Reverend Dr. David Jefferson, Sr., Metropolitan 
                    Baptist Church, Newark, New Jersey
                                    The Honorable

                                   DONALD M. PAYNE
                             July 16, 1934-March 6, 2012


Immediately following today's memorial service,

the Payne family will receive guests in the Rayburn Room.

             Speaker John Boehner. Good morning and welcome to the Old 
             Hall of the House. Thank you for joining us to celebrate 
             the life of the Honorable Donald M. Payne, Representative 
             from the State of New Jersey.
               With us today are members of Representative Payne's 
             family, as well as many colleagues and friends, all 
             gathered just steps from the Chamber where he served with 
             great distinction.
               Just as the House is the body closest to the people, it 
             is a body of people who are close-knit. The loss of one is 
             felt by all. That is particularly true in the case of this 
             distinguished gentleman from New Jersey.
               This morning, we will hear of a man who grew up in 
             humble circumstances and devoted himself to lifting up 
             others, whether they lived just down the block in Newark's 
             North Ward or thousands of miles away in South Africa.
               We will hear of a believer who rewrote the book on what 
             it means to be a public servant. Don Payne never settled 
             for being a sympathetic ear or a helping hand. He immersed 
             himself in the plight of those he sought to help, glimpsed 
             a better future, and gave his all to see it through.
               We will hear of a teacher who passed on his passion with 
             such commitment that the great John Lewis would say Don's 
             heart ``was big enough to serve all humankind.''
               Through Don Payne's story, we see how much we are 
             capable of, and how much we have left to do. So we are 
             again drawn to that line in Luke: ``to whom much is given, 
             much is expected.'' Each of us has been enriched by Don 
             Payne's example, and we must be expected to honor it with 
             service and sacrifice.
               God bless his family and God bless all of you for being 
             here.

             Reverend Patrick J. Conroy. God of heaven and earth, the 
             work of Your hands is made known in Your bountiful 
             creation and in the lives of those who faithfully live 
             their lives in service and in Your grace.
               Today we especially remember the life and work of our 
             departed brother, Donald Milford Payne, trusting Your 
             promise of everlasting life and love.
               We remember his 40 years of service in elected office. 
             In his 12th term in Congress You called him to Yourself. 
             His voice on behalf of the millions who suffer on the 
             continent of Africa, and for so many here at home, will be 
             sorely missed. May his example give courage to those of us 
             who continue on, to similarly dedicate our lives and our 
             energies for the service of so many in need of a champion.
               Comfort those who mourn, most especially his family, but 
             also his lifelong friends, and the many people who 
             remember Donald as a man of stature and position, who 
             never lost sight of his call to service of others.
               Donald's Bethlehem Baptist Congregation of Newark, and 
             his Roman Catholic alma mater Seton Hall University, can 
             both be proud of this faithful son who answered the call 
             of his Master to serve others, and now intercedes for us 
             all in God's presence. Eternal rest grant unto him, O 
             Lord, and let perpetual light shine upon him.
               Amen.

             Representative Donna Christensen. It's hard getting used 
             to Donald Payne not being around. We may never get used to 
             it and I hope we don't.
               No more, ``Hey Girl, where you been?'' or ``Hey Girl, 
             what've you been up to?,'' as only Donald could ask.
               But what will always be with us is what Donald, always 
             the teacher, taught us through his life and service.
               Teaching was obviously his first love and he never left 
             it when he came to Washington--from his work to close 
             education gaps on the Committee on Education and the 
             Workforce, to the many young people from all over our 
             country and world that he mentored, in and outside of his 
             office, on street corners or in classrooms--I especially 
             remember his South Africa fellows--to his commitment to 
             the interns and fellows--training the next generation of 
             leaders--as he led the CBC Foundation to understand that 
             this was its important core mission.
               As much as he was involved in the life of Africa, its 
             struggles, and its victories--trusted counsel to rebels as 
             much as Presidents--his efforts on behalf of Caribbean 
             development and peace in Ireland--he was still never far 
             from his district to which he also gave his all and where 
             he was so much loved.
               His commitment to global health had its beginning in 
             those major health events he held in Newark. I would 
             always join the New Jersey and New York folks, and it was 
             wonderful to see Donald in his element, and to be a part 
             of bringing health care information and services to the 
             thousands who came. He believed in and respected this 
             institution and its rules and traditions and taught all of 
             us who served with him to do the same--or else! He was a 
             loyal and loving friend who was always there when you 
             called and even when you didn't, but he also didn't mind 
             ripping into you to keep you on the straight and narrow.
               I was privileged as well as burdened to be one of the 
             few that Donald told of his illness, but he did so well 
             that we--even I--were lulled into thinking he would beat 
             his illness and he did for a long time. Through ups and 
             downs, therapies, and adverse reactions, he kept going 
             like an Energizer bunny here, at home, at the Foundation, 
             across the country and abroad. I don't know how he did it.
               So what did Congressman Donald Payne teach us? That you 
             can and have an obligation to do it all; that we must 
             serve all of humanity even beyond the best of our ability 
             and capacity with courage but humility and with 
             determination--quiet when possible, but to also go 
             ``Newark'' as our Chair terms it, when the situation 
             demands; to never let anyone or anything stand in the way 
             of living life the fullest and giving your all until you 
             have nothing more to give.
               Donald Payne gave his all to his family, his friends, 
             his colleagues, his country, the continent of Africa, the 
             Caribbean, and the world, and so he will always be with us 
             in that special part of himself he shared with each of us 
             so selflessly. So we can say as we gather here today for 
             this memorial, thank you Donald Payne, my colleague, my 
             teacher, and my friend.

             Representative Emanuel Cleaver. It falls to me, as chair 
             of the Congressional Black Caucus, to speak a few words 
             about our friend and colleague, Donald Payne.
               He was indulgent with his family, intolerant toward 
             injustice, invisible during credit-taking time, 
             incorruptible in a city of temptation and inextinguishable 
             as a human spirit who is much loved.
               Now I am compelled to utter something that is 
             counterintuitive. Washington, DC, is a city of heroes. 
             Yes, I challenge the late-night comedians and mid-day 
             commentators. Washington, DC, is a city of heroes.
               This is the city of Washington, Lincoln, Jefferson, 
             Roosevelt and Roosevelt, Kennedy, and Reagan.
               This is the city where leaders have gathered since 1790 
             to create the most democratic republic in world history.
               This is the city that attracted courageous leaders who 
             slammed slavery into the junkpile of days gone by.
               The leaders of Washington suffered from and eventually 
             stabilized the scariest economic downturn in world 
             history.
               It was from this city that the will was harvested to win 
             not one but two world wars.
               With civil rights leaders at the forefront, Jim Crow was 
             liquidated legislatively in Washington, DC.
               Donald Payne sowed seeds of civility and thus enjoyed a 
             bountiful harvest of good will from all sides.
               This is the city where in 1983 Ronald Reagan and Tip 
             O'Neill bandaged Social Security and added two decades to 
             its solvency.
               The forceful but civil words Donald Payne spoke in these 
             Hallowed Halls were short to speak but their echoes are 
             endless.
               Heroes in Washington, DC, are made by the men and women 
             who, win or lose, and at no small risk to themselves, 
             place their name on ballots for a place in the People's 
             House.
               Donald Payne was a hero, he defeated a hero to get here 
             and once here, he remained true to his ideals and beliefs.
               Donald Payne was a hero because he never landed on the 
             evening news because of caustic comments.
               He is a hero because he forced congressional attention 
             on Africa.
               He became a hero because in a time filled with hot air, 
             he taught us to say nothing often.
               He is a hero because he won more Washington battles with 
             his ears than his mouth.
               He is a hero because his life was measured not by its 
             duration but by its donation.
               John Wesley, who is credited with creating the 
             Foundation, said, ``Our people die well.''
               ''Blessed are the dead which die in the Lord, They rest 
             from their labor and their works do follow them.''
               At the funeral of former Soviet Leader, Leonid Brezhnev, 
             his widow, without the knowledge of the Soviet leadership 
             or the KGB, stood motionless by her husband's coffin until 
             a few seconds before it was closed. Then just as the 
             soldiers touched the lid, the former Soviet leader's widow 
             performed an act of great courage; she reached down and 
             made the sign of the cross on her husband's chest.
               She did what she was not supposed to do. But she had 
             hopes for another life for her husband, another life 
             represented by Jesus Christ. She was asking for mercy for 
             her husband.
               I realize that I am not supposed to do anything 
             religious at this service. But I do as Donald did, believe 
             in life in another realm.

             Representative Lynn Woolsey. Thank you, Mister Speaker. I 
             am honored to be here to pay tribute to a man I loved and 
             respected--a friend for life--and a mentor.
               To his family we say thank you for sharing your father, 
             father in-law, brother, grandfather, and great-grandfather 
             with us. He was a busy legislator--in Washington, DC, in 
             his district, and around the world, but nobody meant more 
             to him than his family. He was so proud of you.
               Some have said that Donald Payne was greeted in heaven 
             by Martin Luther King, Jr., and the like, but I believe he 
             was greeted by his sweet mother and his lovely wife, both 
             of whom left him far too early in his life. Now, I believe 
             he is in a ``better place.''
               When I came to Congress I couldn't have asked for a 
             better mentor, a public school teacher, someone kind and 
             smart. We served on committees together where I benefited 
             from his wisdom and experience--because he was a man who 
             knew what public service is.
               He described himself as ``a mild-mannered man'' but he 
             was also tenacious and dedicated. No one--and I mean no 
             one--worked harder to bring peace and democracy around the 
             world.
               He knew he could not have been successful without his 
             great supportive staff. He knew you are the best. Nor 
             could he have achieved the reputation of a true statesman 
             and humanitarian without his constant ``Energizer bunny'' 
             drive and determination that stayed with him through the 
             diagnosis of his illness until the end.
               Nobody has fought harder with an iron will and physical 
             strength not to give in, because he had so much left to 
             do. In his absence, it's up to us to do it for him, to 
             follow his lead, to continue the work that mattered so 
             much to him.
               That is our promise to you, Donald--because we love you 
             and miss you. We thank you for making the world a better 
             place because you were in it.

             Representative Chris Smith. In the ensuing weeks since Don 
             Payne's untimely passing, I, along with all who knew and 
             deeply respected him, keep expecting to hear his gentle 
             voice admonishing us to care more and to do more for those 
             trapped in poverty or suffering from devastating disease.
               Donald Payne was an extraordinary man who dedicated his 
             entire life to public service; a man who made a 
             significant difference in the world, in his constituency 
             in New Jersey. Many people that he touched know and 
             remember his legacy as a great treasure.
               Don Payne worked across party lines to combat the HIV/
             AIDS pandemic and to mitigate the loss of life and 
             morbidity from tuberculosis and malaria on the 
             subcontinent of Africa.
               He cosponsored the Sudan Peace Act and worked tirelessly 
             to end the genocides in both South Sudan and Darfur.
               I know first hand how much he truly cared and how hard 
             he worked for peace and reconciliation in war-ravaged 
             nations. I served as ranking member of the Africa 
             Subcommittee when he chaired it, and more recently until 
             his passing, he served as mine. In our subcommittee, he 
             never shied away from asking the tough questions, but 
             always did so in a way that demonstrated his earnest 
             desire to find durable solutions to vexing and seemingly 
             insurmountable problems.
               He was a joy to work with.
               At his funeral, dozens of family members, friends, and 
             political leaders extolled Don Payne's innate goodness and 
             accomplishments. The outpouring was, in a word, 
             overwhelming.
               President Clinton was there and talked about Donald 
             Payne as a peacemaker, and said, '' Better to reconcile 
             than to resent.''
               Governor Christie said that, ``As we celebrate his life 
             today and as we say goodbye, we thank him for his gentle 
             grace.''
               His niece, Lauren, said, ``I can go to any part of the 
             world and he would be known there. I think it's wonderful, 
             just amazing.''
               His son, Don Jr., reminded everyone, ``Just think of all 
             the things he did for us, without ever asking for anything 
             back.''
               Don Payne's ability to care and to do for others while 
             expecting nothing whatsoever in return is indeed rare and 
             it's a precious virtue. His example of lifelong selfless 
             generosity inspires us all to be doers of good deeds 
             without any thought of recognition or reward.
               The House has lost a distinguished friend and a 
             distinguished colleague in the gentleman from New Jersey. 
             On behalf of our delegation, I say to the family, we 
             deeply miss him. On behalf of Ileana Ros-Lehtinen and 
             Howard Berman, chairman and ranking member of the Foreign 
             Affairs Committee, we deeply miss him. And on behalf of 
             the entire Congress--he is missed.

             Democratic Leader Nancy Pelosi. Thank you very much Mr. 
             Speaker. Thank you for arranging for this beautiful 
             ceremony today in honor of Donald Payne. Thank you so much 
             for bringing us together in such a beautiful way.
               To Donald's family, I hope it is a comfort to you that 
             so many people share your grief and are praying for you at 
             this sad time. And that Donald is being honored in so many 
             different ways. He was in life and now with his passing. 
             The fact that the President of the United States, Bill 
             Clinton, and Members of President Obama's Cabinet were 
             present, with our Assistant Leader, Mr. Clyburn, at his 
             funeral. The fact that we are under the dome of the 
             Capitol of the United States and the Vice President of the 
             United States is here to sing the praises of Donald Payne. 
             As well as an outpouring from his colleagues in the House 
             and in the Senate. I hope that is a comfort to you.
               I just want to share with you a couple other tributes, 
             that may not be well known to many of you here. On March 
             19, when we observed St. Patrick's Day because it was on a 
             Saturday, and so, we observed it on Monday, there was a 
             big dinner--the American-Ireland Fund Dinner. Huge dinner. 
             Hundreds of people turned out. The Prime Minister, the 
             Taoiseach of Ireland was there. When our Richie Neal 
             spoke, as did also Peter King, Richie devoted his entire 
             comments to Donald Payne. In this big Irish festival there 
             was a huge [photo shown]--as big as the wall--of Donald 
             Payne, and the crowd cheered wildly as both Mr. King, but 
             especially, Richie, spoke about what he did to help the 
             people of Northern Ireland. Wasn't it a beautiful tribute, 
             [Mr. Vice President] Joe [Biden]? It was beautiful. 
             (Applause.)
               That was a couple of weeks, as we know, after his 
             passing.
               I want to tell you about an incident that happened a few 
             years ago. We were on a delegation that Donald helped 
             arrange and lead to Darfur and to Africa. It was very 
             emotional for all of us. But as with anything you did with 
             Donald, you were better prepared when you went, better 
             received when you got there, and better able to help when 
             you left. Whether it was the alleviation of poverty, the 
             eradication of disease, promotion of peace, ending 
             violence, protecting human rights, you name it. For this 
             trip we were going to Darfur, Sudan, and other countries 
             in Africa. Donald helped arrange everything, but when we 
             were going to Khartoum, he said, ``I'm not going.'' 
             Remember this Max, he said: ``I'm not going.'' And I said, 
             ``But why, you're our leader.'' He said, ``They're not 
             going to tell you the truth, I already know that. I'm not 
             going to give them that opportunity. But you have to find 
             out for yourselves.'' Which we did. And we went on that 
             trip and then we visited--it wasn't just about visiting 
             Heads of State and Parliamentarians, it was about visiting 
             people in HIV/AIDS clinics, to see the care they were 
             receiving, about visiting women working in sweatshops. It 
             was about learning about the country.
               I wanted to tell you about this one incident because I'm 
             reminded of it today, when so many people are singing the 
             praises of Donald Payne, and I'm referencing people 
             singing the praises of Donald Payne who aren't even here 
             today. We were in Liberia--Mr. Clyburn, you remember this 
             very well--we're in Liberia and there was a big 
             celebration of dedicating a library to Congressman Donald 
             Payne for his leadership. We were there, and I am telling 
             you it was very hot. They gave us dashikis to wear, so it 
             was even hotter. Every person that spoke, and believe me, 
             the leadership of the world turned out--that was after 
             President Sirleaf Johnson had already honored Donald and 
             the rest of us at an event, but all of the focus was 
             always on Donald. Anyway, we went to this library 
             dedication at the AME College in Monrovia, it's boiling 
             hot, everybody turned to honor Donald, long list of 
             speakers. And every person who spoke, Mr. Vice President--
             you'll recognize this Mr. Speaker, every person who spoke 
             said what an honor it was to be on the program with 
             everybody who spoke before. (Laughter.)
               You've been to those things.
               Until, you know, we were like 19, 20 speakers. We got 
             halfway through and one gentleman, distinguished gentleman 
             got up, and he said, ``To all of the speakers who spoke 
             before me, and who will come next, honors granted.'' It 
             brought out the biggest smile on Donald Payne's face. The 
             picture that you see on the program, those twinkly eyes, 
             that beautiful smile, that is obviously a family trait. 
             They wanted to outdo each other in praising him, but 
             acknowledging everyone there too.
               He was so wonderful and there is so much to be said 
             about him. It's really a personal loss to so many of us. 
             When a colleague passes away, it's sad, it's a loss, in 
             that this is very personal with many Members. I just want 
             to recall, since Mr. Cleaver introduced the idea that we 
             can speak religiously here today, of a prayer that is 
             posted on a wall by a Presbyterian African Bishop in 
             Africa, and I think it applies to Donald very well. In the 
             prayer, the Bishop says: ``When at long last I will 
             happily go to meet my Maker, He will say to me, ``show me 
             your wounds.'' And if I have no wounds, I will say to him, 
             ``I have no wounds.'' And He will say to me, ``Was there 
             nothing worth fighting for?'' That was Donald. He fought 
             for poor people, he fought for people all over the world--
             we mentioned Africa, that's well known, we mentioned 
             Northern Ireland, but all over the world. This whole 
             hemisphere. He took on--this is hard, to make that fight. 
             He was challenging the status quo, especially to end 
             violence, promote peace. That's why it was my honor to 
             name him to be our Representative to the United Nations 
             General Assembly. One time, is the way it goes. But for 
             Donald, it was two times. Because his contribution was so 
             valuable.
               We say it from time to time, but it's never truer than 
             today, God truly blessed America with the life, 
             leadership, and service of our precious Donald Payne.
               Thank you.

             Senator Frank Lautenberg. Thank you, Leader Pelosi. It's 
             an honor to represent the Senate in paying tribute to our 
             friend, Donald Payne.
               Congressman Payne was a humble man of conscience and 
             conviction. I was always struck by Donald's soft-spoken 
             demeanor. I think many here will agree--this made him a 
             rarity in politics. Donald didn't need to raise his 
             voice--his ideas were powerful enough.
               For more than two decades, Congressman Payne served New 
             Jersey in Congress with distinction, but his leadership 
             impacted lives far beyond New Jersey's borders.
               Donald was an expert on foreign relations. He led 
             efforts to restore democracy and human rights in countries 
             from Northern Ireland to Sudan. Congressman Payne worked 
             around the globe to end famine, disease, and genocide.
               At home, Donald was a trailblazer. In 1988, during his 
             first campaign for the House, he told a reporter, ``I want 
             to be a role model for the kids I talk to on the street 
             corners. I want them to see there are no barriers to 
             achievement.'' Make no mistake--Donald Payne achieved this 
             goal. He inspired young people to enter public service. 
             Just look at his proud family members who are here today. 
             Many have followed him into careers in public service.
               We miss Congressman Donald Payne and we mourn his 
             absence from our lives. Donald may be gone, but his legacy 
             will not be forgotten for a very long time to come.

             Vice President Joe Biden. Mr. Speaker, thank you very 
             much. (Applause.) Thank you so very much.
               To the Payne family, all of us--many of us have been 
             through what you're going through, and we know there's not 
             a darn thing any of us can say to fill that sense of that 
             empty void you feel, that hollowness in your chest.
               But as the former Speaker said, I hope you take some 
             solace from knowing that everyone else knows what you 
             knew; everyone else knows what you felt; everyone else 
             knows what your father, your grandfather, your brother, 
             and so forth, what he was made of. I hope that gives you 
             some solace. And so I hope that solace is something that 
             will bring that healing quicker rather than it has already 
             brought it.
               I actually envy my colleagues who spoke. I envy them 
             because they obviously got to work with Donald every day, 
             and they got to know him even better than I did. They got 
             more direct benefit from being with a gentle, honorable 
             man--a man who, in my experience, and I've spent a lot of 
             time on trains with him and a lot of time talking to him 
             as chairman of the Foreign Relations Committee, but a guy 
             who is probably as that old saying goes, he's what the 
             doctor ordered, what we need badly here in Washington.
               It's not just what he did. It's not just how deeply he 
             felt about the causes he fought for; a lot of you feel as 
             deeply. A lot of you, Democrats and Republicans, feel the 
             same way. But the thing I admired most about him was--I 
             was reading the quote--and it said, ``When I was a young 
             man, I came across a book of poetry from my father. I'll 
             never forget the quote from the book, a father wants his 
             son to be better and brighter than he. I always remembered 
             that when I grew up.''
               My dad used to have an expression, he said, ``You know 
             you're a success when you turn and look at your son or 
             daughter and realize they turned out better than you.'' 
             He's joked about it, but a lot of us as fathers know we're 
             successes because we look at our children. Your dad had 
             that privilege of being able to know.
               But I think there's a reason why. The distinguishing 
             characteristic for me, someone who knew him well but not 
             nearly as well as many of you, was that he had another 
             trait that my dad thought was the single most valuable 
             thing beyond courage that you could possess, and that was 
             that Donald comported himself with dignity, but more 
             important, he accorded dignity to everybody else. 
             Everybody else.
               I remember him saying to me when I--just since I've been 
             Vice President, saying--I was quoting my dad saying a job 
             is about a lot more than a paycheck. It's about dignity. 
             It's about respect. It's about your sense of yourself. 
             It's about your place in the community. It's about who you 
             are.
               I'll never forget Donald calling me about, by the way, 
             Somalia, recalling hearing me say that. And I went back 
             and asked my staff to look up what I thought I remembered 
             Donald talking about. And Donald's--the ability of Donald 
             to comport himself the way he did in a pretty increasingly 
             rough environment for both parties, Donald said, ``I think 
             there's a lot of dignity in being able to achieve things 
             without having to create rupture.''
               Sometimes in our town--and, Congressman, that was an 
             eloquent presentation you made--but sometimes in this 
             great town with a lot of great heroes, we go through 
             phases where we sometimes confuse dignity with weakness. 
             We sometimes confuse dignity with a lack of resolve.
               But the magic of Donald, the magic of your brother, your 
             father, your grandfather, was no one ever confused it with 
             him. He was pretty remarkable. I served in the Senate for 
             36 years. I've had the great pleasure of knowing an awful 
             lot of great women and men. As was pointed out when I left 
             the Senate after being elected the 7th time, only 13 
             people in history served longer than me, which is supposed 
             to give me solace, but it made me feel very bad. 
             (Laughter.) But the point of the fact is very few people 
             can pull off what Don pulled off. I don't know what it is. 
             I don't know what that thing was that he had. As I said, a 
             lot of people have his passion. I know a lot of you--
             Republicans and Democrats--bleed for your constituency, 
             have done incredible things. But he had something special.
               There was a place where--there is a psalm that says, 
             ``To the upright, there rises light in darkness. He is 
             gracious, he is full of compassion, and he is righteous.'' 
             Donald was upright. Donald was a man who was always--to my 
             experience--always gracious, whether it was talking to the 
             conductor on Amtrak or being with him in his district, 
             which I was on several occasions--that's where I first met 
             you--or whether it was in God-forsaken places in Africa, 
             where I might add and no one has mentioned, it took some 
             courage for him to go and he went.
               He put his life in jeopardy on some of those trips. It 
             wasn't automatic. It wasn't always Donald being greeted 
             with open arms. I can think of two occasions where his 
             aircraft was greeted with weapons fire at his aircraft.
               So you know--but the interesting thing about Donald is 
             ``to the upright,'' as the psalm says, ``here rises light 
             in darkness.'' It not only enlightened him, but it was 
             amazing how much light he brought to the darkest recesses 
             of his district and of the world.
               It's been mentioned here a number of times, and I 
             apologize for repeating it, but I think it's important 
             it's mentioned here that Donald was always a teacher. He 
             was the kind of teacher a lot of us wish we had when we 
             were in school, a teacher who never lectured you, a 
             teacher who demanded a lot of you, a teacher who knew what 
             you needed and was able to help you where he could, but 
             expected you to act. That was everything about him.
               There's a great phrase about being a teacher. And 
             whether it was Donald going after increasing Pell grants 
             or cutting loan interest rates or all the other things he 
             did in his district--there is a great expression, which 
             I'll end with and it was by Henry Adams. ``A teacher 
             affects eternity. He can never tell where his influence 
             stops.'' A teacher affects eternity. He can never tell 
             where his influence stops. We can say all we know about 
             Donald to the family, but we don't know--we really don't 
             know--where his influence stops.
               I'll close by reaching to my Irish roots, because Donald 
             helped Teddy Kennedy, helped Chris Dodd, helped a lot of 
             other people in this place, worked so hard on the Northern 
             Ireland accords. His compassion was not cabined by race or 
             color or ethnicity. And the highest compliment any 
             Irishman can accord to anyone, period, is to say, he was a 
             good man. Donald Payne was a good man. (Applause.)
                          LETTER FROM AMBASSADOR OF IRELAND

               Dear family members of Congressman Payne,
               I was very sorry to learn of Congressman Payne's passing 
             and on my own behalf and that of the Embassy and also on 
             behalf of the Government and people of Ireland, I extend 
             sincere condolences to you at this difficult time.
               Congressman Payne's contribution to the peace process in 
             Northern Ireland was significant. Whether through his 
             regular highlighting of injustice, his numerous visits to 
             Ireland, or his many exchanges with local parties in 
             support of the 1998 Good Friday Agreement, his was a voice 
             which at all times recalled the importance of human rights 
             as a key element in the quest for lasting peace and 
             reconciliation. I am also mindful of Congressman Payne's 
             more recent support for ongoing development aid work in 
             South Africa.
               In Congressman Payne, Ireland has lost a true friend and 
             New Jersey and America a loyal servant. You and his many 
             friends and colleagues are in our thoughts and prayers.

    Yours Sincerely,

                                                 Michael Collins,      
                                                        Ambassador.    

</pre></body></html>
